U.S. SECURITIES AND EXCHANGE COMMISSION
OFFICE OF THE INSPECTOR GENERAL




SEMIANNUAL REPORT TO CONGRESS
   April 1, 2010 - September 30, 2010
Organizational Chart                                      Office of Inspector General



                             Inspector General



               Counsel to the                                    Deputy
                 Inspector                                  Inspector General
                  General


               Legal Assistant

                                      Assistant Inspector
                                                                                   Assistant Inspector
                                          General for
                                                                                   General for Audits
                                        Investigations


 Assistant to                       Senior              Senior                    Audit                 Audit
the Inspector                    Investigator        Investigator                Manager               Manager
   General

                                                                                  Audit                 Audit
                                    Senior              Senior
    Legal                                                                        Manager               Manager
                                 Investigator        Investigator
  Specialist
                                                                                  Audit                 Audit
                                           Investigator                          Manager               Manager
Administrative
   Officer

                                                                                            Audit
                                                                                           Assistant
                                                              Attorney Adviser
April 1, 2010 - September 30, 2010
                                                                    OFFICE OF
                                                                    INSPECTOR
                                         U.S. Securities
                                         and Exchange
                                                                    GENERAL
                                          Commission
                                                                    SEMIANNUAL
                                                                    REPORT TO
                                                                    CONGRESS
                                     MISSION
                                        The mission of the Office of Inspector General (OIG) is to promote the integrity, efficiency,
                                     and effectiveness of the critical programs and operations of the U.S. Securities and Exchange
                                     Commission (SEC). This mission is best achieved by having an effective, vigorous and inde-
                                     pendent office of seasoned and talented professionals who perform the following functions:


                                     •     Conducting independent and objec-           •    Offering expert assistance to improve
                                           tive audits, evaluations, investigations,        SEC programs and operations;
                                           and other reviews of SEC programs
                                           and operations;                             •    Communicating timely and useful
                                                                                            information that facilitates
                                     •     Preventing and detecting fraud, waste,           management decision making and the
                                           abuse, and mismanagement in SEC                  achievement of measurable gains; and
                                           programs and operations;
                                                                                       •    Keeping the Commission and the
                                     •     Identifying vulnerabilities in SEC sys-          Congress fully and currently informed
                                           tems and operations and recommend-               of significant issues and developments.
                                           ing constructive solutions;
U.S. Securities and Exchange Commission

                                                                                   SEMIANNUAL
                                                                                   REPORT TO
                                                   Office of
                                                  Inspector
                                                   General
                                                                                   CONGRESS
                                           CONTENTS
                                          MESSAGE FROM THE INSPECTOR GENERAL	..............................................................1

                                          MANAGEMENT AND ADMINISTRATION........................................................................3
                                                  Agency Overview................................................................................................................3
                                                  New OIG SEC Employee Suggestion Hotline......................................................................3
                                                  OIG Five Year Strategic Plan...............................................................................................4
                                                  OIG Staffing........................................................................................................................5

                                          CONGRESSIONAL AND OTHER RELATED TESTIMONY,
                                           REQUESTS, AND BRIEFINGS.....................................................................................7

                                          THE INSPECTOR GENERAL’S STATEMENT ON THE SEC’S MANAGEMENT AND
                                           PERFORMANCE CHALLENGES...............................................................................13

                                          ADVICE AND ASSISTANCE PROVIDED TO THE AGENCY AND
                                           THE GOVERNMENT ACCOUNTABILITY OFFICE.....................................................19

                                          COORDINATION WITH OTHER OFFICES OF INSPECTOR GENERAL........................21

                                          AUDITS AND EVALUATIONS.........................................................................................23
                                                  Overview..........................................................................................................................23
                                                     Audits.........................................................................................................................23
                                                     Evaluations..................................................................................................................23
                                                     Audit Follow-up and Resolution...................................................................................24
                                                  Audits and Evaluations Conducted...................................................................................24
                                                     Assessment of Corporation Finance’s Confidential Treatment Processes and
                                                      Procedures (Report No. 479)....................................................................................24
                                                     Review of the SEC’s Section 13(f) Reporting Requirements (Report No. 480)..............28
             Real Property Leasing Procurement Process (Report No. 484)	....................................31
             Assessment of the SEC’s Privacy Program (Report No. 485).......................................35
             Review of PRISM Automated Procurement System Support Contracts
              (Report No. 486)	.......................................................................................................39
             Audit of the FedTraveler Travel Service (Report No. 483) 	..............................................41

    PENDING AUDITS AND EVALUATIONS 	...............................................................................44
         Assessment of Compliance with Terms and Conditions of Exemptive Orders and
           No-Action Letters 	.....................................................................................................44
         Audit of Time-And-Materials and Labor-Hour Contracts 	..............................................44
         Assessment of the SEC’s Budget Execution Process..................................................45
         2010 Federal Information Security Management Act Assessments 	..............................45
         Implementation and Compliance with Homeland Security
           Presidential Directive 12 (HSPD-12)	..........................................................................45

INVESTIGATIONS 	..........................................................................................................47
         Overview	...........................................................................................................................47
         Investigations and Inquiries Conducted	.............................................................................48
            Allegations of Improper Coordination Between the SEC and Other Governmental
              Entities Concerning the SEC’s Enforcement Action Against
              Goldman Sachs & Co. (Report No. OIG-534) 	...........................................................48
            Investigation of the Circumstances Surrounding the SEC’s Proposed
              Settlements with Bank of America, Including a Review of the Court’s Rejection
             of the SEC’s First Proposed Settlement and an Analysis of the Impact of
              Bank of America’s Status as a TARP Recipient (Report No. OIG-522).......................57
            Failure to Maintain Active Bar Membership, Lack of Candor, Conflicts of
              Interest, Improper Use of Non-Public Information, and Abuse of
              Full-Time Telework Arrangement at Headquarters (Report No. OIG-520)	..................64
            Improper use of Leave Without Pay to Receive Full-Time Benefits
              While Working Part-Time Hours by OCIE Staff (Report No. OIG-524) 	.......................66
            Misrepresentation of Identity and Lack of Active
              Bar Membership (Report No. OIG-541) 	....................................................................67
            Unprofessional Conduct by Supervisor While Conducting
              Examination (Report No. OIG-530) 	...........................................................................68
            Allegation of Failure of a Regional Office to Conduct an
              Adequate Investigation (Report No. OIG-529) 	...........................................................69
            Allegations of Failure to Conduct Adequate Enforcement Investigation
              and Misconduct by Enforcement Attorneys (Report No. OIG-531)	............................69
            Allegation of Unauthorized Disclosure of Non-Public
              Information (Report No. OIG-525)	............................................................................. 70
            Complaint Concerning Obstruction of Justice (Report No. OIG-513)	........................... 71
            Inquiries Conducted and Memorandum Reports Issued	.............................................. 71
               Misuse of Computer Resources and Official
                  Time (PIs: 10-30, 10-31, 10-32, and 10-59) 	......................................................71
               Allegations of Preferential Treatment, Improper Gifts, and
               	 Improper Solicitation of Charitable Donations (PI 09-103)	....................................72
               Appearance of Impropriety With Respect to Acts Affecting a
                  Personal Financial Interest (PI 09-04)	..................................................................73
               Failure to Follow Internal Policy Regarding Separation of
                  a Probationary Employee (PI 09-60) ....................................................................74
               Enforcement Attorney Engaged in Prohibited Political Activity (PI 10-54) .................74
               Complaints Regarding Waste and Abuse in Federal Contracts (PI 09-110) ..............75
               Allegation of Failure to Investigate Complaints (PI 09-39) .........................................75
               Improper Pre-Selection of Contractor ......................................................................76

PENDING INVESTIGATIONS .........................................................................................76
            Complaint of Investigative Misconduct by Various Enforcement Attorneys ...................76
            Complaint of Failure of an SEC Regional Office to Uncover Fraud and
              Inappropriate Conduct on the Part of a Senior-Level Official......................................77
            Allegation of Misconduct by an SEC Official Testifying Before Congress.......................77
            Complaint of Abusive and Intimidating Behavior ..........................................................77
            Allegation of Improper Access to SEC Facilities and Computer Systems .....................78
            Investigation Concerning the Role of Political Appointees in
              the Freedom of Information Act Process ...................................................................78
            Allegation of Procurement Violations ...........................................................................78
            Allegation of Negligence in the Conduct of an Enforcement Investigation .....................79
            Complaint of Unauthorized Disclosure of Non-Public Information.................................79
            Allegation of Unauthorized Disclosure of Non-Public Information to
              the News Media .......................................................................................................79
            Allegation of Improper Preferential Treatment and Failure to
              Investigate Alleged Obstruction of SEC Investigation at Regional Office ....................80
            Complaint of Violation of Post-Employment Restrictions ..............................................80
            Complaint of Abuse of Compensatory Time ................................................................80

REVIEW OF LEGISLATION AND REGULATIONS ..........................................................81

STATUS OF RECOMMENDATIONS WITH NO MANAGEMENT DECISIONS ................85

REVISED MANAGEMENT DECISIONS .........................................................................85

AGREEMENT WITH SIGNIFICANT MANAGEMENT DECISIONS .................................85

INSTANCES WHERE INFORMATION WAS REFUSED ..................................................85

TABLES:
         1 List of Reports: Audits and Evaluations ......................................................................87
         2 Reports Issued With Costs Questioned or Funds Put to
           Better Use (Including Disallowed Costs) ......................................................................89
         3 Reports With Recommendations on Which Corrective Action
           Has Not Been Completed ...........................................................................................91
         4 Summary of Investigative Activity ..............................................................................101
         5 Summary of Complaints Received ............................................................................103
         6 References to Reporting Requirements of the Inspector General Act ........................105
Appendix A: Peer Reviews of OIG Operations	............................................................ 107
                Peer Review of National Credit Union Administration’s Office of
                  Inspector General...........................................................................................107
                Peer Review of the SEC OIG’s Audit Operations by the Corporation
                  for Public Broadcasting OIG............................................................................107
                Peer Review of the SEC OIG’s Investigative Operations by U.S. Equal
                  Employment Opportunity Commission OIG.....................................................107

Appendix B: Testimony of H. David Kotz, Inspector General of
            the Securities and Exchange Commission, Before the
            United States Senate Committee on Banking,
            Housing and Urban Affairs	...................................................................... 109

Appendix C: Testimony of H. David Kotz, Inspector General of the
            Securities and Exchange Commission, Before the
            Financial Crisis Inquiry Commission	....................................................... 121
                       Message from the
                       Inspector General
                       I am pleased to present the United States (U.S.) Securities and Exchange
                       Commission (SEC or Commission) Office of Inspector General’s (OIG’s)
                       Semiannual Report to Congress for the period of April 1, 2010 through Sep-
                       tember 30, 2010. This report is required by the Inspector General Act of
                       1978, as amended, and covers the work performed by the OIG during the
                       period indicated.

         The reporting period was another busy and productive one for the OIG. We issued numer-
ous significant audit and investigative reports on matters critical to the SEC’s programs and opera-
tions. During this reporting period, we issued six reports on audits or reviews of a wide variety of
areas and matters. We conducted an audit of the SEC’s Division of Corporation Finance’s confi-
dential treatment processes and procedures and made several recommendations to improve the
SEC’s policies to ensure there is a robust and substantive review and examination of confidential
treatment requests in accordance with the applicable regulatory requirements. We also conducted a
review of the reporting requirements under Section 13(f) of the Securities Exchange Act of 1934,
which was enacted to increase the public availability of information regarding the securities holdings
of institutional investors. Our review found that significant improvements can be made to the SEC’s
review and monitoring of the information reported under Section 13(f), and we made numerous
specific and concrete recommendations to assist the SEC’s efforts in this area. We also conducted an
assessment of the SEC’s privacy program, identifying vulnerabilities in SEC information technology
(IT) systems that could have led to the disclosure of valuable and sensitive data. Finally, we con-
ducted audits of the SEC’s electronic travel service program and its real property leasing procure-
ment process, as well as a review of a multi-million dollar contract about which anonymous com-
plainants had expressed significant concerns. In all of our audits and reviews, we strove to identify
cost savings and to make recommendations to improve the SEC’s programs and operations. I am
pleased to report that management has concurred with nearly every recommendation we made in
these audits and reviews and is beginning to implement corrective action.

         On the investigative side, we completed ten investigative reports on a myriad of complex and
critical issues. We concluded a year-long investigation of the circumstances surrounding the SEC’s
proposed settlements with a leading financial institution, which included an analysis of the impact of
the financial institution’s status as a recipient of funds under the Troubled Asset Relief Program
(TARP) on the SEC enforcement action. We also conducted a thorough and comprehensive investi-
gation of allegations we received from several members of the House of Representatives that the
SEC improperly coordinated with the White House, Members of Congress or Democratic political
committees concerning the bringing of an enforcement action against Goldman Sachs & Co. In ad-
dition, we issued reports of investigation regarding allegations that SEC employees violated person-
nel rules by improperly receiving excessive federal benefits, failed to maintain active bar member-
ships and misrepresented their bar status, abused their telework, engaged in significant conflicts of
interests, and acted unprofessionally while conducting examinations.

        During the reporting period, I also had the opportunity to testify before the U.S. Congress or
related entities on two occasions. In May 2010, I testified before the Financial Crisis Inquiry Com-



                                                     1
mission (FCIC) on the subject of the implementation of the SEC’s Consolidated Supervised Enti-
ties (CSE) program and the adequacy of the SEC’s oversight of Bear Stearns and other CSE
program participants. In my testimony, I described the audit reports my Office issued in Septem-
ber 2008, analyzing the SEC’s oversight of the CSE program, in which Bear Stearns, Goldman
Sachs, Morgan Stanley, Merrill Lynch and Lehman Brothers participated. I was pleased to hear
from the FCIC that the OIG’s audits had been invaluable to its work in understanding the roots
of the financial crisis.

        In September 2009, I testified before the U.S. Senate Committee on Banking, Housing
and Urban Affairs about an investigation my Office conducted relating to the SEC’s failure to
uncover the alleged $8 billion Robert Allen Stanford Ponzi scheme. In that testimony, I summa-
rized the report of the investigation we conducted and provided suggestions about how to reform
SEC operations.

        I am also pleased to report that during this reporting period, we established an OIG SEC
Employee Suggestion Hotline in accordance with Section 966 of the recently-enacted Dodd-
Frank Wall Street Reform and Consumer Protection Act. Through this new hotline, we are re-
ceiving suggestions from Commission employees for improvements in work efficiency, effective-
ness, and productivity and the use of Commission resources, as well as allegations by Commission
employees of waste, abuse, misconduct, or mismanagement within the Commission. I believe
that the reports received through this new hotline will result in significant improvements in the
SEC’s programs and operations and costs savings.

       I am very proud of the exceptional accomplishments of this Office during the past six
months and believe that, particularly during these turbulent financial times, the work of the OIG
has been critical in providing the SEC, the U.S. Congress, and the public with valuable
information about the regulatory climate. These accomplishments have been enhanced by the
support of the SEC Chairman and Commissioners, as well as the SEC’s management team and
employees. I look forward to continuing this productive and professional working relationship as
we continue to help the SEC meet its important challenges.




                                                            H. David Kotz
                                                            Inspector General




                                              2
U.S. Securities and Exchange Commission

                                                                        SEMIANNUAL
                                                                        REPORT TO
                                                                        CONGRESS
                                                Office of
                                               Inspector
                                                General



                                          MANAGEMENT AND
                                          ADMINISTRATION
                                          AGENCY OVERVIEW                                          sight Board, alternate trading systems, and
                                                                                                   credit rating agencies.
                                               The SEC’s mission is to protect investors;
                                          maintain fair, orderly, and efficient markets;               In order to accomplish its mission most
                                          and facilitate capital formation. The SEC                effectively and efficiently, the SEC is organized
                                          strives to promote a market environment that             into five main divisions (Corporation Finance;
                                          is worthy of the public’s trust and character-           Enforcement; Investment Management; Trad-
                                          ized by transparency and integrity. The SEC’s            ing and Markets; and Risk, Strategy, and Fi-
                                          core values consist of integrity, accountability,        nancial Innovation), and 16 functional offices.
                                          effectiveness, teamwork, fairness and commit-            The Commission’s Headquarters is located in
                                          ment to excellence. The SEC’s goals are to               Washington, D.C., and there are 11 Regional
                                          foster and enforce compliance with the federal           Offices located throughout the country. As of
                                          securities laws; establish an effective regulatory       September 30, 2010, the SEC employed had
                                          environment; facilitate access to the                    3,748 full-time equivalents (FTEs), consisting
                                          information investors need to make informed              of 3,664 permanent and 84 temporary FTEs.
                                          investment decisions; and enhance the
                                          Commission’s performance through effective               New OIG SEC Employee Suggestion
                                          alignment and management of human re-                    Hotline
                                          sources, information, and financial capital.
                                                                                                       Section 966 of the Dodd-Frank Wall Street
                                              SEC staff monitor and regulate a securities          Reform and Consumer Protection Act (Dodd-
                                          industry that includes more than 35,000 regis-           Frank Act), Public Law 111-203, which was
                                          trants, including over 10,000 public compa-              enacted on July 21, 2010, required the OIG to
                                          nies, about 11,500 investment advisers, about            establish a new suggestion hotline program for
                                          7,800 mutual funds, and about 5,400 broker-              SEC employees. We are pleased to report that
                                          dealers, as well as national securities exchanges        effective September 27, 2010, the OIG, in ac-
                                          and self-regulatory organizations, 600 transfer          cordance with the requirements of the Dodd-
                                          agents, the Municipal Securities Rulemaking              Frank Act, established both a new hotline tele-
                                          Board, the Public Company Accounting Over-               phone number and electronic mailbox.
                                                                                                   Through either of these mechanisms, the OIG


                                                                                               3
welcomes suggestions by all SEC employees for             and procedures are designed to ensure that our
improvements in work efficiency, effectiveness,           audits and investigations are conducted in a fair
and productivity and the use of the resources of          and impartial manner. The OIG considered
the Commission, as well as allegations by SEC             any issues or concerns that had been raised dur-
employees of waste, abuse, misconduct or mis-             ing audits and investigations conducted during
management within the Commission.                         the past several years to ensure they were ap-
                                                          propriately addressed in the Plan. The OIG
    The OIG will carefully review and give seri-          then developed the performance indicators de-
ous consideration to all suggestions or reports           scribed in the Plan to include not only output
received through the new hotline. Consistent              measures, but also outcome measures.
with the requirements of Section 966 of the
Dodd-Frank Act, the OIG will maintain as con-                 The Plan set forth the following OIG vision:
fidential the identity of individuals who provide         To increase the likelihood that Commission ob-
information to the new hotline, unless the indi-          jectives are achieved as a trusted contributor to
vidual requests otherwise in writing. The OIG             investor protection, the maintenance of fair, or-
will also keep confidential any specific                  derly and efficient markets, and the facilitation
information provided to the hotline, at the re-           of capital formation in conducting audits and
quest of the individual making the suggestion or          investigations and the achievement of its statu-
report.                                                   tory purpose. The Plan also identified several
                                                          core values that are fundamental to the OIG
    At the end of the semiannual reporting pe-            accomplishing its mission and conducting its
riod, the OIG had already received four reports           daily operations, which include: integrity, fair-
through the new hotline. The OIG immedi-                  ness, relevancy, communication, and compe-
ately began to review and assess these sugges-            tency. Further, the Plan discussed the significant
tions. During the next reporting period, the              expansion anticipated in the Commission’s staff
OIG plans to implement a program, in accor-               and resources as the agency continues to reform
dance with Section 966 of the Dodd-Frank Act,             and improve the manner in which it operates in
to provide non-monetary recognition to SEC                an environment of increased scrutiny, and how
employees who make suggestions that increase              the OIG plans to adjust its activities in light of
the work efficiency, effectiveness, or productivity       this expansion.
of the Commission, or reduce waste, abuse,
misconduct, or mismanagement within the                       In addition, the Plan set forth three specific
Commission.                                               goals the OIG has adopted in order to accom-
                                                          plish its vision, as well as specific objectives
                                                          enumerated under each goal. The three goals
OIG Five Year Strategic Plan                              are:

    During the reporting period, the OIG final-              Goal 1: Improve the Economy, Efficiency
ized and issued its Strategic Plan (Plan) for Fis-           and Effectiveness of SEC Programs and
cal Years 2010 to 2015, which describes the                  Operations
OIG’s goals and objectives and presents meas-
ures that the OIG will use to gauge its                      Goal 2: Enhance the Efficiency and Effec-
performance. In the course of finalizing the                 tiveness of the SEC OIG’s Operations and
Plan, the Deputy Inspector General oversaw                   Communications
efforts to review the OIG’s previous strategic               Goal 3: Promote the Integrity, Efficiency
plan and to make necessary changes and im-                   and Effectiveness of the SEC by Keeping
provements. One focus of those efforts was to                Congress and the Public Informed
make certain that the OIG’s internal processes



                                                      4
    Finally, the Plan noted that, consistent with       chyk clerked for a senior judge on the U.S.
the requirements of the Government                      Court of Appeals for the Third Circuit. He
Performance and Results Act, the OIG has es-            also has extensive experience on Capitol Hill,
tablished performance indicators to help meas-          having worked for the U.S. House of Represen-
ure how well the OIG is achieving the afore-            tatives Committee on the Judiciary, and the per-
mentioned goals. These performance indicators           sonal staff of both a Member of the House of
include both (1) output measures, such as the           Representatives and a U.S. Senator. Mr. Kozol-
number, quality and complexity of the audit,            chyk is a 1998 graduate of the University of
evaluation and investigative reports issued, and        Arizona, where he received Bachelor of Arts
the number of recommendations implemented               degrees in Political Science and Philosophy. He
by the agency; and (2) outcome measures, such           received his Juris Doctor degree from University
as the extent to which the OIG effects positive         of Maryland, Baltimore School of Law in 2006.
change in the agency and stakeholder needs are
met in a timely manner.                                     In July 2010, Kelli Brown-Barnes joined the
                                                        OIG as an Audit Manager. Ms. Brown-Barnes
                                                        comes to us from the SEC’s Division of Trading
OIG Staffing                                            and Markets, where she served as an Automated
                                                        Review Policy Specialist and spent nine years
    During the reporting period, the OIG                conducting inspections of Self-Regulatory and
added two auditors, an attorney-advisor and a           Clearing Organizations. Ms. Brown-Barnes is a
legal assistant, thereby further increasing its ca-     graduate of Bowie State University, where she
pacity to conduct its oversight responsibilities.       received both her Bachelor’s degree in Business
                                                        Administration and Master’s degree in Adminis-
     In April 2010, Andrea Holmes joined the            trative Management.
OIG as an Audit Manager. Ms. Holmes comes
to us from the Department of Housing and Ur-                In August 2010, Suh-Young Lauren Hong
ban Development (HUD), where she spent 20               joined the OIG as a legal assistant. Ms. Hong
years in various staff positions at the headquar-       worked most recently as the Director of Con-
ters and field office level. While at HUD, Ms.          tracts for a professional IT services provider,
Holmes served as an Operating Accountant,               where she provided advice on numerous con-
Systems Accountant, and Management Analyst.             tracts and compliance issues concerning labor
She performed management reviews of agency              and employment law. Ms. Hong received a
field offices to assess the effectiveness of internal   Bachelor of Arts degree from the Ewha
controls, made recommendations to improve               Woman’s University in Seoul, Korea in 1998,
financial accounting systems, and reconciled            and a Master’s degree from the Sogang Gradu-
obligation, disbursement, and accrual transac-          ate School of International Studies in Seoul,
tions for a major housing loan program. Ms.             Korea, in 2001, graduating with 4.00 GPA. In
Holmes is a Certified Public Accountant and             2009, she obtained her Juris Doctor degree
member of the American Institute of Certified           from the American University Washington Col-
Public Accountants.                                     lege of Law.

    In April 2010, Raphael Kozolchyk joined                 Finally, one of our audit managers, Renee
the OIG as an attorney-advisor. Prior to joining        Stroud, left the OIG during the reporting pe-
the OIG, Mr. Kozolchyk was General Counsel              riod for another position within the SEC. In
to the Personal Watercraft Industry Association,        addition, two contractors, who worked for the
a division of the National Marine Manufactur-           OIG in temporary positions, Verngina Smith
ers Association, where he managed the legisla-          and Natasha Dandridge, left for other opportu-
tive and legal affairs of the trade association.        nities.
Before working for the association, Mr. Kozol-

                                                   5
U.S. Securities and Exchange Commission
                                                                       SEMIANNUAL
                                                                       REPORT TO
                                                                       CONGRESS
                                                Office of
                                               Inspector
                                                General




                                          CONGRESSIONAL AND OTHER
                                          RELATED TESTIMONY, REQUESTS,
                                          AND BRIEFINGS
                                              During the reporting period, the OIG          suant to Public Law No. 111-21, the Fraud
                                          continued to keep the Congress fully and          Enforcement and Recovery Act of 2009, to
                                          currently informed of the OIG’s                   examine the causes, both domestic and
                                          investigations, audits and other activities, as   global, of the current financial and eco-
                                          well as proposals for legislative improve-        nomic crisis in the U.S. The IG’s testimony
                                          ments, through testimony and numerous             and certain other requests and briefings are
                                          meetings and written and telephonic com-          discussed in detail below.
                                          munications. Many of these communica-
                                          tions related to the OIG’s investigation per-     Inspector General Testimony
                                          taining to the SEC’s response to concerns
                                          regarding Robert Allen Stanford’s alleged             The IG testified before both the U.S.
                                          Ponzi scheme, which was completed during          Senate Committee on Banking, Housing
                                          the previous reporting period, as well as         and Urban Affairs (Senate Banking Com-
                                          requests related to other previously-             mittee) and the FCIC during the reporting
                                          completed investigations and requests for         period.
                                          additional investigative work. The Inspector
                                          General (IG) also had extensive communica-            On September 22, 2010, the IG testified
                                          tions with Members of Congress concern-           before the U.S. Senate Committee on Bank-
                                          ing specific legislative provisions that would    ing, Housing and Urban Affairs (Senate
                                          impact the SEC, the SEC OIG and other             Banking Committee) on the subject of
                                          IGs, including the sweeping financial reform      “Oversight of the SEC’s Inspector General’s
                                          legislation that was debated and enacted          Report on the ‘Investigation of the SEC’s
                                          during the reporting period. Further, the         Response to Concerns Regarding Robert
                                          SEC IG briefed the staff of, and testified        Allen Stanford’s Alleged Ponzi Scheme’ and
                                          before, the Financial Crisis Inquiry Com-         Improving SEC Performance.” The OIG’s
                                          mission (FCIC), which was established pur-        Report of Investigation (OIG-526) was is-




                                                                                       7
sued on March 31, 2010, and was discussed in              posit (CDs) Stanford was promoting could not
detail in the OIG’s Semiannual Report to Con-             have been legitimate, and that it was highly un-
gress for the period ending March 31, 2010. In            likely the returns Stanford claimed to generate
his testimony before the Senate Banking Com-              could have been achieved with the purported
mittee, the IG provided a briefing on the com-            conservative investment approach utilized. The
prehensive investigation the OIG conducted, at            IG provided detailed information regarding
the request of the Committee’s Ranking Mem-               each of the four examinations conducted in
ber, the Honorable Richard Shelby (R-                     1997, 1998, 2002 and 2004, which concluded in
Alabama), and the Honorable David Vitter (R-              each instance that Stanford’s CDs were likely a
Louisiana), into the handling of the SEC’s in-            Ponzi or similar fraudulent scheme, with the
vestigation into Robert Allen Stanford (Stan-             only difference being that the potential fraud
ford) and his various companies, including the            continued to grow exponentially, from $250 mil-
history of all the SEC’s investigations and               lion to $1.5 billion.
examinations regarding Stanford.
                                                              The IG’s testimony also discussed in detail
    The IG provided a synopsis of the extensive           multiple complaints received by the SEC from
work performed during the course of the inves-            outside entities that reinforced and bolstered the
tigation, including: (1) requests for and search          examiners’ suspicions about Stanford’s opera-
of approximately 2.7 million e-mails; (2) review          tions, and the SEC’s failure to follow up on
and analysis of documents produced in response            these complaints or to take any action to investi-
to the OIG’s comprehensive document requests              gate them. The IG described the multiple ef-
to the Division of Enforcement (Enforcement)              forts made by the Fort Worth Examination
and the Office of Compliance, Inspections and             group after each examination of Stanford’s op-
Examinations (OCIE), as well as outside entities,         erations to convince the Enforcement group to
pertaining to the SEC’s examinations, inquires            open and conduct an investigation of Stanford,
and investigations of Stanford and his firms be-          and the failure of the Enforcement group to
tween 1997 and 2009; and (3) 51 testimonies               make any meaningful effort to investigate the
and interviews of 48 individuals with knowledge           potential fraud until late 2005. In addition, the
of facts or circumstances surrounding the SEC’s           IG observed that even after the Enforcement
examinations and/or investigations of Stanford            group agreed in late 2005 to seek a formal order
and his firms.                                            from the Commission to investigate Stanford,
                                                          they missed an opportunity to have the SEC
     The IG then briefed the Senate Banking               bring an action based upon the admitted failure
Committee on the results of the OIG’s investi-            to conduct any due diligence regarding Stan-
gation, as contained in a report of investigation         ford’s investment portfolio.
that included over 150 pages of analysis and
200 exhibits, which was issued to the SEC                     The IG further briefed the Senate Banking
Chairman on March 31, 2010. The IG in-                    Committee on the OIG’s overall finding that
formed the Senate Banking Committee that the              SEC-wide institutional influence had factored
OIG’s investigation determined that the SEC’s             into the Enforcement group’s repeated decisions
Fort Worth Regional Office was aware since                not to undertake a full and thorough investiga-
1997 that Stanford was likely operating a Ponzi           tion of Stanford, notwithstanding staff aware-
scheme, having come to that conclusion a mere             ness that the potential fraud was growing. In
two years after Stanford’s investment adviser             particular, the IG mentioned the perception of
registered with the SEC in 1995. The IG also              senior Fort Worth officials that they were being
testified that over the next eight years, the SEC’s       judged on the numbers of cases brought, so-
Fort Worth Examination group conducted four               called “stats,” which resulted in cases like Stan-
examinations of Stanford’s operations, finding            ford, which were not considered “quick-hit” or
in each examination that the certificates of de-          “slam-dunk” cases, not being encouraged. The

                                                      8
IG also discussed the evidence obtained during        Stearns) and other CSE program participants.
the OIG’s investigation showing that a former         The CSE program had been created in 2004 to
head of Enforcement in Fort Worth, who played         allow the SEC to supervise certain broker-
a significant role in multiple decisions over the     dealer holding companies on a consolidated ba-
years to quash investigations of Stanford,            sis. In response to a request from the Honor-
sought to represent Stanford on three separate        able Charles E. Grassley (R-Iowa), Ranking
occasions after he left the Commission and, in        Member of the U.S. Senate Committee on Fi-
fact, represented Stanford briefly in 2006 before     nance, the OIG conducted two audits that ana-
the SEC Ethics Office informed him that such          lyzed the CSE program as it related to Bear
representation was improper.                          Stearns and the SEC Division of Trading and
                                                      Markets’ (TM’s) broker-dealer risk assessment
      In addition to describing the findings of the   program. Both of these audits were completed
OIG investigation, the IG briefed the Senate          on September 25, 2008, and were discussed in
Banking Committee on the recommendations              detail in the OIG’s Semiannual Report to Con-
the OIG made in its report of investigation.          gress for the period ending September 30, 2008.
These recommendations included that the SEC
Chairman carefully review the report’s findings           The IG’s testimony before the FCIC fo-
and share with Enforcement management the             cused particularly on the audit the OIG con-
portions of the report that related to the            ducted pertaining to the CSE program as it
performance failures by those employees who           related to Bear Stearns (Report No. 446-A).
still work at the SEC, so appropriate action          The IG briefed the FCIC on the audit objec-
would be taken, on an employee-by-employee            tives and the work performed during the audit,
basis, to ensure that future decisions about when     including the assistance provided by OIG expert
to open an investigation and when to recom-           Albert S. (Pete) Kyle, a faculty member at the
mend the Commission take action are made in           University of Maryland and a renowned expert
a more appropriate and timely manner. The IG          on many aspects of capital markets.
also advised the Senate Banking Committee of
nine specific recommendations from the OIG’s              The IG then discussed the audit’s findings
investigative findings designed to improve the        which included the identification of significant
operations of several SEC divisions and offices,      deficiencies in the CSE program that warranted
as well as the improvements the SEC had begun         improvement. The IG described the audit’s
to make in order to implement these recom-            overall finding that there were significant ques-
mendations. The IG apprised the Committee             tions about the adequacy of a number of the
that the OIG provided the report to the SEC’s         CSE program requirements, given that Bear
Ethics Counsel for referral to the bars of the        Stearns was compliant with several of these re-
two states in which the former head of                quirements but nonetheless collapsed. He also
Enforcement in Forth Worth was admitted to            noted the audit’s findings that prior to Bear
practice law. Finally, the IG identified some         Stearns’ collapse, TM became aware of numer-
parallels between the SEC’s handling of the           ous potential red flags relating to Bear Stearns,
Stanford matter and its failure to uncover Ber-       but did not take actions to limit these risk fac-
nard Madoff ’s Ponzi scheme. The full text of         tors, and that internal SEC procedures and
the IG’s written testimony is contained in Ap-        processes were not strictly followed. The IG
pendix B to this Semiannual Report.                   informed the FCIC of 11 separate specific con-
                                                      cerns with the Commission’s oversight of the
    On May 5, 2010, the IG testified before the       CSE program that were identified during the
FCIC on the implementation of the SEC’s               audit.
Consolidated Supervised Entities (CSE) pro-
gram and the adequacy of the SEC’s oversight              Additionally, the IG described for the FCIC
of the Bear Stearns Companies, Inc. (Bear             26 recommendations made by the OIG to im-

                                                  9
prove the Commission’s oversight of the CSE           stances surrounding the Commission’s negotia-
firms. The IG reported that on September 26,          tions with Goldman and subsequent settlement.
2008, one day after the OIG issued its final          The IG wrote to Congressman Issa on July 22,
audit report, former SEC Chairman Christo-            2010, indicating that the OIG would broaden
pher Cox announced that TM would end the              its current investigation as requested. The OIG
CSE program. However, the IG noted that,              completed its investigation entitled, Allegations of
notwithstanding the closure of the program, the       Improper Coordination Between the SEC and Other
SEC has made efforts to implement the OIG’s           Governmental Entities Concerning the SEC’s
recommendations in order to improve its opera-        Enforcement Action Against Goldman Sachs & Co., on
tions. The IG informed the FCIC that, as of           September 30, 2010, and that investigation is
March 31, 2010, management had completed              described in detail in the Investigations and In-
implementation of 23 of the OIG’s 26 recom-           quiries Conducted Section of this Report.
mendations. The full text of the IG’s written
testimony is contained in Appendix C to this               On April 23, 2010, the IG also received a
Semiannual Report.                                    letter from Senator Grassley, which enclosed an
                                                      anonymous complaint concerning an SEC su-
                                                      pervisor who, during a previous reporting pe-
Other Requests and Briefings                          riod, was found by the OIG to have engaged in
                                                      inappropriate use of SEC computer resources.
     During the reporting period, the IG re-          Senator Grassley requested that the IG take ap-
ceived correspondence from Members of Con-            propriate action to review and evaluate the mer-
gress, requesting that the OIG undertake              its of the allegations and to report the results to
investigations into particular matters. For ex-       Congress. The IG responded to Senator Gras-
ample, on April 23, 2010, the IG received a let-      sley on April 23, 2010, informing him that the
ter from the Honorable Darrell Issa (R-               OIG had received the same anonymous com-
California), Ranking Member of the U.S.               plaint and had already begun to investigate the
House of Representatives Committee on Over-           matter. The OIG’s investigation into the com-
sight and Government Reform, requesting that          plaint about the supervisor is ongoing and is
the OIG conduct a thorough and independent            discussed in the Pending Investigations Section
investigation into the filing of the SEC’s civil      of this Report.
securities fraud action against Goldman Sachs
& Co. (Goldman) in the Southern District of               On June 14, 2010, Senator Grassley wrote
New York on April 16, 2010. On April 25,              to the IG, noting that in recent reports the OIG
2010, the IG replied to Congressman Issa’s let-       had highlighted problems associated with the
ter and informed him that the OIG had opened          revolving door between working at the SEC and
an investigation into the allegations described in    working in the securities industry, which the
his April 23, 2010 letter.                            SEC is charged with regulating. Senator Gras-
                                                      sley stated that the Wall Street Journal had re-
    Subsequent to the commencement of the             ported that “the speed at which the door re-
OIG’s investigation in the Goldman matter,            volves can be swift,” and quoted various exam-
Congressman Issa again wrote to the IG on July        ples from the Wall Street Journal article. Senator
22, 2010. In that letter, Congressman Issa            Grassley’s letter further noted a recent situation
raised questions regarding the timing of the set-     when an SEC senior official left the SEC to
tlement of the SEC’s suit against Goldman,            work for a firm that is regulated by the SEC.
which came within two hours after the U.S.            Senator Grassley requested a summary of the
Senate passed financial reform legislation.           matters the OIG had reviewed that raised re-
Congressman Issa requested that the OIG               volving door issues and asked the OIG to con-
broaden its existing investigation into the SEC’s     duct a review of the circumstances surrounding
suit against Goldman to include the circum-

                                                 10
the senior official’s departure and disclose the        audit recommendations that remained unim-
results of that review.                                 plemented and other matters.

    On June 15, 2010, the IG replied to Senator             On April 22, 2010, the IG received a re-
Grassley’s June 14, 2010 letter. In his response,       quest from Senator Grassley for additional
the IG described in detail previous OIG                 information pertaining to OIG investigations of
investigations, in addition to the ones identified      SEC employees who inappropriately accessed
in Senator Grassley’s letter, that had found con-       pornographic materials from their government
cerns associated with SEC employees who rep-            computers that were described in the OIG’s
resented individuals or entities in matters pend-       previous semiannual reports to Congress. On
ing before the SEC after leaving government             April 22, 2010, the IG provided Senator Gras-
work. The IG also discussed the OIG’s ongoing           sley with the requested summary, which re-
work in this area and notified Senator Grassley         ported, among other things, that during the past
that the OIG had already commenced an inves-            five years the SEC OIG had substantiated that
tigation into the circumstances surrounding the         33 SEC employees or contractors had viewed
departure of the senior official to work for the        pornographic, sexually explicit or sexually sug-
regulated entity. This investigation is ongoing         gestive images using government computer re-
and is discussed in the Pending Investigations          sources and official time, and that 17 of these
Section of this Report.                                 employees were at a grade level SK-14 or
                                                        above. On April 27, 2010, the IG provided
     On August 23, 2010, Senator Grassley and           information pertinent to the disciplinary actions
Congressman Issa provided a letter to the IG,           taken by the SEC in the 33 cases identified by
noting that recent press reports had revealed a         the OIG in response to a request from Senator
“new layer of political review” in one federal          Grassley for additional information. The IG
department’s processes for responding to Free-          also reported to Senator Grassley regarding
dom of Information Act (FOIA) requests. Spe-            various measures taken by the SEC and the
cifically, Senator Grassley and Congressman             OIG in order to prevent future violations of this
Issa requested that the SEC IG conduct an in-           nature.
quiry to determine whether, and if so, the ex-
tent to which, political appointees as the SEC              On April 14, 2010, the IG responded to a
are made aware of information requests and              March 24, 2010 letter from Congressman Issa
have a role in request reviews and decision-            that requested updated information concerning
making.                                                 the SEC OIG’s open and unimplemented rec-
                                                        ommendations, as well as suggestions for legisla-
    On September 14, 2010, the IG wrote to              tive improvements to the Inspector General Act
Senator Grassley and Congressman Issa, in-              of 1978 (IG Act), or the Inspector General Re-
forming them that the OIG had opened an in-             form Act of 2008 (Reform Act). In his response
vestigation into the impact, if any, of political       to Congressman Issa, the IG provided
appointees on the FOIA process at the SEC.              information on the SEC’s open and unimple-
The IG stated that the OIG planned to conduct           mented recommendations, including those with
a thorough and comprehensive investigation of           estimated cost savings, as well as those that the
the matter and detailed the investigative work          SEC OIG deemed to be the three most impor-
performed to date. The OIG’s investigation is           tant open and unimplemented recommenda-
ongoing and is discussed in the Pending                 tions as of April 1, 2010. These included rec-
Investigations Section of this Report.                  ommendations that (1) OCIE establish a proto-
                                                        col for identifying red flags and potential viola-
   The IG also received correspondence from             tions of securities laws based upon an evalua-
Members of Congress requesting information              tion of information found in news reports and
about previous OIG investigative work, OIG              relevant industry sources; (2) Enforcement put

                                                   11
in place policies and procedures or training          informed the Senators that the OIG places a
mechanisms to ensure staff have an understand-        great deal of importance on transparency and
ing of the types of information that should be        strives to keep the Congress and the public in-
validated with independent parties during             formed of the Office’s significant activities. The
investigations; and (3) Enforcement develop           IG stated that the OIG’s semiannual reports to
written in-depth triage analysis steps for com-       Congress described all investigations, audits and
plaints relating to naked short selling. In re-       evaluations conducted by the Office during the
sponse to Congressman Issa’s request for sug-         reporting period, as well as all other matters of
gestions for improvements to the IG Act and the       interest that occurred during the period. Fi-
Reform Act, the IG referenced his March 25,           nally, the IG noted that all audits and evaluation
2009 testimony before the Subcommittee on             reports, investigative memoranda and
Government Management, Organization and               management alerts are posted to the OIG’s
Procurement of the U.S. House of Representa-          website, which also contains links to OIG inves-
tives Committee on Oversight and Government           tigative reports that the SEC has posted in re-
Reform, in which he set forth certain improve-        dacted form pursuant to the FOIA.
ments that he believed would strengthen the
IGs and assist them in carrying out their critical         In addition, during the reporting period, the
work.                                                 IG conducted numerous briefings of, and had
                                                      discussions with, Members of Congress and
    On June 1, 2010, the IG responded to an           their staffs about a wide variety of issues. On
April 8, 2010 request from Senator Grassley           April 21, 2010, the IG briefed Senator Vitter
and the Honorable Tom Coburn (R-                      and his staff concerning the OIG’s investigation
Oklahoma), Ranking Member, Permanent Sub-             in the Stanford matter and the related findings
committee on Investigations of the U.S. Senate        and recommendations. The IG also partici-
Committee on Homeland Security and Gov-               pated in briefings and discussions pertaining to
ernmental Affairs, requesting, among other            various provisions of the financial reform legis-
things: (1) information on instances when the         lation, including a provision that would have
agency resisted and/or objected to oversight          required Presidential appointment and Senate
activities or restricted the OIG’s access to          confirmation of the IGs of several of the finan-
information from October 1, 2008 to April 8,          cial regulatory agencies, including the SEC.
2010; and (2) all closed investigations, audits       Specifically, the IG met with Congressional staff
and evaluations conducted by the SEC OIG              on the financial regulatory reform legislation on
that were not disclosed to the public for the pe-     April 7, 2010, and April 13, 2010, and also
riod of January 1, 2009 through April 30, 2010.       provided suggestions for various alternative pro-
In his June 1, 2010 response, the IG advised the      visions. Further information regarding the IG’s
Senators that the SEC OIG had no instances to         comments on legislative proposals is contained
report for the period from October 1, 2008 to         in the Review of Legislation and Regulations
April 8, 2010, in which the SEC resisted and/or       Section of this Report.
object to oversight activities and/or restricted
the OIG’s access to information. The IG also




                                                 12
U.S. Securities and Exchange Commission
                                                                     SEMIANNUAL
                                                                     REPORT TO
                                                Office of
                                               Inspector
                                                General
                                                                     CONGRESS
                                          THE INSPECTOR GENERAL’S
                                          STATEMENT ON THE SEC’S
                                          MANAGEMENT AND PERFORMANCE
                                          CHALLENGES
                                               As required by the Reports Consolidation        pleted, and the SEC’s procurement and con-
                                          Act of 2000 and Office of Management and             tracting function continues to be a
                                          Budget guidance, I am pleased to submit the          management challenge.
                                          following statement summarizing what I con-
                                          sider to be the most serious management chal-            The Office of Acquisitions (OA), within
                                          lenges facing the Securities and Exchange            the SEC’s Office of Administrative Services
                                          Commission. This statement has been com-             (OAS), is in the process of fully automating its
                                          piled based on OIG audits, investigations,           procurement and contracting function after
                                          evaluations, and general knowledge of the            two previous failed attempts to implement an
                                          agency’s operations.                                 automated procurement system. OA reports
                                                                                               that it has successfully implemented the first
                                                                                               phase of its new automated procurement sys-
                                          CHALLENGE:                                           tem, which is named PRISM. However, the
                                          PROCUREMENT AND CONTRACTING                          second phase of the PRISM project (which
                                                                                               involves the integration of PRISM and Mo-
                                              The OIG first identified the SEC’s pro-          mentum, the SEC’s financial system) has yet to
                                          curement and contracting function as a               be completed, and we understand that the
                                          management challenge in Fiscal Year (FY)             SEC is experiencing delays with this phase of
                                          2008. In FY 2009, we reported that this area         the project.
                                          continued to be a management challenge, al-
                                          though SEC management had represented                     During Fiscal Year 2010, the OIG con-
                                          significant improvements had been made.              ducted work in the procurement area that
                                          While management reports that additional             identified a number of problems and need for
                                          improvements were made in the procurement            increased management controls. Specifically,
                                          and contracting area during FY 2010, the             the OIG issued Management and Oversight of In-
                                          SEC’s efforts in this area have not been com-        teragency Acquisition Agreements at the SEC, Report


                                                                                          13
No. 460, in March 2010, and Review of PRISM                quate segregation of duties in the management
Automated Procurement System Support Contracts, Re-        of the support contract; and (4) a critical deliv-
port No. 486, in September 2010.                           erable under the support contract did not meet
                                                           quality standards.
    In OIG Report No. 460, an OIG audit
identified numerous specific areas in which OA                 In addition, several recommendations made
needed to improve its processes and procedures             in an OIG audit report issued in September
regarding interagency acquisition agreements               2009, Audit of the Office of Acquisitions Procurement
(IAAs), i.e., vehicles through which the SEC ob-           and Contract Management Function, OIG Report
tains needed goods or services from or through             No. 471, have yet to be completed and remain
another federal agency, in a variety of ways.              pending. These include recommendations
Significantly, our audit found that OA did not             related to determining the universe of SEC
have a complete, accurate list of the universe of          contracts, completion of the automation of the
the SEC’s IAAs and had no centralized method               SEC’s procurement and contracting function,
for accurately tracking the SEC’s IAAs, al-                providing adequate training to regional office
though the agency is in the process of imple-              staff with delegated warrant authority, and re-
menting such a system through the PRISM pro-               porting regional activities in the Federal Pro-
ject. Our audit also found that OA lacked SEC-             curement Data System.
specific written internal policies and procedures
for administering and overseeing IAAs. In addi-                Therefore, while the SEC continues to make
tion, our audit identified 23 SEC IAAs for                 improvements in the procurement and contract-
which the period of performance had expired,               ing area, further progress is needed to ensure
but that $6.9 million in funds remained obli-              that the SEC has a well-designed and fully func-
gated on these IAAs. We further found that OA              tioning system in place for the proper oversight
lacked crucial information to review IAA cost              of all SEC contracts and interagency acquisi-
estimates, and that the Statement of Work for a            tions.
large IAA did not conform to the guidance for
the underlying program. While OA has submit-
ted proposals to implement the recommenda-                 CHALLENGE:
tions for improvement made in the OIG’s audit              INFORMATION TECHNOLOGY
report, the majority of the report’s 15 recom-             MANAGEMENT
mendations remain pending. Management has,
however, informed us that they have made ef-                   IT management remains a management
forts to deobligate the funds we identified, and           challenge for the SEC. In connection with its
has already deobligated over $4 million of these           audit of the SEC’s financial statements for FY
funds.                                                     2009, the Government Accountability Office
                                                           (GAO) reported that information security con-
     More recently, in OIG Report No. 468, an              trol weaknesses continued to jeopardize the
OIG audit identified significant contract ad-              confidentiality, integrity, and availability of
ministration issues pertaining to PRISM and                information processed by the SEC’s key IT fi-
related support and service contracts. The                 nancial reporting systems. The GAO identified
audit found that (1) the PRISM project lacked              inadequate controls for segregating computer-
adequate Information Technology (IT) project               related duties and functions; restricting user
management oversight; (2) OA improperly re-                privileges; implementing patches and current
stricted competition without following Federal             software versions; using approved, secure means
Acquisition Regulation (FAR) requirements                  to transmit data; implementing configuration
when it solicited and awarded a contract for               management; and certifying and accrediting the
project support services; (3) there was an inade-          SEC’s general ledger and supporting processes.



                                                      14
    In FY 2010, the OIG conducted work that              to unapproved resources; and newly-deployed
confirmed that the SEC continues to require              desktops/laptops were not adequately config-
improvements in several IT-related areas identi-         ured to meet Federal Desktop Core Configura-
fied by GAO. These areas include: restricting            tion requirements. The Office of Information
user privileges, implementing patches and cur-           Technology and Office of the Chief Operating
rent software versions, ensuring the use of ap-          Officer have indicated that they concur with the
proved means to transmit data, and configura-            majority of the report’s recommendations and
tion management. These findings are based on             fully support the obligation of the SEC to pro-
our reviews of three specific areas of IT                tect the privacy of individuals.
management. The OIG issued one report on
the SEC’s encryption program, Evaluation of the               The OIG’s audit, entitled Assessment of the
SEC Encryption Program, Report No. 476, in               SEC Information Technology Investment Process, Re-
March 2010; two reports pertaining to privacy,           port No. 466, found that the Chief Information
Evaluation of the SEC Privacy Program, Report No.        Officer (CIO) continues to lack necessary
475, in March 2010 and Assessment of the SEC’s           authority to manage the SEC’s Capital Plan-
Privacy Program, Report No. 485, in September            ning and Investment Control (CPIC) process
2010; and one report on the IT investment                adequately, CPIC policies and procedures were
process, Assessment of the SEC Information               not being followed, and IT projects were im-
Technology Investment Process, Report No. 466, in        properly managed due to the lack of effective
March 2010.                                              project management. The SEC Chairman and
                                                         OIT concurred with all of the report’s recom-
    The OIG’s Evaluation of the SEC Encryption           mendations, and the Chairman reported that
Program, Report No. 476, found that while the            the charters for the agency’s three distinct bod-
SEC has a comprehensive encryption program,              ies that review and approve proposed IT in-
mobile devices and portable media have not               vestments have been revised as a result of an
been properly encrypted. The OIG report also             internal review of roles and responsibilities re-
found that the SEC’s Office of Information               lating to the SEC’s IT investments.
Technology (OIT) has not implemented a pol-
icy for encrypting portable media throughout                 Finally, the OIG found that additional at-
SEC headquarters and regional offices.                   tention is still needed in specific key IT areas,
                                                         including the administration and oversight of
    The OIG’s Evaluation of the SEC Privacy Pro-         IT contracts, IT human capital, remote access,
gram, Report No. 475, found that the SEC’s               and operations monitoring. These key initia-
privacy-related policies and procedures need to          tives remain challenges as deficiencies that were
be finalized and that an in-depth assessment of          identified in these areas in the past have not
the SEC’s privacy program was required. In               been completely mitigated. During the past FY,
accordance with the findings of Report No.               the SEC filled two essential senior management
475, the OIG conducted an in-depth assess-               positions: Chief Security Officer (CISO) and
ment of the SEC’s privacy program and re-                Chief Operating Officer (COO). Nonetheless,
cently issued its report, Assessment of the SEC’s        the critical CIO position is currently vacant.
Privacy Program, Report No. 485. This report             This position is essential to the SEC’s IT pro-
identified significant concerns with the manner          gram and should be filled expeditiously. The
in which the SEC handles personally identifi-            OIG plans to continue its oversight of IT
able information. Specifically, the OIG found            management and monitoring progress in key
that OIT has not adequately implemented con-             areas noted above.
trols to restrict user access privileges to sensitive
data; patches and current software versions
were not current; sensitive data was transmitted


                                                    15
CHALLENGE:                                             preparation of labor surveys; (6) Prompt Pay-
FINANCIAL MANAGEMENT                                   ment Act interest payments; (7) excessive user
                                                       access rights in the SEC’s time and attendance
    The GAO’s FY 2009 audit of the                     system; (8) financial statement closing schedule;
Commission’s financial statements found that           (9) documentation of Contracting Officer’s
they were fairly presented in all material re-         Technical Representative’s review of contrac-
spects. However, the GAO found that the SEC            tor’s invoices prior to SEC payment; and (10)
did not maintain effective internal controls over      notes to interim financial statements and pro-
financial reporting and, thus, did not have rea-       forma financial reporting.
sonable assurance that misstatements would be
prevented or detected on a timely basis. This              In addition, the GAO reported that the
determination was based on the GAO’s identifi-         SEC’s ability to sustain effective internal control
cation of six significant internal control defi-       over financial reporting was at risk due to its
ciencies in the Commission’s financial reporting       continued reliance on processes and systems
process that, taken collectively, constituted a        that were not designed to provide the accurate,
material weakness in the SEC’s internal controls       complete, and timely transaction-level financial
for financial reporting.                               information that management needed to make
                                                       well-informed decisions, or to accumulate and
      The GAO defines a material weakness as a         report reliable financial information without
significant deficiency or combination of signifi-      extensive manual workarounds and compensat-
cant deficiencies in internal control, such that       ing controls. The GAO further reported that
there is a reasonable possibility that a material      these deficiencies are likely to continue to exist
misstatement of the financial statements will be       until the SEC’s general ledger system is either
not be prevented or detected. A significant de-        significantly enhanced or replaced, key account-
ficiency is a control deficiency, or combination       ing activity is fully integrated with the general
of deficiencies, in internal control that is less      ledger at the transaction level, information se-
severe than a material weakness, yet important         curity controls are strengthened, and appropri-
enough to merit attention by management.               ate resources are dedicated to maintaining effec-
The significant control deficiencies that cumula-      tive internal controls.
tively resulted in the GAO’s finding of a mate-
rial weakness concerned the Commission’s con-              The SEC stated that it is committed to mak-
trols over: (1) information security; (2) financial    ing resolution of the six significant deficiencies
reporting process; (3) fund balance with the De-       identified by the GAO a high priority, and is
partment of the Treasury; (4) registrant depos-        developing a plan to remediate the resulting ag-
its; (5) budgetary resources; and (6) risk assess-     gregate material weakness to strengthen the
ment and monitoring process.                           SEC’s financial reporting. The SEC Chairman
                                                       indicated that remediating the material weak-
     In addition, the GAO identified other defi-       ness in internal control over financial reporting
ciencies in internal controls that although not        was one of her top priorities and expressed her
considered material weaknesses or significant          commitment to improving the integrity of the
deficiencies, could adversely affect the               SEC’s reporting system. The OIG, as it has
Commission’s ability to meet financial reporting       done in the past, continues to plan to provide
and other internal control objectives. These           assistance to the GAO in conducting the SEC’s
deficiencies concerned the Commission’s (1) se-        financial statement audit and monitoring pro-
curity over sensitive employee information; (2)        gress with respect to the indentified significant
policies and procedures related to or affecting        internal control deficiencies.
financial reporting; (3) documentation of pay-
roll controls; (4) prior period corrections; (5)



                                                  16
CHALLENGE:                                               The OIG has made several specific recom-
REAL PROPERTY LEASING                                mendations designed to remedy the deficiencies
                                                     identified in the SEC’s real property leasing
   The OIG has identified the SEC’s real             function. We are pleased that management has
property leasing procurement process as a            concurred with all of these recommendations.
management challenge.

     The OIG recently completed an audit of          CHALLENGE:
the SEC’s real property leasing process, Real        PERFORMANCE MANAGEMENT
Property Leasing Procurement Process, Report No.
484, issued in September 2010. The audit de-             The OIG identified performance
termined that the Real Property and Leasing          management as a management challenge in
Branch (Leasing Branch) within the SEC’s OAS         both FY 2008 and 2009. In February 2007, the
does not have adequate policies and procedures       OIG had issued an audit report, Enforcement
in place and, until very recently, had no final      Performance Management, Report No. 423, which
policy for the SEC’s real property leasing pro-      found that the Commission did not consistently
gram, which includes leased properties in 13         perform all parts of the performance appraisal
different locations nationwide and an annual         process and did not have adequate policies and
expenditure of over $83 million in lease pay-        procedures for, among other things, managing
ments. The audit identified several specific de-     performance problems and implementing all
ficiencies in OAS’s draft leasing policies and       the phases of the performance review cycle.
procedures, including (1) an incomplete listing      The OIG audit also found that the performance
of the applicable legal requirements and guide-      cycle was not aligned with the fiscal year and
lines; (2) an insufficient asset management plan;    did not timely reward employees for significant,
(3) insufficient procedures for managing and         performance-based contributions.
tracking leases; and (4) the absence of goals or
performance measures that specifically ad-               In FY 2009, the OIG reported that the SEC
dressed real property leasing.                       had begun to undertake numerous steps to rem-
                                                     edy this challenge, and that the agency had be-
    The audit also determined that the absence       gun transitioning to a new five-level
of adequate leasing policies and procedures led      performance rating system in FY 2008.
to certain situations in which the SEC was re-
quired to make payments that could have been             During FY 2010, the SEC continued its ef-
avoided if appropriate policies and procedures       fort to migrate employees to the new
had existed and been followed consistently.          performance-based management system in a
These situations included (1) the failure to         phased approach. Employees in the Division of
timely execute a new lease or obtain a lease ex-     Enforcement and the Office of Compliance In-
tension at the time the existing lease for the San   spections and Examinations were scheduled to
Francisco Regional Office expired, resulting in      move new system on or about June 30, 2010.
the payment of higher holdover rent; (2) mak-        At the end of FY 2010, however, not all SEC
ing millions of dollars in simultaneous payments     employees had transitioned to the new system.
for two office buildings in New York that will       Management has indicated that the phased ap-
continue for a total of seven years, even though     proach will continue during FY 2011 and that it
the SEC no longer occupied one of these build-       expects every employee to have a new
ings; and (3) paying an off duty police officer      performance work plan by the end of FY 2011.
$200,000 per year to patrol a leased facility in a   Thereafter, according to management, the new
high-crime area, even though the SEC only oc-        system will be used to re-link pay to
cupies one of four floors of the facility.           performance.



                                                17
    Management has further indicated that it is    system. As the transition to the new system
providing web-based training to managers and       continues, the SEC needs to continue its efforts
non-managers as part of the implementation of      to ensure that agency has a fair, transparent and
the new performance management system and          credible method for measuring performance
has created a SharePoint site dedicated to         and awarding merit-pay increases.
performance management to apprise employees
of important information regarding the new




                                              18
U.S. Securities and Exchange Commission
                                                                     SEMIANNUAL
                                                                     REPORT TO
                                                Office of
                                               Inspector
                                                General
                                                                     CONGRESS
                                          ADVICE AND ASSISTANCE PROVIDED TO
                                          THE AGENCY AND THE GOVERNMENT
                                          ACCOUNTABILITY OFFICE
                                              During this semiannual reporting period,          securities trading that was implemented in
                                          the OIG provided advice and assistance to             response to an OIG investigation conducted
                                          SEC management on various issues that were            during a previous reporting period. Subse-
                                          brought to the OIG’s attention during the             quently, the IG and OIG staff met with the
                                          course of audits and investigations conducted         SEC’s new Ethics Counsel to discuss issues of
                                          by the Office and otherwise. This advice was          mutual interest and ways in which the OIG
                                          conveyed through written communications, as           and the SEC Ethics Office can continue to
                                          well as in meetings and conversations with            cooperate and work together to achieve their
                                          agency officials. The advice provided in-             respective missions. The IG also met with the
                                          cluded comments on draft policies and proce-          SEC’s first-ever Chief Operating Officer
                                          dures and suggestions for improvements in             (COO) for information technology, financial
                                          existing policies and procedures. The OIG             reporting, and records management to discuss
                                          also collaborated with and provided assistance        the challenges the IG believed the new COO
                                          to the Government Accountability Office               would face.
                                          (GAO) on matters of mutual interest to GAO
                                          and the OIG.                                              In addition, the IG and OIG staff met
                                                                                                with the Director of the SEC’s Office of
                                              Specifically, during the reporting period,        Equal Employment Opportunity (OEEO) and
                                          the IG met with several officials who joined          OEEO staff to discuss protocols and proce-
                                          the agency during the reporting period in an          dures to be followed when the OIG and the
                                          effort to coordinate the OIG’s activities with        OEEO are simultaneously conducting
                                          those of these new offices. For example, the          investigations that have overlapping issues.
                                          IG met with the SEC’s Chief Compliance                Further, the OIG provided advice and
                                          Officer, a new position at the agency, to dis-        assistance to the Office of Human Resources
                                          cuss coordination between the OIG and the             (OHR) in connection with an investigation
                                          compliance function, particularly with respect        completed during this reporting period into
                                          to the SEC’s system for monitoring employee           allegations that certain supervisors in the



                                                                                           19
Office of Compliance Inspections and                      ment, OIT provided a revised draft that re-
Examinations (OCIE) were working part-time                flected changes made in response to the
schedules but regularly using leave without               comments submitted by the OIG, as well as
pay in order to receive full-time benefits. In            by other SEC divisions and offices. The OIG
particular, the OIG provided OHR officials                reviewed the revised draft and noted that all
with information concerning and citations to              of its comments had been incorporated into
U.S. Office of Personnel Management guid-                 the revised draft. In addition, the OIG
ance on benefits affected by reducing a full-             provided two additional comments that sug-
time employee to part-time status and the                 gested clarification of provisions pertaining to
proper use of leave without pay. The IG and               exceptions for disclosing Privacy Act records
OIG staff also met with Enforcement officials             and the prohibition on intentionally viewing
and the SEC Chairman’s Office to discuss the              or modifying agency data without the explicit
appropriate implementation of the SEC’s new               authorization of the owner of the data or an
Tips, Complaints, and Referrals Intake Policy,            authorized exception. OIT incorporated the
which was issued on March 10, 2010.                       OIG’s comments into the final version of the
                                                          Rules of the Road that was posted to the
     Further, the OIG reviewed a draft of an              SEC’s Intranet site.
updated version of the SEC OIT “Rules of
the Road,” SECR 24-04.A01, which are in-                      Also during the reporting period, the OIG
tended to ensure that agency computing and                coordinated with and provided assistance to
network resources are used responsibly, safely            GAO in connection with an engagement it
and efficiently, thereby maximizing the avail-            commenced involving the “revolving door” at
ability of these resources. Based upon its re-            the SEC (i.e., SEC staff leaving the agency
view of the draft document, the OIG                       and then working for or representing firms
provided written comments to OIT that made                regulated by the SEC). The IG and OIG staff
suggestions for improvements to and clarifica-            met with representatives of GAO to share in-
tion of the draft. In its written comments, the           sight and knowledge acquired in this area as a
OIG suggested (1) the addition of a reference             result of prior and ongoing OIG audit and
to a recently-issued administrative regulation            investigative and work. In connection with
on the Management and Protection of Pri-                  that meeting, the IG reviewed and provided
vacy Act Records and Other Personally Iden-               responses to various questions GAO had con-
tifiable Information; (2) revision of the draft to        cerning, among other things, the nature of the
reflect the Privacy Act exception for disclosure          revolving door issues the OIG has encoun-
of information to officers and employees of               tered, and measures the SEC has taken or
the agency who have a need for the record in              could take to address problems presented by
the performance of their official duties; (3)             the revolving door and to minimize risk to the
clarification of whether the term “personal               Commission in terms of influence by former
information” referred to personally identifi-             staff members. The IG also provided GAO
able information or something broader; (4)                with information regarding previous OIG
inclusion of a reference to Executive Order               audit and investigative reports that made rec-
13513, Federal Leadership on Reducing Text                ommendations designed to ensure that Com-
Messaging While Driving, October 1, 2009;                 mission employees exercised impartiality in
and (5) clarification that SEC policy prohibits           performing their official duties and were not
using a government-supplied electronic device             unduly influenced by the presence of former
to send e-mails, as well as to text.                      employees in examinations or investigations,
                                                          and the status of management’s implementa-
    After the OIG submitted its comments on               tion of these recommendations.
the draft updated Rules of the Road docu-



                                                     20
U.S. Securities and Exchange Commission
                                                                      SEMIANNUAL
                                                                      REPORT TO
                                                Office of
                                               Inspector
                                                General
                                                                      CONGRESS
                                          COORDINATION WITH OTHER OFFICES
                                          OF INSPECTOR GENERAL
                                               During this reporting period, the SEC            the development of competent personnel.
                                          OIG coordinated its activities in a variety of        The IG or a senior OIG staff member at-
                                          ways with those of other OIGs, as is required         tended the Professional Development Com-
                                          by Section 4(a)(4) of the Inspector General           mittee’s monthly meetings.
                                          Act of 1978, as amended. Specifically, the
                                          SEC IG, or a senior OIG staff member, at-                 The Counsel to the SEC IG is currently
                                          tended the monthly meetings of the Council            the Chair of the Council of Counsels to the
                                          of the Inspectors General on Integrity and            Inspector General (CCIG), which is an infor-
                                          Efficiency (CIGIE). During one of these               mal organization of IG attorneys throughout
                                          monthly meetings, the SEC IG briefed the              the federal government who meet monthly
                                          CIGIE members on challenges faced in                  and coordinate and share information. In the
                                          conducting the SEC OIG’s investigation into           reporting period, the Counsel to the SEC IG
                                          the SEC’s failure to uncover Bernard                  chaired the group’s monthly meetings and
                                          Madoff ’s Ponzi scheme, which was completed           otherwise provided leadership to the CCIG
                                          on August 31, 2009. The SEC IG also met               members.
                                          with outside consultants performing an organ-
                                          izational assessment of another OIG to iden-              The SEC IG also participated in activities
                                          tify areas of strength and opportunities for          designed to coordinate efforts among the fed-
                                          improvement, and shared his experiences, as           eral financial regulatory IGs and strengthen
                                          well processes and practices followed within          the oversight of the federal financial regula-
                                          the SEC OIG.                                          tory structure as a whole. For example, the
                                                                                                SEC IG met monthly with the IGs for the
                                              The SEC IG is also a member of the                Department of Treasury, Federal Deposit In-
                                          CIGIE’s Professional Development Commit-              surance Corporation (FDIC), Federal Housing
                                          tee, the purpose of which is to provide educa-        Finance Agency (FHFA), Commodity Futures
                                          tional opportunities for members of the               Trading Corporation (CFTC), National
                                          CIGIE community and to assist in ensuring             Credit Union Administration (NCUA), Pen-



                                                                                           21
sion Benefit Guaranty Corporation (PBGC),           established a new Council of Inspectors Gen-
Board of Governors of the Federal Reserve           eral on Financial Oversight (CIGFO), chaired
System Federal Reserve (Federal Reserve             by the IG of the Department of Treasury and
Board), Troubled Asset Relief Program               also composed of the IGs of the Federal Re-
(TARP), Department of Housing and Urban             serve Board, CFTC, FDIC, FHFA, NCUA,
Development (HUD), U.S. Export-Import               SEC and TARP. Under the Dodd-Frank Act,
Bank and Farm Credit Administration to dis-         this Council is required to meet at least quar-
cuss coordinated oversight efforts among the        terly to facilitate the sharing of information
financial regulatory IGs. The SEC IG also           with a focus on the concerns that may apply
served on the TARP Inspector General                to the broader financial sector and ways to
Council, along with the Special IG for the          improve financial oversight. The CIGFO is
TARP, and IGs from the Department of                also required to submit an annual report to
Treasury, Federal Reserve Board, FDIC,              the newly-established Financial Stability
FHFA, HUD, Treasury Inspector General for           Oversight Council and the Congress, which
Tax Administration and the Small Business           must include a section that highlights the con-
Administration, and the U.S. Comptroller            cerns and recommendations of each IG who
General.                                            is a member of the CIGFO General and a
                                                    summary of the general observations of the
    In addition, Section 989E of the Dodd-          CIGFO. The SEC IG will actively participate
Frank Wall Street Reform and Consumer Pro-          in the CIGFO’s important activities and re-
tection Act (Dodd-Frank Act), Public Law            sponsibilities.
111-203, which was enacted on July 21, 2010,




                                               22
U.S. Securities and Exchange Commission

                                                                      SEMIANNUAL
                                                                      REPORT TO
                                                                      CONGRESS
                                                  Office of
                                                 Inspector
                                                  General




                                          AUDITS AND EVALUATIONS
                                          OVERVIEW                                              on risk and materiality, known or perceived
                                                                                                vulnerabilities and inefficiencies, resource
                                               The OIG is required by the Inspector             availability, and complaints that are received
                                          General Act of 1978, as amended, to conduct           from Congress, internal SEC staff, the
                                          audits and evaluations of agency programs,            Government Accountability Office, and the
                                          operations and activities. The OIG’s Office of        public.
                                          Audits focuses its efforts on conducting and
                                          supervising independent audits and evalua-            Audits
                                          tions of the programs and operations of the
                                          various SEC divisions and offices. The Office             Audits examine operations and financial
                                          of Audits also hires independent contractors          transactions to ensure that proper
                                          and subject matter experts to conduct work on         management practices are being followed and
                                          its behalf. Specifically, the Office of Audits        resources are adequately protected in accor-
                                          conducts audits and evaluations to determine          dance with governing laws and regulations.
                                          whether:                                              Audits are systematic, independent, and
                                                                                                documented processes for obtaining evidence.
                                             •    There is compliance with governing            In general, audits are conducted when firm
                                                  laws, regulations and policies;               criteria or data exist, sample data is measur-
                                             •    Resources are safeguarded and appro-          able, and testing internal controls are a major
                                                  priately managed;                             objective. Auditors collect and analyze data
                                                                                                and verify agency records by obtaining sup-
                                             •    Funds are expended properly;                  porting documentation, issuing questionnaires,
                                             •    Desired program results are achieved;         and through physical inspection.
                                                  and
                                                                                                    The OIG’s audit activities include
                                             •    Information provided by the agency to         performance audits that are conducted of
                                                  the public and others is reliable.            SEC programs and operations relating to ar-
                                                                                                eas such as the oversight and examination of
                                              Each year the Office of Audits prepares an        regulated entities, the protection of investor
                                          annual audit plan. The plan includes work             interests, and the evaluation of administrative
                                          that is selected for audit or evaluation based        activities. The Office of Audits conducts its

                                                                                           23
audits in accordance with the generally ac-            registering its securities for public sale to dis-
cepted government auditing standards (Yellow           close a broad range of financial and non-
Book) issued by the U.S. Comptroller General,          financial information in registration state-
OIG policy, and guidance issued by the Coun-           ments, annual reports, and other filings made
cil of the Inspectors General on Integrity and         with the SEC. Companies that are registered
Efficiency (CIGIE).                                    with the SEC are required to comply with the
                                                       reporting requirements of the Securities Act of
Evaluations                                            1933 (Securities Act) and the Securities
                                                       Exchange Act of 1934 (the Exchange Act).
    The Office of Audits also conducts evalua-         Specific disclosure requirements for financial
tions of the SEC’s programs and activities.            and non-financial information are primarily
Evaluations consist of reviews that often cover        found in Regulation S-K, 17 C.F.R. § 229.10,
broad areas and are typically designed to pro-         and Regulation S-X, 17 C.F.R. § 210.1-01 et.
duce timely and useful information associated          seq., sets forth the financial statement disclo-
with current or anticipated problems. Evalua-          sure requirements.
tions are generally conducted when a project’s
objectives are based on specialty and highly               The SEC’s Division of Corporation Fi-
technical areas, criteria or data are not firm,        nance (CF) assists the Commission in execut-
or needed information must be reported in a            ing its responsibility to oversee corporate dis-
short period of time. The Office of Audits’            closure of important information to the invest-
evaluations are conducted in accordance with           ing public, and manages the confidential
OIG policy, Yellow Book non-audit service              treatment request process pursuant to dele-
standards and guidance issued by the CIGIE.            gated authority from the Commission. CF has
                                                       a number of statutory requirements and re-
Audit Follow-up and Resolution                         view priorities that it must meet to pursue its
                                                       core investor protection responsibilities. In
    During this semiannual reporting period,           addition to processing requests for confidential
the SEC offices and divisions made significant         treatment, CF reviews registrants’ Exchange
efforts to reduce the backlog of open recom-           Act reports and the financial statements of
mendations, while ensuring that the most re-           every registrant at least once every three years,
cent recommendations were fully imple-                 as mandated by the Sarbanes-Oxley Act of
mented. Based on the appropriate evidence              2002.
and documentation that management
provided to the OIG to support its intent to               Sometimes the public disclosure of
implement the OIG’s recommendations, the               information required by the SEC’s disclosure
OIG closed 109 recommendations related to              rules (e.g., Regulation S-K) can adversely affect
21 different Office of Audits reports.                 a company’s business and financial condition
                                                       because of the competitive harm that could
                                                       result from the disclosure. This issue fre-
AUDITS AND EVALUATIONS                                 quently arises in connection with the require-
CONDUCTED                                              ment that a registrant file publicly all contracts
                                                       material to its business other than those it en-
Assessment of Corporation Finance’s
Confidential Treatment Processes and                   ters into in the ordinary course of business.
Procedures (Report No. 479)                            Typical examples of the information that
                                                       raises this concern include pricing terms,
  Background                                           technical specifications and milestone pay-
                                                       ments. To address the potential disclosure
    The federal securities laws generally re-          hardship, the Commission has adopted a sys-
quire any company that is publicly held or is          tem that allows companies to request confi-

                                                  24
dential treatment of information filed under                •   Test whether CF followed its internal
the Securities Act and the Exchange Act.                        policies and procedures for processing
                                                                confidential treatment requests; and
    Specifically, Commission Rules 406, 17                  •   Determine whether improvements and
C.F.R. § 230.406, and 24b-2, 17 C.F.R. §
                                                                best practices could be implemented
240.24b-2, set forth the exclusive means for
                                                                for the CF confidential treatment
obtaining confidential treatment of
                                                                process.
information contained in documents filed un-
der the Securities Act and the Exchange Act,
respectively, that would be exempt from dis-
closure under the FOIA. Rule 24b-2 requires               Results
an applicant to include the following items,
among other things, in an application to the                 The OIG found that CF is not performing
Commission for confidential treatment:                  a robust review and examination of many
                                                        confidential treatment requests. Specifically,
   •   Identification of the confidential por-          out of 3,381 confidential treatment requests
       tion of the filing;                              submitted to CF from January 2008 to March
                                                        2010, 2,298, approximately 68 percent, were
   •   A statement of the grounds of objec-             processed without review as a result of an ini-
       tion to disclosure, including an analysis        tial screening process. A total of 789 out of
       of how the confidential portion meets            3,381 requests, or approximately 23 percent,
       an applicable FOIA exemption(s); and             were monitored for one or more particular
   •   A justification of the time period for           matters (e.g., duration, materiality, etc.), while
       which confidential treatment is re-              286 out of 3,381 requests, or approximately
       quested.                                         8.5 percent, were selected for a full review of
                                                        the confidential treatment application, which
                                                        includes a review of the application itself and
     Rule 406 requires that an applicant in-
                                                        the initial screening form, and completion of
clude similar information in its request for
                                                        an examination report. As a result, over 90
confidential treatment. In their confidential
                                                        percent of the confidential treatment requests
treatment applications, most applicants rely
                                                        submitted to CF did not receive a thorough
on the exemption for “trade secrets and
                                                        review and examination for compliance with
commercial or financial information obtained
                                                        all aspects of the applicable rules. Therefore,
from a person [that is] privileged or confiden-
                                                        the OIG believes there is an increased risk
tial,” which is commonly referred to as “the
                                                        that information that is material to investors
(b)(4) exemption.”
                                                        may not be disclosed. Additionally, the OIG
                                                        determined that the denial of a confidential
   The objectives of the OIG’s audit were to:
                                                        treatment request is a rare occurrence, be-
                                                        cause we only found one confidential treat-
   •   Assess the adequacy of CF’s internal
                                                        ment request that CF did not grant during the
       policies that governed the intake,
                                                        scope of our review.
       processing, and decision-making asso-
       ciated with confidential treatment
                                                             In addition, the OIG found the wide-
       requests;
                                                        spread use of conclusory statements in appli-
   •   Assess if registrants that were provided         cants’ analyses of the applicable FOIA ex-
       confidential treatment by CF adhered             emptions, as well as in arguments regarding
       to the SEC rules that govern confiden-           the potential competitive harm that could re-
       tial treatment requests;                         sult if the subject matters for which confiden-
                                                        tial treatment was requested were disclosed.

                                                   25
The OIG also identified instances when the              termined that the reliability, accuracy, and
scope of confidential treatment requests ap-            completeness of information contained in the
peared to be overly broad. Further, we found            confidential treatment request tracking data-
that documentation explaining why the sub-              base is necessary to assist those charged with
ject matter of the confidential treatment re-           oversight of and decision-making for the con-
quest was not necessary for the protection of           fidential treatment request process.
investors did not always include a robust as-
sessment of both qualitative and quantitative             Recommendations
factors that should be considered in assessing
materiality.                                                 On September 28, 2010, the OIG issued
                                                        its final report on the results of the audit. The
    During the audit, the OIG also identified           report included eight recommendations that
numerous instances when confidential treat-             were designed to improve CF’s policies and
ment requests were assigned for review to CF            procedures for processing, screening, and ex-
staff in Assistant Director Offices that do not         amining confidential treatment requests. Spe-
normally review the SEC filings of the confi-           cifically, the OIG recommended that CF:
dential treatment applicants or companies in
the confidential treatment applicants’ industry            (1)   Recommend to the Commission that
groups. For example, only 27 percent (247                        the substantive requirements for
out of 924) of the confidential treatment                        confidential treatment requests that
requests received from companies in the                          are currently described in Staff Le-
healthcare and insurance industries from                         gal Bulletin No. 1, as well as any ad-
January 2008 to December 2009 were as-                           ditional substantive requirements
signed to the Assistant Director Office that                     deemed appropriate, be codified as
processes confidential treatment requests                        formal guidance for confidential
submitted by companies in the healthcare and                     treatment applicants;
insurance industries. Staff members who are
not assigned to a confidential treatment re-               (2)   Revise its internal procedures for
quest applicant’s industry group may not be as                   processing confidential treatment
knowledgeable of the subject matter of cer-                      requests to require additional docu-
tain confidential treatment requests, thus in-                   mentation of the substantive review
creasing the risk that confidential treatment                    of the materiality and competitive
may be improperly granted for information                        harm application-specific require-
that would be material to investors.                             ments, including a description of the
                                                                 specific qualitative and/or quantita-
     Lastly, the OIG determined that CF needs                    tive factors considered in assessing
to implement additional controls in its confi-                   the materiality and competitive
dential treatment request tracking database to                   harm pertinent to the subject matter
ensure data is captured correctly. The OIG                       of the confidential treatment re-
identified some data discrepancies in the CF                     quest;
confidential treatment request database, and
found that the confidential treatment request              (3)   Revise its internal procedures to re-
tracking database lacks certain functionality,                   quire additional documentation of
such as the ability to track confidential treat-                 the Assistant Director Offices’ review
ment requests that are modified after the ini-                   of the Office of Disclosure Support’s
tial submission. The CF confidential treat-                      recommendations of “No Review”
ment request tracking database is used by                        to document factors considered in
management as a medium to generate                               making the determination that no
performance reports. As such, the OIG de-                        review is required;

                                                   26
(4)   Perform periodic internal audits of               (8)   Add functionality to the confidential
      the confidential treatment process to                   treatment request tracking database
      provide for continuous monitoring of                    to identify confidential treatment
      the confidential treatment program                      requests that were modified from
      and, as part of these periodic inter-                   their initial state.
      nal audits, verify on a periodic basis
      that the information for which con-               Management fully concurred with four
      fidential treatment was granted has           recommendations, partially concurred with
      not been publicly disclosed and, if           three recommendations, and did not concur
      such information has been publicly            with one recommendation. We expressed
      disclosed, take steps, as appropriate,        concern that CF did not concur with our rec-
      to revoke the grant of confidential           ommendation to codify the substantive re-
      treatment;                                    quirements listed in Staff Legal Bulletin No. 1
                                                    as formal guidance for confidential treatment
(5)   Revise its internal procedures for            requests, because we believe that codification
      handling the initial screening of             of these requirements would be beneficial to
      confidential treatment requests to            both companies and CF.
      ensure that the materiality and com-
      petitive harm criteria are not met by             Additionally, we expressed concern that
      simply making conclusory state-               CF partially concurred with our recommen-
      ments or including boilerplate lan-           dations that CF enhance its documentation
      guage in the applications by requir-          reflecting its assessment of the materiality and
      ing additional documentation of               competitive harm arguments presented in
      how the screening and review proc-            confidential treatment requests to detail the
      ess identified specific and concrete          specific qualitative and/or quantitative factors
      representations to support each cri-          considered in making these assessments; that
      teria;                                        CF verify on a periodic basis that information
                                                    that has been granted confidential treatment
(6)   Ensure that the Assistant Director            has not been publicly disclosed; and that CF
      Offices with the highest percentage           document how the screening and review
      of confidential treatment requests            process identified specific, concrete represen-
      provide training to staff in the other        tations to support each criteria needed for
      Assistant Director offices in order to        confidential treatment to be granted. We re-
      share knowledge about specific in-            main convinced that CF should fully imple-
      dustry matters with staff who will be         ment all of the OIG’s recommendations in
      performing reviews of confidential            order to improve CF’s internal policies and
      treatment requests for companies in           procedures for processing confidential treat-
      industries outside of their assigned          ment requests and enhance CF’s review of
      industry group;                               such requests.

(7)   Implement controls in the confiden-               The OIG’s report, Assessment of Corporation
      tial treatment request database to            Finance’s Confidential Treatment Processes and Proce-
      perform validity checks for fields and        dures, is available on our website at
      to ensure that all information for            http://www.sec-oig.gov/Reports/AuditsInspe
      each record has been completely               ctions/2010/479.pdf.
      populated; and




                                               27
Review of the SEC’s Section 13(f)                        equity securities that are traded on an
Reporting Requirements                                   exchange or quoted on National Association
(Report No. 480)                                         of Securities Dealers Automated Quotations
                                                         (NASDAQ), equity options and warrants,
  Background                                             shares of closed-end investment companies,
     In 1975, Congress enacted Section 13(f) of          and some convertible debt securities. Under
the Securities Exchange Act of 1934                      Section 13 (f)(3), the Commission is responsi-
(Exchange Act), 15 U.S.C. § 78m(f), to in-               ble for publishing an official list of the
crease the public availability of information            securities that must be reported pursuant to
regarding the securities holdings of institu-            Section 13(f)(1). Form 13F requires disclosure
tional investors. According to the legislative           of the name and address of the institutional
history for Section 13(f), Congress intended to          investment manager filing the report and, for
create in the SEC a centralized repository of            each security being reported, specific
historical and current data regarding the ac-            information, including the name of the issuer,
tivities of institutional investment managers in         the class, the Committee on Uniform
order to improve the body of publicly avail-             Securities Identification Procedures (CUSIP)
able factual data and thereby increase investor          number, the number of shares or principal
confidence in the integrity of the U.S.                  amount, and the aggregate fair market value.
securities markets. This legislative history also
reflects that Congress anticipated that                      Pursuant to Commission Rule 24b-2, 17
government agencies, including the SEC,                  C.F.R. § 240.24b-2, an institutional invest-
would be expected to make extensive use of               ment manager may request confidential
the institutional disclosure data in fulfilling          treatment of information required to be re-
their responsibilities to protect the public in-         ported on Form 13F. Section 13(f)(3) provides
terest within a consistent and coordinated               that the Commission may prevent or delay the
regulatory framework.                                    public disclosure of the information reported
                                                         under Section 13(f)(1) in accordance with the
    Section 13(f) and the Commission’s im-               FOIA. Section 13(f)(3) further provides that
plementing regulation requires that institu-             information identifying securities held by the
tional investment managers that exercise in-             account of a natural person or an estate or
vestment discretion with respect to accounts             trust (other than a business trust or investment
holding certain equity securities having an              company) shall not be publicly disclosed. The
aggregate fair market value of $100 million or           Commission has delegated authority to the
more on the last trading day in a calendar               SEC’s Division of Investment Management
year to file quarterly reports of their holdings         (IM) to grant or deny applications for confi-
with the SEC on Form 13F electronically                  dential treatment pursuant to Section 13(f),
through the Commission’s Electronic Data-                and to revoke any grants of confidential
base Gathering and Retrieval (EDGAR) sys-                treatment for such applications.
tem. Section 13(f)(3) mandates that the                        The overall objectives of the review were
Commission tabulate the information con-                 to:
tained in the Form 13F reports and dissemi-                    •   Examine whether the Commission’s
nate that information to the public.                               implementation of and current prac-
                                                                   tices under Section 13(f) meet Con-
    The institutional investment managers                          gress’s intent in establishing Section
that are required to file Form 13F typically                       13(f);
include investment advisers, banks, insurance
companies, broker-dealers, pension funds and                   •   Examine the sufficiency of the
corporations. The securities that must be re-                      Commission’s existing policies and
ported under Section 13(f) generally include

                                                    28
        procedures that implement Section                 quence, errors or problems with the Form 13F
        13(f);                                            filings are typically detected only in connec-
    •   Determine whether the reporting of                tion with IM’s processing of Section 13(f) con-
        entities covered under Section 13(f) is           fidential treatment requests, or when a mem-
        appropriately designed to comply with             ber of the public notifies IM of an error or
        the statutory requirements;                       problem with a Form 13F. Additionally, we
                                                          found that there are no checks built into the
    •   Examine whether the Commission’s                  EDGAR system (through which Forms 13F
        policies and procedures for reviewing             are filed) to scan for obvious errors in the
        and processing requests for the confi-            forms, and that the current text file format of
        dential treatment of information re-              Form 13F limits the facility to extract, organ-
        quired to be reported under Section               ize and analyze the data being reported.
        13(f) are adequate and appropriate;
        and                                                    Further, the OIG’s review revealed that a
    •   Determine whether the oversight over              third party prepares the official list of Section
        the Section 13(f) process is sufficient.          13(f) securities that the Commission is re-
                                                          quired to provide to the public, and has been
                                                          doing so since 1981, based upon specifications
  Results                                                 received from the SEC in 1979. The official
                                                          list prepared by the third party is posted to the
     Overall, our review found that significant
                                                          Commission’s website each quarter; however,
improvements can be made with respect to the
                                                          no SEC division or office conducts any review
SEC’s review and monitoring of information
                                                          of the list for accuracy and completeness be-
reported under Section 13(f). Significantly,
                                                          fore it is posted. We believe that such a review
our review found that despite Congress’ intent
                                                          is important, given that institutional invest-
that the SEC would be expected to make ex-
                                                          ment managers rely on the official list in pre-
tensive use of the Section 13(f) information for
                                                          paring their Form 13F reports in accordance
regulatory and oversight purposes, no SEC
                                                          with Commission Rule 13f-1, 17 C.F.R. §
division or office conducts any regular or sys-
                                                          240.13f-1. We also found that the SEC has no
tematic review of the data that is filed on
                                                          contract or agreement with the third party
Form 13F. Specifically, the OIG found that
                                                          with respect to the preparation of the official
while IM has been delegated authority to
                                                          list of Section 13(f) securities. This lack of a
grant or deny confidential treatment pursuant
                                                          formal contract or agreement poses a risk to
to Section 13(f), no division or office has been
                                                          the SEC that the third party could stop pre-
delegated the authority to review and analyze
                                                          paring the list at any time, and this informal
the Form 13F reports, and no division or
                                                          arrangement appears to violate the voluntary
office considers this task as part of its official
                                                          services prohibition of the Antideficiency Act,
responsibility. Further, the OIG found that
                                                          31 U.S.C. § 1342.
the information filed on Form 13F can be use-
ful and should be reviewed in a routine and
                                                              The OIG’s testing of a sample selection of
systematic manner.
                                                          25 confidential treatment requests that were
                                                          processed by IM revealed that files and sup-
     The OIG’s review also disclosed that no
                                                          porting documentation could not be located
SEC division or office monitors the Form 13F
                                                          for approximately one-half of the items se-
filings for accuracy and completeness. As a
                                                          lected in our initial sample. When we selected
result, many Forms 13F are filed containing
                                                          an additional 12 CTRs to review, files for two-
errors or problems, which may not be detected
                                                          thirds of these additional items also could not
or corrected in a timely manner because no
                                                          be located. These missing files raised con-
routine monitoring is conducted. As a conse-
                                                          cerns that confidential information reported

                                                     29
on Form 13F could inadvertently be disclosed.                    to detect and/or correct obvious er-
Our testing also revealed that the SEC is not                    rors in Forms 13F;
complying with its records retention schedule
for CTRs. In addition, our review found that               (4)   IM, in consultation with the Chair-
with respect to several CTRs, IM has not ren-                    man’s Office, should work with OIT
dered a final decision on a timely basis, thus                   to pursue updating Form 13F to a
affording certain filers de facto confidential                   more structured format that will
treatment of their 13F reports.                                  make the data easier to extract and
                                                                 analyze;
     Finally, our review disclosed that the cur-
rent Section 13(f) reporting requirements are              (5)   The Chairman’s Office should assign
outdated and do not currently require disclo-                    to an appropriate division and/or
sure of all significant activities of institutional              office responsibility for reviewing the
investment managers, thus rendering the data                     official list of Section 13(f) securities
less useful than it could be to investors and                    that is prepared quarterly by a third
regulators.                                                      party and test it on a sample basis;

  Recommendations                                          (6)   IM, in consultation with OAS and
                                                                 the Chairman’s Office, should ensure
    The OIG issued a final report containing                     that the SEC enters into a formal
the results of our review on September 27,                       contract or agreement with the third
2010. The report included 12 recommenda-                         party that prepares the official list of
tions that were designed to improve the Sec-                     Section 13(f) securities;
tion 13(f) reporting process to ensure that use-
ful and reliable data is provided to the public            (7)   IM and the SEC’s Records
and government regulators, consistent with                       Management Branch should modify
Congress’ intent in enacting Section 13(f).                      their respective policies and proce-
The recommendations made in the report                           dures to ensure that files for process-
were as follows:                                                 ing CTRs are properly maintained
                                                                 and retained in accordance with the
    (1)   The Chairman’s Office should dele-                     SEC’s record retention schedule;
          gate primary responsibility for re-
          viewing and analyzing Form 13F                   (8)   IM, in consultation with the Chair-
          information to the appropriate divi-                   man’s Office, should take appropri-
          sion or office;                                        ate steps to improve its policies and
                                                                 procedures to ensure that written
    (2)   The Chairman’s Office should assign                    requests for confidential treatment
          to the appropriate divisions or offices                (particularly certain novel requests)
          responsibility for monitoring Section                  under Section 13(f) are granted or
          13(f) filings for accuracy and com-                    denied within an appropriate time
          pleteness in order to limit the errors                 frame so that filers are not afforded
          in or problems with the filings,                       de facto confidential treatment as a
          thereby enhancing the usefulness                       result of IM not issuing a written
          and reliability of the                                 response;
          data;
                                                           (9)   IM, in consultation with the Office
    (3)   IM and OIT should renew efforts                        of the General Counsel (OGC), the
          that were begun in 2005 and imple-                     Office of International Affairs and
          ment checks in the EDGAR system                        the Chairman’s Office, should take
                                                                 appropriate steps to improve its poli-
                                                      30
         cies and procedures to ensure that             vigorously in order to achieve cost savings and
         requests for relief under Section 13(f)        increase the SEC’s productivity and efficiency.
         made by certain large foreign institu-         Pursuant to its independent leasing authority,
         tional investment managers are ad-             the SEC enters into commercial leases for all
         dressed in a timely and appropriate            of the agency’s office space.
         manner;
                                                            The SEC’s real estate leasing function is
   (10) IM, in consultation with the Division           managed primarily by OAS’s Real Property
        of Risk, Strategy, and Financial In-            and Leasing Branch (Leasing Branch), which
        novation (Risk Fin), OGC and the                was established in April 2009. Other OAS
        Chairman’s Office, should determine             components that have responsibilities that im-
        whether legislative changes to Sec-             pact the SEC’s real estate leasing program in-
        tion 13(f) should be pursued;                   clude OAS’ Security and Construction
                                                        Branches, as well as the Office of Acquisitions.
   (11) IM, in consultation with the Chair-             Other SEC offices, such as the Office of Fi-
        man’s Office, should request that               nancial Management (OFM) and OIT, have
        Risk Fin update its previous analysis           significant interaction with the leasing pro-
        of the impact of increasing the Sec-            gram.
        tion 13(f) reporting threshold of
        $100 million; and                                    At the time of the OIG’s audit, SEC
                                                        maintained 2,482,576 square feet of leasehold
   (12) IM, in consultation with Risk Fin               interests. These include leases for SEC head-
        and the Chairman’s Office, should               quarters facilities located in Washington, D.C.,
        determine whether to recommend                  as well as leases for all of the SEC’s regional
        that the Commission adopt a rule                offices located throughout the country. The
        requiring institutional investment              SEC made total lease payments of approxi-
        managers to report aggregate pur-               mately $83.8 million in both FYs 2008 and
        chases and aggregate sales of                   2009, representing approximately nine per-
        securities under Section 13(f).                 cent of the SEC’s total budget authority for
                                                        these years. It is anticipated that the SEC’s
Management fully concurred with all of the              leasing program and leasing costs will increase
OIG’s recommendations. The OIG’s report,                over the next few years as the agency expands
Review of the SEC’s Section 13(f) Reporting Re-         to meet new responsibilities.
quirements, is available on our website at
http://www.sec-oig.gov/Reports/AuditsInspe                   The objectives of the OIG’s audit were to
ctions/2010/480.pdf.                                    determine whether OAS had established real
                                                        property leasing policies and procedures and
                                                        to examine whether these policies and proce-
Real Property Leasing Procurement                       dures were consistently followed and in
Process (Report No. 484)                                compliance with applicable federal laws, rules,
                                                        and regulations. The audit was also per-
  Background                                            formed to ascertain how the Leasing Branch
                                                        maintains and tracks the SEC’s real property
    In 1990, Congress provided the SEC with
                                                        leases. Lastly, the audit sought to identify the
independent leasing authority and, at the
                                                        SEC’s current leases and assess whether the
same time, exempted the SEC from General
                                                        lease requirements were appropriate and
Services Administration (GSA) space man-
                                                        whether the SEC received the best value for
agement’s regulations or directives. In doing
                                                        its leasing investments.
so, Congress intended that the SEC would
exercise this independent leasing authority

                                                   31
  Results                                                are set forth in guidance issued by the Federal
                                                         Real Property Council (FRPC).
    Overall, the audit found that the SEC’s
Leasing Branch does not have adequate poli-                   Third, the audit found that OAS did not
cies in place and, until very recently, had no           have sufficient procedures for how leases
final leasing policies and procedures. The               should be management and tracked. Al-
audit also determined that the absence of                though the Leasing Branch had a document
adequate leasing policies and procedures led             that described the rent payment process and
to certain situations in which the SEC was re-           staff manually tracked monthly lease pay-
quired to make lease payments that could have            ments on a spreadsheet, the Leasing Branch
been avoided if appropriate policies and pro-            did not separately track amounts paid for op-
cedures had existed and been followed consis-            erating expenses, property taxes or repairs.
tently.                                                  The audit concluded that the lack of such de-
                                                         tailed payment data hinders the SEC’s ability
     Significantly, the audit determined that the        to monitor expenses incurred during the op-
primary leasing policy document, SECR 11-                erational phase of a lease, and that such
03, “SEC Leasing Program,” which was final-              information would be useful in making future
ized after our audit fieldwork was completed,            leasing decisions and formulating the annual
is incomplete and inadequate. Further, the               budget for leased properties.
SEC’s Leasing Program Operating Procedures
(OP 11-03), which supplement SECR 11-03,                     Fourth, the audit determined that although
are also inadequate and remain in draft form.            the SEC’s five-year draft strategic plan in-
                                                         cluded a strategic goal that encompassed en-
     The audit noted several specific deficien-          hancement of the Commission’s performance
cies in the SEC’s leasing policies and proce-            through the effective alignment and
dures. First, we found that SECR 11-03 is in-            management of financial capital, the SEC had
complete, as it does not list or describe all of         no specific goals or performance measures for
the legal requirements and guidelines relevant           real property leasing, even though the SEC
to real property leasing, fails to enumerate the         expends approximately $83.8 million per year
specific objections of the SEC’s leasing pro-            on real property leases. The audit noted that
gram and provides no instructions or guidance            without such goals and performance measures,
to facilitate compliance with relevant authori-          OAS is unable to employ a continuous moni-
ties. While the SEC is exempted from strict              toring and feedback mechanism, which is a
adherence to GSA space management regula-                required component of a sufficient asset
tions or directives, the OIG found that the              management plan.
SEC could benefit significantly by looking to
GSA regulations on leasing and management                    The audit revealed certain specific in-
of real property as a guide, and evaluating,             stances in which the failure to have adequate
assessing and implementing these regulations,            leasing policies and procedures resulted in ad-
as deemed appropriate.                                   ditional costs to the agency. In the case of the
                                                         San Francisco Regional Office lease that was
    Second, while OGC has indentified SECR               expiring at the end of October 2009, we
11-03 as the SEC’s asset management plan                 found that OAS changed its initial plan to ne-
required by Executive Order 13327, “Federal              gotiate a lease with the current landlord due to
Real Property Asset Management,” the OIG’s               market information showing a dramatic drop
review of that document revealed that it falls           in rental rates in the San Francisco office mar-
well short of being an adequate asset                    ket. As a consequence, OAS decided to con-
management plan. The audit noted that                    duct a full and open competition and prepared
SECR 11-03 does not include the required                 a sole source justification to extend the existing
components of an asset management plan that              lease for one year, at an expected rate of

                                                    32
$42.24 per rentable square foot, to allow suffi-         compelling urgency, which was conditioned on
cient time to negotiate a long-term solution.            the provision that the successor landlord as-
However, the one-year extension was never                sume the SEC’s remaining obligations at the
executed, and the SEC paid higher “holdover”             existing lease site.
rent of over $60 per rentable square foot until
it executed a new lease with the existing build-              While the SEC entered into a lease for a
ing landlord in April 2010. At that time, the            new NYRO location in March 2005, it re-
SEC was able to obtain a credit for the differ-          mained responsible for payments under the
ence between the higher “holdover” rent rate             initial lease. The new landlord did not assume
and the rent rate in effect as of October 31,            any of the SEC’s remaining obligation at the
2009, of $53.34 per rentable square foot.                previous site (although the landlord did agree
                                                         that the SEC would be responsible only for
     Notwithstanding the credit obtained, the            operating expenses during the first year of the
OIG found that the failure to extend the pre-            lease). The SEC contacted GSA, which found
vious lease prior to its expiration or to enter          a tenant for the SEC’s former office location.
into a new one on a timely basis resulted in the         The SEC, also in March 2005, entered into a
SEC, during a time of declining market rental            wrap around lease and surrender agreement
rates, paying rent at rates substantially higher         (similar to a sublease), which terminated the
than the rate it would have paid had it exe-             SEC’s previous lease provided that the SEC
cuted the one-year lease extension. Specifi-             made certain payments to the landlord, and
cally, the OIG calculated that even with the             the landlord and GSA executed a lease for the
credit obtained after the new lease was signed,          premises (which they did).
the SEC paid excess rent totaling $203,000
between November 2009 and March 2010.                         The OIG found that, as a consequence of
While OAS indicated that it performed acqui-             the circumstances described above, the SEC
sition planning, the OIG audit found that the            has made since May 2005, and continues to
SEC’s written leasing policies and procedures            make, simultaneous payments for office space
did not adequately address timely acquisition            at two locations in New York City. The OIG
planning and did not require the preparation             calculated that the SEC paid over $15 million
of adequate project plans.                               between May 31, 2005 and March 31, 2010
                                                         for property that no SEC employees have oc-
     In another situation involving the lease of         cupied since June 2005. During this same pe-
office space in New York City, the OIG found             riod, the SEC made payments of over $35 mil-
that the SEC, for several past years and con-            lion to lease its current NYRO facility. Under
tinuing into the future, was obligated to make           the terms of the wrap around lease and sur-
simultaneous payments for two office proper-             render agreement, the SEC will continue to
ties, one of which it no longer occupied. Spe-           make simultaneous payments until March
cifically, the OIG found that after asbestos was         2012. The OIG audit determined that the
discovered in the office location it had leased          lack of SEC guidance for evaluating options
since late September 2001, the SEC had a dis-            prior to vacating leased space, or for including
pute with the landlord and decided to relocate           a termination for convenience clause or a
its New York Regional Office (NYRO) and en-              broader, more inclusive default clause in a
ter into a lease at another site. However, the           lease, or using flexible lease terms, contributed
SEC was still responsible for payments under             to the SEC paying millions of dollars for space
the initial lease, as it did not believe it could        it did not occupy.
demonstrate that the landlord had breached
the lease terms. In April 2004, SEC officials                A final situation where insufficient policies
executed and approved a justification for other          and procedures contributed to increased costs
than full and open competition to obtain a               pertained to the evaluation of security re-
new NYRO lease on the basis of unusual and               quirements at a site in Alexandria, Virginia,
                                                    33
where the SEC entered into a short-term lease             achieves cost savings and increased productiv-
for temporary office space, occupying a single            ity and efficiency, as Congress intended. Spe-
floor of a four-floor building. While the audit           cifically, we recommended that OAS:
found that the Leasing and Security Branches
have been working to coordinate their efforts                (1)   Revise SECR 11-03 and draft OP
since the chiefs of those branches arrived at                      11-03 to ensure that they are
the SEC in 2008, improved coordination be-                         adequate and complete and include
tween these branches is needed. Further, al-                       the information identified in the re-
though the Security Branch has developed two                       port, finalize OP 11-03, and ensure
documents to be used in connection with pro-                       that the revised documents are
posed SEC office locations – a Building Secu-                      posted to the Commission’s Intranet
rity Survey and a Security and Safety Assess-                      site and circulated to staff with leas-
ment, the OIG identified additional important                      ing responsibilities;
information that should have been included in
the Security and Safety Assessment.                          (2)   Amend SECR 11-03 to include a
                                                                   complete list of relevant authorities
     In addition, the OIG audit found that nei-                    that apply to real property leasing
ther the Building Security Survey nor the Se-                      and finalize detailed guidance for
curity and Safety Assessment were used in                          ensuring compliance with those
connection with the Alexandria, Virginia                           authorities;
short-term lease. Based on the SEC’s analysis
of the area crime rate, it explored options for              (3)   Measure the SEC’s real property
appropriately securing the facility. As a result,                  leasing policies and procedures
OAS determined that the cost of developing                         against pertinent provisions of GSA
computerized access for the building was too                       regulations, as appropriate;
high. OAS decided that the most cost-
effective option was to place unarmed guards                 (4)   Ensure that the Leasing Branch’s
on the floor occupied by the Commission, at                        policies and procedures, including
the SEC’s expense, and for the SEC to pay the                      OP 11-03 and the attached check-
landlord, pursuant to a lease amendment, to                        lists, provide comprehensive guid-
hire an off-duty police officer to patrol the                      ance for SEC leasing officials regard-
area at a cost of $200,000 per year. Thus, the                     ing the leasing process;
SEC is paying for an armed, off-duty police
officer to be stationed at a facility where it oc-           (5)   Utilize the “Required Components”
cupies only one of four floors. Our audit                          Section of the FRPC’s Guidance for
found that if the appropriate security docu-                       Improved Asset Management to de-
ments had been used in connection with this                        velop and finalize the SEC’s real
lease, the Leasing Branch would have been                          property leasing asset management
better equipped to negotiate for adequate se-                      plan, as appropriate;
curity of the facility to be provided as part of
the initial lease document.                                  (6)   Amend its leasing policies and pro-
                                                                   cedures to require the tracking and
  Recommendations                                                  monitoring or all leasing expenses
                                                                   (i.e., rent, operating costs and taxes)
    The OIG issued a final report reflecting                       for informational and budget formu-
the results its audit on September 30, 2010.                       lation purposes;
The audit determined that several improve-
ments in the real property leasing process are               (7)   Develop performance goals for the
needed to ensure that the SEC exercises its                        SEC’s real property leasing activities,
independent leasing authority vigorously and                       including both lease acquisition and

                                                     34
      the monitoring and administration of                     consistently includes the Building
      existing leases, identify key external                   Security Survey document in all so-
      factors that could significantly affect                  licitations for leased space; and
      the achievement of these goals, and
      periodically evaluate whether these                (14) Implement policies and procedures
      goals are met;                                          to ensure the Security Branch per-
                                                              forms a physical review of prospec-
(8)   Develop performance measures to                         tive building locations and deter-
      assist in evaluating the effectiveness                  mines the threat within the immedi-
      of the major functions of real prop-                    ate area prior to entering into a lease
      erty acquisitions and operations and                    for any facility.
      periodically evaluate performance
      based on these measures;                       Management fully concurred with all of the
                                                     OIG’s recommendations. The OIG’s report,
(9)   Revise SECR 11-03 and draft OP                 Real Property Leasing Procurement Process, is avail-
      11-03 to include complete written              able on our website at
      policies for timely acquisition plan-          http://www.sec-oig.gov/Reports/AuditsInspe
      ning pertinent to real property leases,        ctions/2010/484.pdf.
      including the preparation of project
      plans and schedules with projected
      dates for achieving milestones well in         Assessment of the SEC’s Privacy
      advance of the scheduled com-                  Program (Report No. 485)
      mencement of a lease;
                                                       Background
(10) Adopt evaluation procedures that
                                                         The OIG contracted the services of C5i
     involve scoring and ranking various
                                                     Federal, Inc. (C5i) to perform an assessment of
     options prior to deciding to vacate
                                                     the SEC’s privacy policies and procedures and
     leased premises or to terminate a
                                                     the proper handling of personally identifiable
     lease, and develop a transparent
                                                     information (PII) in its Headquarters (Station
     methodology for formulating scores
                                                     Place), Operations Center (OPC), and re-
     and rankings;
                                                     gional offices. The SEC’s Los Angeles Re-
                                                     gional Office (LARO) was selected as the re-
(11) In consultation with OGC, ensure
                                                     gional office to be evaluated based on its size
     the SEC’s real property leases pro-
                                                     and the fact that OIT last assessed this Office
     vide appropriate protections in the
                                                     in 2008, and planned no further evaluation
     event the SEC needs to terminate a
                                                     until 2011.
     lease before its expiration date;
                                                         The privacy program assessment was con-
(12) Revise the Security and Safety As-
                                                     ducted in two phases. First, in June 2010, the
     sessment document to include more
                                                     OIG assessed the LARO’s handling of PII
     specific information, such as the
                                                     data by conducting a physical inspection, in-
     number of recent incidents in the
                                                     terviews, and a Network Vulnerability Assess-
     vicinity, the likelihood that future
                                                     ment (NVA) of the SEC’s computer network
     incidents will occur or vulnerabilities
                                                     (which included performing scans of a sample
     will be exploited, recommended
                                                     of 66 deployed workstations or laptops, and
     countermeasures and the cost esti-
                                                     two newly-imaged laptops that had not yet
     mates for such countermeasures;
                                                     been deployed). Second, in July 2010, the
                                                     OIG performed an NVA of Station Place and
(13) Implement final policies and proce-
                                                     the OPC to evaluate their respective network
     dures to ensure the Leasing Branch

                                                35
security postures, and conducted a “re-scan”                  •   Perform an assessment of an SEC re-
of seven of the eight servers previously as-                      gional office (i.e., LARO) for proper
sessed at the LARO. The purpose of the “re-                       handling of PII and adherence to SEC
scan” was to determine if vulnerabilities iden-                   privacy policies and procedures;
tified during the June 2010 scans were reme-                  •   Perform an NVA at the LARO, Station
diated by OIT. In addition, the OIG con-
                                                                  Place, and the OPC to evaluate the
ducted an application vulnerability assessment
                                                                  security posture of the SEC network in
on the Enforcement’s case-tracking applica-
                                                                  protecting PII data; and
tion to determine how the Commission re-
tained and secured its PII data within this ap-               •   Perform an application assessment to
plication.                                                        ensure PII data is protected.

      The primary objectives of the review were              Results
to:
                                                               Overall, the assessments conducted identi-
      •   Evaluate the adequacy of the SEC                 fied significant concerns about the manner in
          Privacy Office’s policies and proce-             which the SEC handles PII data. Specifically,
          dures, as well as its interaction and in-        the review of systems at the LARO, OPC, and
          volvement with Commission offices                HQ identified high-level vulnerabilities affect-
          and divisions to ensure SEC employ-              ing SEC computer systems that may be sub-
          ees’ privacy;                                    ject to exploitation and infiltration. The re-
      •   Perform an in-depth analysis of pri-             view further found that while software vendors
          vacy requirements and identify the               provide patches and updates to remediate se-
          SEC processes and procedures that are            curity vulnerabilities identified in their soft-
          used to conduct privacy reviews;                 ware, the SEC has not applied these critical
                                                           patches and updates, in some cases dating
      •   Assess whether the Privacy Office re-            back as far as 2006. The review also found
          sponds to privacy issues in accordance           that the SEC has not regularly reviewed the
          with governing SEC, National Insti-              application of patches on a consistent basis,
          tute of Standards and Technology                 which leaves the Commission vulnerable to
          (NIST), Office of Management and                 attack.
          Budget (OMB), and other governmen-
          tal guidance and regulations to deter-               Further, assessments performed during the
          mine whether improvements were                   review yielded additional areas of concern.
          needed;                                          The review found that:
      •   Determine if the SEC has developed
          and implemented technical, manage-                  •   OIT’s categorization of network vul-
          rial, or operational privacy-related                    nerabilities did not accurately reflect
          controls to effectively mitigate known                  the actual risk to the environment;
          risks that are inherent to Privacy Act              •   Base images deployed on laptops were
          systems of records;                                     not compliant with Federal Desktop
      •   Determine if the SEC has established                    Core Configuration (FDCC) require-
          procedures and automated mecha-                         ments and all deviations were not dis-
          nisms to verify privacy control effec-                  closed as required by OMB;
          tiveness;                                           •   SEC laptops could connect to the SEC
      •   Review governing Commission policy                      network via a local area network port,
          and guidance, and follow up on prior                    while simultaneously being connected
          OIG recommendations;                                    to an external wireless network, thus


                                                      36
       exposing the SEC network to potential               Recommendations
       compromise by a malicious attacker;
                                                             The OIG issued a final report containing
   •   Design flaws existed in the develop-
                                                         the result of its review on September 29,
       ment of the Enforcement case-
                                                         2010. The report included 20 recommenda-
       tracking application;
                                                         tions designed to address the vulnerabilities
   •   PII at LARO was contained on shared               identified during the review, which included
       drives that did not have access con-              15 recommendations to OIT or the Chief
       trols; and                                        Operating Officer (COO), four to LARO, and
   •   LARO employees violated SEC policy                one to OAS. Specifically, the report’s recom-
       by sending documents containing PII               mendations were as follows:
       data to personal e-mail accounts and
       by using portable media that was not                 (1)   OIT should apply patches and up-
       encrypted or adequately secured.                           dates to the Commission’s networks,
                                                                  workstations and laptops on a timely
     Additionally, interviews conducted of OIT                    basis;
staff and a physical assessment of office space
and storage areas at the LARO, HQ and OPC                   (2)   OIT should implement procedures
revealed that documents containing PII data                       to regularly review whether a newly-
were insecurely left on work tables, fax ma-                      released patch should or should not
chines, and desks; file rooms, file cabinets, and                 be applied to the environment;
offices containing very sensitive information
were unsecured; the SEC had no finalized                    (3)   OIT should evaluate its risk assess-
policies or procedures for the destruction of                     ment process for scoring risk;
portable media storage devices; and secured
storage bins were not accessible to all Com-                (4)   OIT should define a standard recog-
mission staff.                                                    nized character set for every re-
                                                                  sponse containing content in Hyper-
     The review’s findings indicated the exis-                    text Markup Language (the pre-
tence of a significant risk to the SEC network                    dominant markup language for web
and the security of the data and documents                        pages);
handled by the agency. While OIT has al-
ready begun taking steps to mitigate and re-                (5)   OIT must ensure FDCC compliance
mediate risks by progressively applying certain                   for all base images deployed on desk-
critical patches, significant additional work                     tops and laptops;
remains to be done.
                                                            (6)   OIT must submit a complete list of
     During the course of its audit, the OIG                      common security standard deviations
briefed GAO on its findings, including the se-                    to the NIST per OMB requirements;
curity vulnerabilities associated with the fail-
ures to apply critical patches and updates. As              (7)   OIT should ensure that wireless
a result, GAO expanded the scope of its fi-                       cards installed on laptops are turned
nancial statement audit and eventually identi-                    off when connected to the SEC’s
fied the SEC’s inconsistent patch management                      local area network;
program as a new security control deficiency
and reported information security as a mate-                (8)   OIT should implement an agency-
rial weakness in internal control.                                wide policy regarding shared folder
                                                                  structure and access rights;



                                                    37
(9)   OIT should ensure personal storage                       responsibilities for the disposal of
      tab (PST) files are saved to a pro-                      portable media storage devices;
      tected folder;
                                                         (19) OIT should provide Commission
(10) LARO should reemphasize the SEC                          staff with training on the handling,
     Rules of the Road to LARO staff                          disposal, and storage of portable
     through training and awareness pro-                      media storage devices; and
     grams;
                                                         (20) OAS should provide secured bins for
(11) LARO should enforce its encryption                       the disposal of portable media stor-
     policy to protect sensitive data the                     age devices that are easily accessible
     SEC receives;                                            to all SEC employees, and the use
                                                              and locations of these bins should be
(12) The COO should implement a pol-                          clearly communicated to all employ-
     icy that all portable media must be                      ees.
     fully secured (i.e., locked in file cabi-
     nets) when not in use;                                LARO and OAS fully concurred with the
                                                      recommendations addressed to those Offices.
(13) The COO should appoint a privacy                 The COO/Acting Chief Information Officer
     point of contact at each regional                (CIO) concurred with 12 of the 15 recom-
     office to ensure compliance with                 mendations that pertained to the COO and
     Commission policies and procedures;              OIT, partially concurred with one recommen-
                                                      dation, and did not concur with two recom-
(14) LARO should ensure all file rooms                mendations. We expressed concern that the
     and file cabinets are secured;                   COO/Acting CIO did not fully concur with
                                                      all of our recommendations. We urged the
(15) LARO should ensure that boxes of                 COO/Acting CIO to reconsider the opposi-
     files stored in hallways are moved to            tion to turning off office wireless cards in-
     secured areas;                                   stalled on laptops and to requiring that PST
                                                      files be saved to a protected folder, as we be-
(16) The COO should either implement                  lieve the recommended solutions would re-
     a clean desk policy to ensure sensi-             move vulnerabilities and protect the SEC’s
     tive information is properly secured,            information. We also encouraged the COO/
     or require that all offices be locked            Acting CIO to reconsider the objection to put-
     when not occupied;                               ting network “Least Privilege” access in place
                                                      to ensure that only employees involved in a
(17) The COO should conduct addi-                     particular case have access to data pertaining
     tional training to ensure that staff             to the case. We are pleased that the COO/
     fully understand the rules and poli-             Acting CIO plans to research other solutions
     cies concerning the handling of PII              to identify potential courses of action for the
     and sensitive data and their respon-             recommendations in which the COO/Acting
     sibilities in protecting the SEC’s               CIO did not fully concur. However, we re-
     information;                                     main convinced that OIT should implement
                                                      our recommendations to ensure that it reduces
(18) OIT should finalize, approve and                 the likelihood of these vulnerabilities being
     implement its operating procedures               exploited.
     for “Hard Drive Wiping and Media
     Destruction,” and make staff aware                   The OIG’s report, Assessment of the SEC’s
     of the procedures and their roles and            Privacy Program, is available on our website at


                                                 38
http://www.sec-oig.gov/Reports/AuditsInspe            PRISM project and integration services. The
ctions/2010/485.pdf.                                  specific objectives of the review included:

                                                         •   Identifying and reviewing all procure-
Review of PRISM Automated                                    ment documentation related to the
Procurement System Support                                   project management and integration
Contracts (Report No. 486)                                   support for PRISM;
  Background                                             •   Determining whether procurements
                                                             were properly awarded, in accordance
     The OIG contracted with Regis and Asso-                 with the Federal Acquisition Regula-
ciates, PC (Regis), Independent Public Ac-                   tion (FAR) and SEC policies and pro-
countants, to conduct a review of support                    cedures;
contracts related to the SEC’s automated                 •   Determining the validity of complaints
procurement system known as “PRISM.”
                                                             received by the OIG related to the
The Office of Acquisitions (OA) within OAS
                                                             award of the procurements for the
is responsible for the agency’s contract and
                                                             management and integration of
procurement activities and processes. Over
                                                             PRISM;
the past several years, OA had unsuccessfully
attempted to automate its procurement func-              •   Determining whether there was
tion. OA had procured two different auto-                    adequate oversight of PRISM; and
mated procurement systems (APSs) to manage               •   Reviewing governing Commission
acquisitions, both of which were discontinued.               policies and guidance and following up
In September 2008, the SEC acquired an                       on prior OIG recommendations to
APS named “PRISM,” which was intended to                     ensure they have been closed and cor-
enable OA to accurately track and reconcile                  rective actions were completed.
the SEC’s contracts and agreements and was
implemented on April 21, 2009.
                                                        Results
    Prior to the implementation of PRISM,
OA awarded two additional contracts related                The review identified several deficiencies
to PRISM. These included a contract                   related to PRISM contract administration ac-
awarded in August 2008 to provide project             tivities that raised concerns about the future
support for the implementation of PRISM,              success of the PRISM project. Specifically,
and a task order awarded under another con-           the review found that repeated requests were
tract to perform system coding and technical          made to OIT for management support for the
services related to the integration of PRISM          project. The Associate Executive Director for
and the SEC’s financial accounting system.            OAS advised OIT that the currently-assigned
The OIG had received anonymous com-                   project manager was unable to give the up-
plaints regarding the procurements relating to        coming APS project adequate time and atten-
the management and integration of PRISM               tion and that the existing level of support was
and initiated its review as a result of those         insufficient for the project to be successful. We
complaints.                                           found that OIT responded that it simply did
                                                      not have enough resources to provide the
    Regis conducted its review of the PRISM           needed project management support. Not-
support contracts from June to August 2010.           withstanding the negative experiences with
The overall objectives of the review were to          APSs in the past and the complexity of the
assess the adequacy of the PRISM award and            current project, the PRISM project continued
contract administration activities, and of the        for over a year without an active OIT project
management and implementation of the                  manager.


                                                 39
    Moreover, the review found that OAS im-             2010. The report included five recommenda-
properly restricted competition without follow-         tions to help strengthen the Commission’s
ing proper FAR requirements when it solicited           procurement and contract management func-
and awarded a contract for PRISM project                tions, as well as project management of major
support by inserting a clause that required that        information technology investments. The re-
a vendor’s employees have a current SEC                 port contained the following specific recom-
clearance or had one within the last 30 days.           mendations:
The review found that this requirement effec-
tively precluded outside contractors from bid-             (1)   OIT should review the adequacy of
ding on the work. Additionally, e-mail corre-                    trained project officers who are
spondence between the OAS Contracting Of-                        available to manage all current and
ficer (CO) and an OFM employee indicated                         anticipated projects and, if it deter-
that OAS had already pre-selected a contrac-                     mines that sufficient qualified project
tor approximately a week before the solicita-                    officers are not available, it should
tion was publicized. The contractor identified                   either provide an adequate number
in the CO’s e-mail was ultimately awarded the                    of qualified personnel or implement
contract.                                                        an alternative process for ensuring
                                                                 proper oversight of projects;
    In addition, the review found that there
was inadequate segregation of duties in the                (2)   OAS should issue guidance to staff
management of the PRISM support contract.                        on the proper use of restrictive
Specifically, neither a project manager nor a                    clauses in solicitations and the prohi-
Contracting Officer’s Technical Representa-                      bition on pre-selection, and require
tive (COTR) was appointed for the support                        that applicable FAR requirements
contract for at least one year. As a result, the                 are followed;
CO was required to assume these roles and
responsibilities during that period. Further,              (3)   OAS should implement internal pro-
we noted that a critical deliverable under the                   cedures to limit COs from also as-
PRISM support contract did not meet quality                      suming project management and
standards. The reconciliation tool developed                     COTR responsibilities on the same
by the vendor did not appear to accurately                       project, in order to ensure duties are
classify data between PRISM and Momen-                           appropriately segregated;
tum, which led to reconciliation errors and the
expenditure of additional resources to remedy              (4)   OAS should review existing contracts
these errors.                                                    to ensure that COTRs are assigned
                                                                 for each contract as appropriate; and
     Lastly, after we conducted follow-up on
the status of prior recommendations in OIG                 (5)   OAS, in conjunction with OFM,
Report No. 471, Audit of the Office of Acquisi-                  should evaluate the reconciliation
tions’ Procurement and Contract Management Func-                 tool that did not meet quality stan-
tions, issued on September 25, 2009, relating                    dards to determine, on a cost-benefit
to strengthening management controls over                        basis, whether it would be feasible to
the contracting and procurement function, we                     correct the deficiencies identified.
found that eight of the ten recommendations
contained in that report remain open.                        Management concurred with four of the
                                                        five recommendations. The OIG expressed its
  Recommendations                                       disappointment in OAS’s opposition to im-
                                                        plementing procedures to limit contracting
    The OIG issued a final report reflecting            officers from also assuming certain project
the results of the review on September 30,              management duties, as we believe this is a

                                                   40
prudent and appropriate step to ensure                        The OIG conducted this audit partially
Commission projects are managed more effi-               because of the numerous complaints it had
ciently in the future. While the OIG was                 received from SEC employees about FedTrav-
pleased that management had agreed to im-                eler since the program’s inception. These
plement four of the report’s five recommenda-            complaints included concerns about the impo-
tions, we reiterated our belief that full imple-         sition of numerous administrative charges for
mentation of all of the report’s recommenda-             a variety of unexplained reasons. The audit
tions will lead to significant improvement in            was conducted from May to August 2010.
the Commission’s contract and procurement
oversight.                                                   The overall objective of the audit was to
                                                         assess the adequacy of the service provided by
    The OIG’s report, Review of PRISM Auto-              FedTraveler and identify areas of improve-
mated Procurement System Support Contracts, is           ment to reduce or eliminate fraud, waste, and
available on our website at                              abuse. Specific audit objectives included:
http://www.sec-oig.gov/Reports/AuditsInspe
ctions/2010/486.pdf.                                        •   Surveying SEC employees to deter-
                                                                mine the level of actual concern on
    Additionally, based upon evidence of im-                    the part of SEC employees with Fed-
proper pre-selection of a contractor obtained                   Traveler;
during this review, the OIG issued an investi-              •   Determining the source of administra-
gative memorandum report, which is dis-
                                                                tive fees charged by FedTraveler and
cussed in the Investigations and Inquiries
                                                                assessing the bases for the fees and
Conducted Section of this Report.
                                                                whether the SEC and its employees
                                                                are being unnecessarily overcharged by
                                                                FedTraveler;
Audit of the FedTraveler Travel Service
(Report No. 483)                                            •   Determining whether FedTraveler has
                                                                effective controls over hotel accommo-
  Background                                                    dations and requires compliance with
                                                                applicable rules and regulations and
    The OIG conducted an audit of the Fed-                      avoidance of waste, fraud, and abuse;
Traveler Travel Service (FedTraveler), which is                 and
used to arrange the official travel of SEC staff.
The Federal Travel Regulation (FTR) man-                    •   Determining if there are areas where
dated that federal agencies fully deploy an E-                  the SEC can reduce unnecessary costs.
Gov Travel Service (ETS) by September 30,
2006. On March 31, 2005, after extensive                 Results
evaluation of the three available ETS vendors,
the SEC issued a task order to procure Fed-                  Through a survey of SEC employees
Traveler, which is a comprehensive, end-to-              launched to assist us in conducting the audit,
end service used to plan, book, track, approve           the OIG found that SEC employees are sig-
and request reimbursement for travel services            nificantly dissatisfied with FedTraveler. The
for managing federal employees’ official travel.         largest percentage of respondents to a survey
Although mandated to be deployed by Sep-                 question about costs responded that they
tember 2006, FedTraveler was not fully de-               “strongly disagreed” that the FedTraveler sys-
ployed at the SEC until June 2008.                       tem had lowered costs, even though one of the
                                                         stated goals of the E-Gov initiative was “to
                                                         significantly reduce the cost of Federal travel



                                                    41
management and to achieve dramatic cost                  that there was significant confusion about
savings.” SEC employees who completed the                what fees should be properly charged. In fact,
survey also generally responded that they did            during the course of the audit we were
not believe that the hotel booking process had           provided conflicting opinions from the CO
been simplified, with one traveler comment-              and the COTR as to whether the pricing de-
ing, “Booking a hotel is one of the most frus-           tails in the SEC’s task order or those found in
trating aspects of FedTraveler.” Further, re-            the GSA master contract applied to the Fed-
spondents indicated that the FedTraveler sys-            Traveler contract. We concluded that this
tem did not reduce the amount of time re-                confusion over the FedTraveler fee structure
quired to make travel arrangements (the larg-            raised significant concerns about the level of
est percentage of respondents, 19.1 percent,             the SEC’s monitoring of the FedTraveler con-
“strongly disagreed” that the amount of time             tract.
had been reduced), even though another
stated E-Gov objective was to simply the travel              The audit also identified several ways in
process. In addition, a majority of survey re-           which the SEC could reduce transportation
spondents did not believe the FedTraveler sys-           expenses by, among other things, educating
tem was user friendly, although their satisfac-          travelers on utilizing the allowable exceptions
tion level had increased over the past year, and         to the use of contract fares, and we made sug-
they reported being satisfied with Fed Traveler          gestions to reduce the significant funds cur-
support services within the Commission.                  rently being expended for customer support,
                                                         which included five full-time on-site contrac-
     An area of the FedTraveler system that              tor representatives at an annual cost of over
has been particularly troubling to SEC travel-           $1 million (excluding transaction costs). We
ers (according to both the complaints we re-             found that requests for actual expenses for
ceived and the survey results) is the “excessive”        lodging needed to be more closely scrutinized
FedTraveler transaction fees. Our audit con-             and that increased controls were necessary for
firmed that the transaction fee structure                travel involving the use of a privately-owned
(which includes three levels of transaction fees)        vehicle. The audit further found that a note-
is confusing and often excessive. We also                worthy number of travelers were not receiving
found that no proper explanation of these                their reimbursements within a timely manner,
transaction fees is provided to SEC travelers.           causing them to pay travel expenses out of
During our audit, we reviewed sample itiner-             their own pocket. Finally, the audit deter-
aries and found specific and numerous in-                mined that FedTraveler is not providing the
stances of excessive fees. Fees for some trips           SEC the reporting capabilities that had been
totaled over $100 and, in several instances,             promised and, as a result, OFM is unable to
travelers were charged transaction fees that             thoroughly analyze the cost effectiveness of
represented a large percentage of the total              the system and any anticipated changes.
cost of their trips (one traveler was charged
over $43 in transaction fees for a trip costing            Recommendations
less than $125). In all, we found that Fed-
Traveler charged SEC employees or contrac-                   The OIG issued a final report containing
tors nearly $190,000 in transaction fees for             the results of the audit on September 22,
travel over a seven-month period.                        2010. The report included 20 recommenda-
                                                         tions to help alleviate concerns expressed by
    The audit further found that the fees being          Commission staff about FedTraveler and re-
charged by FedTraveler for trips reviewed in             duce transportation expenses. Specifically, the
our sample were not in accordance with the               OIG recommended that OFM:
fee schedule contained in the FedTraveler task
order signed by the SEC in March 2005, and

                                                    42
(1)   Establish a working group to inde-                       penses for lodging prior to the rout-
      pendently analyze the OIG survey                         ing of such requests to OFM;
      results, comments, and suggestions
                                                         (11) Work with FedTraveler to implement
      and recommend improvements to
                                                              additional system controls to ensure
      the Associate Executive Director for
                                                              travel using privately owned vehicles
      Financial Management;
                                                              is in accordance with the FTR;
(2)   Develop regular means of communi-
                                                         (12) Request that FedTraveler institute a
      cation with Commission staff re-
                                                              system control that notifies travelers
      garding common FedTraveler issues
                                                              when their expense reports have not
      and solutions;
                                                              been submitted within the permitted
(3)   Consult with FedTraveler and its                        time period;
      travel management center, CI
                                                         (13) Request that FedTraveler provide the
      Travel, to publish a guide for em-
                                                              needed reporting capability to en-
      ployees that clearly explains the
                                                              able OFM to effectively monitor the
      transaction fee structure;
                                                              receipt and processing of expense
(4)   Educate Commission staff on alter-                      reports in accordance with the FTR;
      natives to using CI Travel in order to
                                                         (14) Publish on its travel website best
      minimize non-self service transac-
                                                              practices with regard to preparation
      tion fees;
                                                              of expense reports so travelers can
(5)   Work with FedTraveler to require                        avoid the most common mistakes
      that travelers be notified when non-                    that lead to returned expense re-
      self service transaction fees are                       ports;
      charged by CI Travel;
                                                         (15) Determine the feasibility and cost
(6)   Determine the feasibility and cost                      effectiveness of implementing a split
      effectiveness of capturing transaction                  disbursement method for payment of
      fee costs in a distinct Budget Object                   travel expenses;
      Class code;
                                                         (16) Identify and request from FedTrav-
(7)   Issue guidance to travelers regarding                   eler additional reporting capabilities
      available exceptions to using the con-                  needed to successfully perform its
      tract fare and tips for confirming that                 travel responsibilities and analyze the
      no contract flights exist prior to re-                  cost effectiveness of implementing
      questing a non-contract flight;                         such changes;
(8)   Remind travelers of the FTR excep-                 (17) Examine the activity level of the cur-
      tions for claiming actual expenses                      rent customer serve representatives
      and require that travelers provide                      to determine if the number of repre-
      clear justifications when claiming                      sentatives is appropriate; and
      actual expenses;
                                                         (18) Establish agency-specific
(9)   Determine how the requirement that                      performance measures or other
      travelers call three hotels prior to re-                means to monitor the service
      questing actual expenses be en-                         provided by the customer service
      forced, or provide travelers and ap-                    representatives.
      proving officials with alternative
      guidance;                                           The OIG also recommended that OAS
(10) Require approving officials to review            request a legal opinion from OGC regarding
     and approve requests for actual ex-              the amount and frequency of fees charged by
                                                      FedTraveler to ensure the charges are appro-

                                                 43
priate and in accordance with the GSA master             will assess the applicable SEC policies, proce-
contract and the SEC’s task order, and request           dures and processes and make recommenda-
access to the master contract through GSA’s              tions for improvement, as warranted. The
digital contract library and provide access to           OIG will also interview SEC managers and
the COTR to assist in contract monitoring.               staff involved in the exemptive order and no-
                                                         action letter processes, which primarily in-
    Management concurred with all of the                 clude staff in the Divisions of Investment
report’s recommendations. The OIG’s report,              Management, Corporation Finance the Trad-
Audit of the FedTraveler Travel Service, is available    ing and Markets. In addition, the OIG will
on our website at                                        conduct a review of relevant documents and
http://www.sec-oig.gov/Reports/AuditsInspe               analyze pertinent data in order to determine
ctions/2010/483.pdf.                                     whether applicants are complying with the
                                                         terms and conditions of the exemptive orders
                                                         and no-action letters that have been granted
PENDING AUDITS AND EVALUATIONS                           or issued.

Assessment of Compliance with Terms
and Conditions of Exemptive Orders                       Audit of Time-And-Materials and
and No-Action Letters                                    Labor-Hour Contracts
    The SEC has authority to provide firms                    A time-and-materials contract provides for
with exemptions to the requirements of the               acquiring supplies or services on the basis of
federal securities laws through the issuance of          (1) direct labor hours at specified fixed hourly
exemptive orders. Firms request exemptions               rates, including wages, overhead, general and
from the SEC for proposed transactions,                  administrative expenses, and profit; and (2)
products or services that might not comply               materials at cost, including material handling
with current securities law requirements. If             costs if appropriate. A labor-hour contract is
the SEC grants an application for an exemp-              a variation of a time-and-materials contract,
tion, the requestor must adhere to the terms             differing only in that materials are not sup-
and conditions of the exemptive order issued             plied by the contractor. The GAO has recog-
by the Commission. Additionally, the SEC                 nized the risks inherent in these types of con-
staff may provide relief to firms in the form of         tracts because the government bears the risk
a “no-action” letter. A staff no-action letter           of cost overruns. The FAR provides that such
includes the specific terms and conditions of a          contracts may only be used when it is not pos-
firm’s request, and advises the firm that if it          sible to estimate accurately the extent or dura-
proceeds as described in the request for no-             tion of the work or to anticipate costs with any
action relief, the SEC staff will not recom-             reasonable degree of confidence. In addition,
mend an enforcement action against the firm.             the FAR requires appropriate government
Exemptive orders and no-action letters pro-              surveillance of contractor performance on
vide the industry with the flexibility to intro-         time-and-materials and labor-hour contracts
duce new and novel products and services to              in order to provide reasonable assurance that
the security markets without risking an SEC              the contractor uses efficient methods and cost
enforcement action for violating the securities          controls.
laws.
                                                             The OIG has contracted with an inde-
    The OIG is performing an audit to evalu-             pendent public accounting firm to conduct an
ate the SEC’s processes for ensuring adher-              audit of the SEC’s procurement activities
ence to the conditions under which exemptive             related to time-and-materials and labor-hour
orders are granted and no-action letters are             contracts. The objectives of the audit are to
issued to applicants. In this audit, the OIG

                                                        44
assess whether the SEC’s contract monitoring           2010 Federal Information Security
procedures for these types of contracts are            Management Act Assessments
adequate and comply with applicable regula-
tions, to analyze whether contractor                        The OIG has contracted the services of
performance is in accordance with the con-             an outside consultant to perform an inde-
tract terms and conditions, and whether con-           pendent review of the SEC’s IT systems, in
tract costs incurred are allowable, allocable,         accordance with the Federal Information Se-
reasonable and adequately supported. Spe-              curity Management Act. The consultant will
cifically, the audit will determine whether (1)        independently evaluate and report on how the
the qualifications of employees billed in each         SEC has implemented its mandated IT secu-
labor category meet the contractual qualifica-         rity requirements regarding the following
tion requirements for their positions; (2) the         components:
SEC properly reviews contractor invoices, the
corresponding timesheets and other necessary              •   Certification and Accreditation;
supporting documentation to ensure that costs             •   Configuration Management;
are allowable, reasonable, and allocable to the
contract, and that billed rates do not exceed
                                                          •   Security Incident Management;
the contract ceiling; and (3) the SEC ade-                •   Security Training;
quately monitors all aspects of current and               •   Remediation/Plans of Actions and
past contractor performance. The audit will
                                                              Milestones;
include a review of the applicable regulations,
policies and procedures, and an analysis of               •   Remote Access;
information included in the contract files, as            •   Identity Management;
well as interviews of appropriate contracting
and program staff.                                        •   Continuous Monitoring;
                                                          •   Contractor Oversight; and
                                                          •   Contingency Planning.
Assessment of the SEC’s Budget
Execution Process
                                                           The consultant will also conduct an as-
    The OIG has contracted with an outside             sessment of two major SEC IT security com-
consulting firm to perform an assessment of            ponents. Specifically, assessments will be con-
the SEC’s budget execution process. During             ducted of the SEC’s (1) continuous monitor-
this assessment, the consultant will review the        ing efforts for IT operations; and (2) oversight
sufficiency of management controls over the            of contractors’ handling of SEC data. Fur-
SEC’s budget execution process and the effi-           ther, the consultant will determine whether
ciency of its operations. In addition, the con-        the SEC’s IT security components meet OMB
sultant will examine the lines of authority and        and NIST requirements.
responsibility with regard to Commission
budget decisions. The assessment will also
include an examination of policies and proce-          Implementation and Compliance with
dures designed to ensure appropriate spending          Homeland Security Presidential
of approved budgets. Further, the consultant           Directive 12 (HSPD-12)
will review and assess the SEC’s policies and
procedures for monitoring incurred obliga-                 The OIG has commenced an audit of the
tions to ensure the apportionments and allot-          SEC’s implementation and compliance with
ments limits are not exceeded.                         HSPD-12, “Policy for a Common Identifica-
                                                       tion Standard for Federal Employees and
                                                       Contractors.” Specifically, the audit will


                                                  45
evaluate whether the Commission has fully            the roles and responsibilities of the various
implemented HSPD-12 as required. In addi-            offices and divisions that are involved in im-
tion, the audit will evaluate the adequacy of        plementation of the HSPD-12 initiative.
the controls, processes, and procedures that         Finally, the OIG will determine whether the
the Commission uses to perform background            HSPD-12 processes and procedures are con-
investigations, adjudicate results, and issue        sistently applied throughout the agency’s
credentials. Further, the audit will evaluate        headquarters and regional offices.




                                                46
U.S. Securities and Exchange Commission

                                                                      SEMIANNUAL
                                                                      REPORT TO
                                                                      CONGRESS
                                                Office of
                                               Inspector
                                                General




                                          INVESTIGATIONS
                                          OVERVIEW                                                for the receipt of complaints, the OIG’s web-
                                                                                                  site also provides the public with an overview
                                              The OIG’s Office of Investigations re-              of the work of the Office of Investigations, as
                                          sponds to allegations of violations of statutes,        well as links to some investigative memoranda
                                          rules and regulations, and other misconduct by          and reports issued by the Office.
                                          SEC staff and contractors. The misconduct
                                          investigated ranges from criminal wrongdoing                The Office of Investigations conducts
                                          and fraud to violations of SEC rules and poli-          thorough and independent investigations into
                                          cies and the Government-wide standards of               allegations received in accordance with the
                                          conduct. The OIG receives complaints                    Quality Standards for Investigations of the
                                          through the OIG Hotline, an office electronic           CIGIE. In instances where it is determined
                                          mailbox or by mail, facsimile or telephone. In          that something less than a full investigation is
                                          addition, as discussed under the Management             appropriate, the Office of Investigations con-
                                          and Administration Section of this Report, the          ducts a preliminary inquiry into the allegation.
                                          OIG now also receives allegations from SEC              If the information obtained during the inquiry
                                          employees of waste, abuse, misconduct, or               indicates that a full investigation is warranted,
                                          mismanagement within the Commission                     the Office of Investigations will commence an
                                          through the new OIG SEC Employee Sugges-                investigation of the allegation.
                                          tion Hotline, which was established pursuant
                                          to Section 966 of the Dodd-Frank Act.                       Upon the opening of an investigation, the
                                                                                                  primary OIG investigator assigned to the case
                                              The most common way complaints were                 prepares a comprehensive plan of investiga-
                                          received during this reporting period contin-           tion that describes the focus and scope of the
                                          ued to be through the OIG Hotline, which                investigation, as well as the specific investiga-
                                          consists of both telephone and web-based                tive steps to be performed during the investi-
                                          complaint mechanisms. Complaints may be                 gation. In all investigations, the OIG investi-
                                          made anonymously by calling the Hotline,                gator interviews the complainant whenever
                                          which is staffed and answered 24 hours a day,           feasible and conducts significant interviews
                                          seven days a week. Complaints may also be               under oath and on-the-record. Where there is
                                          made to the Hotline through an online com-              any reason to believe a witness will not provide
                                          plaint form, which is accessible through the            truthful testimony, the OIG investigator pro-
                                          OIG’s website. In addition to a mechanism               vides an appropriate perjury warning. In ad-
                                                                                             47
dition, the OIG investigator gives assurances            Goldman Sachs & Co. (Report No.
of confidentiality to potential witnesses who            OIG-534)
have expressed a reluctance to come forward.
                                                           Opening of the Investigation
    Where allegations of criminal conduct are
involved, the Office of Investigations notifies              On April 23, 2010, the SEC OIG, in re-
and works with the U.S. Department of Justice            sponse to a written request from the Honor-
(DOJ) and the Federal Bureau of Investigation            able Darrell Issa (R-California), Ranking
(FBI), as appropriate. The OIG also obtains              Member of the U.S. House of Representatives
necessary investigative assistance from the              Committee on Oversight and Government
SEC’s OIT, including the prompt retrieval of             Reform, and other members of the House of
employee e-mail accounts as requested by the             Representatives, opened an investigation into
OIG investigators and forensic analysis of               allegations that SEC employees communi-
computer hard drives. The OIG investigative              cated or coordinated with the White House,
staff meets with the Inspector General fre-              Members of Congress, or Democratic politi-
quently to review the progress of ongoing                cal committees concerning the bringing, or
investigations. The OIG investigative unit               the timing of bringing, an action against
also meets periodically with the Commission’s            Goldman Sachs & Co. (Goldman), in order to
Ethics Counsel to coordinate activities.                 affect debate of the financial regulatory re-
                                                         form legislation pending before the U.S. Sen-
    Upon completion of an investigation, the             ate. Congressman Issa and other Members of
OIG investigator prepares a comprehensive                Congress also alleged that SEC employees
report of investigation that sets forth in detail        may have had communications with the New
the evidence obtained during the investiga-              York Times concerning the SEC’s complaint
tion. Investigative matters are referred to the          against Goldman prior to the filing of that
DOJ and SEC management as appropriate.                   complaint.
In many investigative reports provided to SEC
management, the OIG makes specific findings                  On July 22, 2010, Congressman Issa re-
and recommendations, including whether the               quested that the OIG broaden its investigation
OIG believes disciplinary or other action                to examine whether the timing of the
should be taken. The OIG requests that                   Commission’s proposed settlement with
management report back on the disciplinary               Goldman related to either the financial regula-
action taken in response to an OIG investiga-            tory reform legislation passed by the U.S. Sen-
tive report within 45 days of the issuance of            ate the same day, or was an effort to avoid fur-
the report. The OIG follows up as appropri-              ther criticism in the press concerning the pro-
ate with management to determine the status              posed settlement. The OIG expanded its in-
of disciplinary action taken in matters referred         vestigation to examine these additional issues.
by the OIG.
                                                           Scope of the Investigation

                                                             On April 26, 2010, the OIG issued an
INVESTIGATIONS AND INQUIRIES                             agency-wide document retention notice, in-
CONDUCTED
                                                         structing employees to preserve all documents
Allegations of Improper Coordination                     related to the complaint filed against Gold-
Between the SEC and Other                                man on April 16, 2010, and the Division of
Governmental Entities Concerning the                     Enforcement’s related investigation of Gold-
SEC’s Enforcement Action Against                         man.




                                                    48
    The OIG made numerous requests to the             maximizing and shaping positive press cover-
SEC’s OIT for the e-mails of current and              age.
former SEC employees for various periods of
time pertinent to the investigation. The                  The OIG analyzed in great detail the
e-mails were received, loaded onto computers          information found relating to each major de-
with specialized search tools and searched on         cision made by the staff in connection with
a continuous basis throughout the course of           the Goldman investigation, the Goldman civil
the investigation. In all, the OIG reviewed e-        action, and the timing of that action. The
mails for a total of 64 current or former SEC         OIG did not find that financial regulatory re-
employees for the time period pertinent to the        form legislation played a role in any of these
investigation. The OIG estimates that it ob-          decisions. In addition, we found no evidence
tained and searched over 3.4 million e-mails          that anyone at the SEC ever mentioned the
during the course of its investigation.               financial reform legislation in connection with
                                                      the Goldman investigation or the filing of the
    In addition, the OIG reviewed various             action against Goldman prior to the April 16,
internal SEC memoranda, databases, and                2010 filing.
closed Commission meeting records, as well as
numerous publicly available documents such                Further, many SEC witnesses in this inves-
as court filings and newspaper articles. The          tigation, including SEC Chairman Mary
OIG also requested information from The               Schapiro, testified that they were surprised or
New York Times Company and Bloomberg                  “shocked” at the extent of the media atten-
Media concerning whether, when, and how               tion given to the Goldman action. The belief
these organizations first learned about the           held by the SEC staff, which is corroborated
SEC’s action against Goldman.                         by e-mails, that the Goldman action might not
                                                      have significant public impact, much less the
    Finally, the OIG took the sworn testimony         impact it ultimately had, is another factor that
of 32 witnesses and interviewed five other in-        argues against the idea that the SEC or its
dividuals with knowledge of facts or circum-          staff were attempting to influence financial
stances surrounding the SEC’s investigation of        regulatory reform legislation.
Goldman, the SEC’s filing of its complaint
against Goldman, and/or the SEC’s settle-                  The OIG did not find evidence indicating
ment with Goldman.                                    that the SEC coordinated its investigation of,
                                                      or its action against, Goldman with the Ex-
  Summary of the Results of the                       ecutive Office of the President, the White
  Investigation                                       House, any White House employees, any
                                                      Member of Congress, any Congressional em-
    Overall, the OIG investigation did not            ployee, the Democratic National Committee,
find evidence indicating that the SEC’s inves-        the Democratic Senate Campaign Commit-
tigation of, or its action against, Goldman was       tee, the Democratic Congressional Campaign
intended to influence, or was influenced by,          Committee, or any of their employees. The
financial regulatory reform legislation. The          OIG reviewed the e-mails of all of the SEC
OIG found that the investigation’s procedural         staff who played any role in the Goldman ac-
path and timing was governed primarily by             tion, including the Chairman, Chief of Staff,
decisions relating to the case itself, as well as     Deputy Chief of Staff, Commissioners and
concerns about: (1) the facts surrounding the         their counsel, Enforcement staff, and the staff
investigation’s subject matter being publicized       of the Office of Legislative and Intergovern-
prior to the SEC’s filing of its action; (2)          mental Affairs. The documents reviewed and
maintaining a relationship with the New York          testimony taken indicated no information
State Attorney General (NYAG); and (3)                about the SEC’s investigation of Goldman


                                                    49
was shared with any outside entities or indi-           ployees who may have played a role in, or
viduals prior to the SEC’s April 16, 2010 ac-           known about, the Goldman action, and taking
tion against Goldman.                                   the sworn testimony of these employees, the
                                                        OIG did not find evidence demonstrating that
     The OIG investigation also found no evi-           anyone at the SEC shared information about
dence indicating that the SEC coordinated the           its Goldman investigation with the media prior
settlement of its action against Goldman with           to the filing of its action against Goldman on
the Executive Office of the President, the              April 16, 2010.
White House, any White House employees,
any Member of Congress, any Congressional                   The OIG investigation made the following
employee, the Democratic National Commit-               specific findings with respect to Enforcement’s
tee, the Democratic Senate Campaign Com-                investigation of Goldman, the SEC’s action
mittee, the Democratic Congressional Cam-               against Goldman and the settlement of that
paign Committee, or any of their employees.             action. On August 25, 2008, the Headquar-
The OIG found that settlement negotiations              ters Enforcement staff opened an investigation
and approval proceeded independently of any             into potential misrepresentations by Goldman
other governmental entities, any legislation, or        in connection with the structuring and market-
any political entities. The documents reviewed          ing of a particular collateralized debt obliga-
and testimony taken by the OIG yielded no               tion. On September 2, 2009, a senior
indication of coordination or communications            Enforcement official assigned to the investiga-
between the SEC and other governmental en-              tion wrote in an e-mail to others in
tities concerning the settlement before its pub-        Enforcement that “the very quickest” he ex-
lic announcement.                                       pected the Goldman investigation to be on the
                                                        Commission Calendar was November 2009,
    An April 20, 2010 letter sent by several            and suggested that the target date for bringing
Members of Congress serving on the U.S.                 an action against Goldman and one individual
House of Representatives Committee on                   be moved from September 2009 to December
Oversight and Government Reform to                      2009.
Chairman Schapiro specifically inquired
whether the SEC Chief of Staff or Deputy                    On November 13, 2009, Enforcement re-
Chief of Staff engaged in any communication             served a spot on the Commission Calendar for
with the Executive Office of the President, any         December 17, 2009, for the Commission to
Members of or employees of Congress, or any             consider the Enforcement staff ’s recommenda-
Democratic political committees. Our investi-           tion to sue Goldman and one of its vice presi-
gation found no evidence indicating that either         dents. On November 24, 2009, Enforcement
the SEC Chief of Staff or Deputy Chief of               circulated the Action Memorandum for this
Staff communicated with anybody outside the             recommendation to other SEC offices and di-
SEC concerning the Goldman investigation or             visions for comment and confirmed that the
the Goldman action prior to the SEC’s com-              Goldman matter would be on the Commission
plaint being filed on April 16, 2010. Our in-           Calendar for December 17, 2009.
vestigation also found no evidence indicating
that either of these individuals played any sig-            On December 8, 2009, Enforcement de-
nificant role in the SEC’s investigation of             cided to withdraw the Goldman matter from
Goldman or the authorization of the action              the calendar. The OIG found that the deci-
against Goldman.                                        sion to withdraw the Goldman case from the
                                                        Commission Calendar was based upon a de-
    Further, after conducting an extensive              termination by the Enforcement staff working
search of the e-mails of dozens of SEC em-              on the investigation that they should take tes-


                                                   50
timony from an additional Goldman witness.               this afternoon with the Front Office to discuss
After the testimony of the Goldman witness               [the Goldman investigation]. We would like
was taken, on January 4, 2010, Enforcement               to have our recommendation against Gold-
wrote to the Office of the Secretary, “We will           man and [the vice president] considered at the
be re-sending this recommendation up to the              January 28 closed [C]ommission meeting and
Commission on Friday, January 8. ENF’s                   will get you a final action memo within the
Front Office has asked that the matter be cal-           next day. . . .” On January 22, 2010, an
endared for the second or third week in Janu-            Enforcement manager suggested in an e-mail
ary.” Enforcement also wrote in this e-mail,             to senior Enforcement staff that the SEC file
“This is a high-profile enforcement case that            its complaint against Goldman on Friday,
recently became time sensitive.”                         January 29, 2010, arguing that the “24-7 news
                                                         cycle” makes irrelevant the SEC’s traditional
     The OIG investigation found that the                approach of avoiding filing significant
Goldman case had become time-sensitive be-               Enforcement matters on Fridays. Others dis-
cause SEC staff had learned that the Senate              agreed with this argument, noting the histori-
Permanent Subcommittee on Investigations                 cal practice in Enforcement not to file cases on
(PSI) was considering holding a hearing about            Fridays because it was assumed that the Sat-
Goldman in late January 2010, and SEC staff              urday newspapers were not going to be as
members were concerned that public                       widely read.
information would be aired relating to the
Goldman investigation. There was also evi-                   On January 24, 2010, Chairman Schapiro
dence that the SEC preferred that the facts              conveyed her interest in “get[ting] the [Gold-
about Goldman’s conduct be publicly aired                man] case out” to her Enforcement liaison in
first by the SEC in a press release announcing           the Chairman’s office. On January 26, 2010,
the action, after it completed its investigation.        members of the Enforcement staff met with
                                                         Commissioner Troy Paredes to discuss the
    The OIG investigation also found that on             Goldman matter. On January 27, 2010, the
March 15, 2010, a Counsel to the Director                day before the Commission meeting in which
and Deputy Director of Enforcement began a               the Goldman recommendation was to be
detail at PSI. Prior to beginning that detail,           heard, the decision was made to pull the rec-
this official sought advice from the SEC Ethics          ommendation from the Commission Calen-
Counsel regarding the detail and was in-                 dar.
structed, “To the extent you have any non-
public info about SEC investigations, I would                The OIG investigation found that the
think you would not be permitted to share                Goldman case was pulled a second time from
that with them.” Later in the detail, the                the Commission Calendar for two reasons: (1)
Enforcement Counsel e-mailed SEC staff that              concerns expressed by Commissioners and
she would like to disclose the SEC’s Goldman             further analysis of the case by Enforcement
investigation to PSI. She was again instructed           staff regarding whether or not to charge an
that all non-public information she obtained             additional individual; and (2) a decision by
while at the SEC must remain non-public and              Enforcement staff to obtain more evidence
that she could not disclose the fact of the              from purchasers of the collateralized debt ob-
SEC’s Goldman investigation. We did not                  ligation to strengthen the SEC’s case against
find evidence that this individual disclosed any         Goldman.
information about the Goldman investigation
to PSI.                                                      The Enforcement staff took further inves-
                                                         tigatory steps in the Goldman case over the
    On January 19, 2010, Enforcement wrote               next several months and marshaled additional
to the Office of the Secretary, “We met again            evidence. On April 1, 2010, the Enforcement

                                                    51
staff submitted another Action Memorandum              rangle settlement was that the SEC’s “goal is
to the Commission recommending that the                always to get our enforcement message out
Commission file a civil action against Goldman         widely,” and bringing two cases on the same
and the vice president. On April 8, 2010, in an        day would lessen that objective and confuse the
e-mail circulating a draft complaint against           media’s focus. The Enforcement Director also
Goldman, Enforcement wrote that it planned             noted that the SEC did not want both Gold-
to send the Goldman complaint to New York              man and Quadrangle announced on the same
to be filed “either the afternoon of Wednesday         day because of the overwhelming amount of
April 14 or morning of Thursday April 15.”             briefing and other work involved for each mat-
                                                       ter. He added that the SEC’s Office of Public
    The OIG investigation found that the               Affairs did not want the SEC to announce two
Commission approved the filing of the Gold-            significant cases on the same day because the
man action on Wednesday afternoon, April 14,           press would be diluted, as well as the logistics
2010. On April 12, 2010, the SEC had                   involved in coordinating the publicity of the
learned that the NYAG planned to announce              SEC’s actions.
on April 15, 2010, a $7 million settlement with
Quadrangle Group LLC (Quadrangle) for its                  In the Enforcement Director’s response to
alleged involvement in kickbacks relating to           Chairman Schapiro’s April 12, 2010
pension fund investments. The SEC was in a             e-mail about making sure that the SEC did not
position to file its own proposed settlement           announce the Goldman action on the same
with Quadrangle for similar alleged violations         day as Quadrangle, he wrote that the SEC
on the same day that the NYAG would an-                would announce the Quadrangle settlement on
nounce its settlement. Later on April 12, 2010,        Wednesday and file the Goldman action
the SEC learned that the NYAG intended to              “likely” on Thursday. On the afternoon of
announce its settlement with Quadrangle on             Tuesday, April 13, 2010, the SEC learned that
Wednesday, April 14, instead of Thursday,              the NYAG had changed its schedule again, and
April 15.                                              that it now planned to announce the Quadran-
                                                       gle settlement on Thursday, April 15. We ob-
    The Enforcement Director informed                  tained testimony that once the NYAG moved
Chairman Schapiro that the SEC staff                   the Quadrangle announcement date to Thurs-
planned to file its settlement with Quadrangle         day, April 15, 2010, the SEC decided to delay
on Wednesday, April 14, 2010, at the same              the Goldman action until Friday, April 16.
time that the NYAG announced its settlement
with Quadrangle. Chairman Schapiro re-                      On the morning of Wednesday, April 14,
sponded, “Let’s make sure we don’t announce            2010, the SEC’s Director of Communications
Goldman same day,” and testified that the              wrote in an e-mail to the Director of the SEC’s
Quadrangle case was an important case for the          Office of Public Affairs, that the Goldman ac-
NYAG, and an important case for the SEC as             tion would be filed on Friday, April 16. On the
well. She stated that she did not want to de-          morning of Thursday, April 15, at 2:38 a.m.,
tract from the announcement of the Quadran-            the Director of Communications e-mailed to a
gle case by announcing the Goldman case at             variety of senior SEC officials in Enforcement,
the same time, explaining, “I was a little wor-        Public Affairs and the Chairman’s Office a de-
ried that the Attorney General would be very           tailed timeline of the anticipated events for the
upset if we announced multiple cases the same          remainder of that week. Events on this time-
day.”                                                  line included the SEC’s announcement of the
                                                       Quadrangle settlement Thursday morning,
   Another reason advanced by SEC staff                filing of the Goldman complaint Friday morn-
why it would not be advisable to announce the          ing at 9:30 a.m., announcement of the Gold-
Goldman action on the same day as the Quad-            man filing at 9:45 a.m., and public release of

                                                  52
the OIG’s Report on its Investigation of the            and did not have knowledge that the timing of
SEC’s Response to Concerns Regarding Rob-               the two events on the same day was inten-
ert Allen Stanford’s Ponzi Scheme (OIG Stan-            tional.
ford Report) on Friday afternoon. The
Enforcement staff continued to review and                   In addition, an OGC attorney sent an e-
edit the complaint against Goldman on                   mail to a personal friend on the day that the
Thursday, April 15, 2010.                               Goldman action was announced and the OIG
                                                        Stanford Report was released, stating, “What
     The SEC filed the Goldman complaint                a coincidence that those two stories came out
with the U.S. District Court for the Southern           today. ;-).” He testified that his e-mail about
District of New York at 10:29 a.m. on Friday,           the timing of the two being a “coincidence”
April 16, 2010. At 10:33 a.m. on April 16,              was based on purely his own speculation that
the SEC issued a press release concerning its           the timing of the two releases “would be posi-
filing of the complaint against Goldman. At             tive damage control for the Commission” in
1:57 p.m. on April 16, 2010, a few hours after          that the Goldman action and Stanford report
the SEC filed its action against Goldman, the           were put out on the same day in order for the
SEC publicly released a redacted version of             Goldman action to drown out media coverage
the OIG Stanford Report, which contained                of the Stanford report.
criticisms of the SEC’s response to concerns
and allegations that Robert Allen Stanford’s                These suspicions were likely fueled by the
companies were conducting a fraudulent                  recent history of the SEC releasing OIG re-
scheme. In part because of coverage of the              ports that criticized the agency on “slow”
SEC’s Goldman action, press coverage of the             news days. The SEC released the OIG’s 457-
OIG Stanford Report was limited.                        page report of investigation (ROI) concerning
                                                        the failure of the SEC to uncover Bernard
    Individuals both within and outside the             Madoff ’s Ponzi Scheme after 5:00 p.m. on
SEC noted the suspicious timing of the SEC’s            September 4, 2009, the Friday before a three-
announcement of the Goldman action and                  day holiday weekend. The SEC then released
release of the OIG Stanford Report on the               the hundreds of exhibits supporting the OIG’s
same day. A senior Enforcement official wrote           ROI concerning Madoff late on Friday, Octo-
in an April 19, 2010 e-mail:                            ber 30, 2009. In addition, the OIG ROI con-
                                                        cerning the SEC’s failure to vigorously pursue
       I’m hearing that the Chair-                      an enforcement action against W. Holding
       man’s office is denying that                     Company, Inc., and Bear Stearns & Co., Inc.,
       there was any connection be-                     was made public on Friday, October 10, 2008.
       tween the decision to file the                   Consistent with this pattern, on April 16,
       case on Friday and the decision                  2010, the same Friday that the OIG Stanford
       to release the Stanford IG re-                   Report was publicly released and the Gold-
       port the same day. They had                      man action was announced, the SEC also
       better be careful, because they                  publicly released the OIG’s ROI concerning
       may get asked for e-mail, etc.                   the SEC’s failure to timely investigate allega-
       from Congress or pursuant to a                   tions of financial fraud at Metromedia Inter-
       FOIA request.                                    national Group, Inc., which had been submit-
                                                        ted to the SEC by the OIG almost two
This senior official testified that he “assumed         months earlier.
that it was not coincidental” that the OIG
Stanford Report and the Goldman action                      Although, as noted above, we found that
were made public on the same day, but that he           the decision on the timing of the release of
was not involved in decisions for either matter,        the Goldman report was based at least par-

                                                   53
tially on maximizing press coverage, and that                The OIG investigation also found that the
ensuring positive press coverage was a consid-           Enforcement staff did not notify Goldman of
eration in deciding when to file and announce            the impending filing of the complaint against
cases, the OIG did not locate any concrete               Goldman prior to its filing. We found that a
and tangible evidence in e-mails or testimony            senior Enforcement staff member on the
that the filing of the Goldman report was spe-           Goldman case left a message with the secre-
cifically delayed to coincide with the issuance          tary for Goldman’s counsel on Friday, April
of the OIG Stanford Report. After the OIG                16, 2010, to give notice that the SEC had
Stanford Report was submitted to the Chair-              brought charges against Goldman and the
man on April 1, 2010, the SEC staff under-               vice president. Telephone records for Gold-
took the process of redacting portions of the            man’s counsel indicated that the first call re-
report before its public release, a task that ap-        ceived from the SEC on April 16 came at
peared to proceed independently of the tim-              10:39 a.m., ten minutes after the SEC filed its
ing of the SEC’s Goldman action.                         complaint against Goldman and seven min-
                                                         utes after the SEC issued its press release
    On April 9, 2010, the OGC sent an e-mail             about the Goldman action.
to the counsels to the Commissioners, inform-
ing them that it planned to circulate a seriatim              Goldman’s counsel testified that “it was
Action Memorandum on Monday, April 12,                   unprecedented, [and] in [his] view it was con-
seeking Commission authority by April 14 to              trary to decades of SEC experience that they
release the OIG Stanford Report. On that                 would file without calling and giving an op-
Monday, however, the OGC notified the                    portunity for the respondent to put a proposal
counsels to the Commissioners via e-mail that,           on the table.” Several senior Enforcement
due to further consideration of certain redac-           officials testified that it was the practice of
tions, the Action Memorandum would not be                many SEC staff to notify a defendant that the
ready to circulate until Tuesday, April 13.              Commission had authorized the staff to file an
                                                         action against the defendant in order to poten-
     There was testimony that, by April 13,              tially obtain a “settlement at the 11th hour.”
2010, a decision had been made to postpone               There was also testimony that one concern in
release of the OIG Stanford Report from                  notifying Goldman of Commission authoriza-
April 14 to April 16 due to issues concerning            tion in advance of filing was as follows:
the redaction of the report and, thereafter, the
date of release for the OIG Stanford Report                     Goldman is a pretty sophisti-
was “fixed” for Friday, April 16. The Action                    cated player. … [T]hey’re
Memorandum seeking Commission authority                         good at the public relations
to release the OIG Stanford Report was ulti-                    game, and that … if you know
mately circulated to the Commissioners’ coun-                   that something is coming from
sels on April 14, and was not signed by all five                the SEC, you can maybe take
Commissioners until the morning of Friday,                      certain actions to … precondi-
April 16.                                                       tion the reporters about the
                                                                case, and maybe the coverage
    Accordingly, the OIG concluded that the                     would not be as favorable, from
SEC’s decision to file the action against                       the SEC’s perspective.
Goldman on April 16, 2010 was driven pri-
marily by its desire to avoid filing the action              The Enforcement Director testified that
on the same day that it announced the Quad-              Goldman’s counsel called him a day or two
rangle settlement.                                       after the filing of the Goldman complaint and
                                                         “expressed displeasure about really not having
                                                         a chance to settle the case.” The Enforcement

                                                    54
Director testified that he responded that                     The OIG investigation also found that the
Goldman had many opportunities to settle the              SEC’s decision to file its action against Gold-
case and the SEC had no reason to believe                 man during trading hours with no advance
Goldman was interested in settling. He also               notice to Goldman or the New York Stock
testified that he did not necessarily think it was        Exchange (NYSE) resulted in market volatility,
a good idea for it to become standard practice            which concerned an NYSE Regulation official.
for the SEC to notify an entity when the                  However, the OIG did not find anything im-
Commission has authorized filing an action                proper in this decision. The OIG recom-
against the entity.                                       mended that Enforcement give further consid-
                                                          eration to whether, under certain circum-
   The OIG found that Section B(15)(c) of                 stances, filing an action after trading hours or
SECR 18-2, “Press Relations Policies and Pro-             giving advance notice of an action to NYSE
cedures,” stated, in part:                                Regulation or other self-regulatory organiza-
                                                          tions is appropriate.
        Every effort should be made to
        avoid the possibility that defen-                      The OIG also analyzed the circumstances
        dants in an SEC enforcement                       surrounding the timing of the SEC’s July 2010
        action first learn of the action                  settlement with Goldman. Settlement negotia-
        when they read about it in the                    tions with Goldman began almost immedi-
        newspapers or when they are                       ately after the SEC filed its complaint against
        called by a reporter for com-                     Goldman. A few weeks prior to the July 15
        ment about the SEC’s com-                         settlement announcement, Goldman made it
        plaint. The division, regional                    clear to the SEC staff that it wanted the mat-
        or district office primarily re-                  ter settled, both prior to July 19, when Gold-
        sponsible for the filing of a par-                man’s answer to the SEC’s complaint was due,
        ticular complaint shall take all                  and prior to July 20, when Goldman’s quar-
        necessary steps to see that the                   terly earnings would be announced and at
        defendants and/or their coun-                     which point Goldman would have to take and
        sel are given timely advice con-                  announce an accounting reserve if no final
        cerning the action.                               settlement had been reached.

    While we found that the Office of Public                  The Enforcement Director testified that, at
Affairs circulated its press policy, including            that point, “everybody was of the view that if
SECR 18-2, to Enforcement staff on at least               we’re going to get [the settlement] done it had
an annual basis, two members of the                       to get done before those two dates.” After set-
Enforcement staff responsible for bringing the            tlement negotiations continued through June
Goldman action testified that they were not               2010, on July 1, 2010, the Enforcement staff
aware of the provision quoted above.                      sent draft settlement papers to Goldman’s
                                                          counsel and by early July, the SEC staff had
     Accordingly, the OIG found that the SEC              set a plan to bring Goldman’s settlement offer
staff did not fully comply with SECR 18-2                 before the Commission on Thursday, July 15.
because they did not make “every effort” to               The Enforcement staff circulated the Action
notify Goldman of the SEC’s action prior to               Memorandum recommending acceptance of
filing the action. In light of the differing views        Goldman’s settlement offer to the Commis-
expressed by Enforcement management as to                 sioners on July 12, 2010. Senior Enforcement
whether notice should be given to a defendant             staff held meetings with each Commissioner
in advance of an SEC enforcement action, the              prior to the July 15 Commission meeting to
OIG recommended consideration of whether                  brief them on the proposed settlement with
this regulation should be revised.                        Goldman. On July 14, 2010, the Enforcement

                                                     55
Staff sent final versions of the settlement pa-         passed by the Senate, it was decided to an-
pers to Goldman’s counsel for signature.                nounce the settlement that day as originally
                                                        planned because, if the SEC held the Gold-
     The OIG investigation found that the de-           man settlement filing and announcement an-
cision was made to file and announce the set-           other day, people would then be able to say
tlement with Goldman immediately after the              the SEC held it because of financial regula-
Commission approved the settlement on July              tory reform.
15, 2010, which was also the same day that
the financial regulatory reform bill passed the             The Commission approved the settlement
Senate. The Enforcement Director testified              with Goldman in a closed Executive Session
that one of the reasons for the decision to an-         on the afternoon of July 15, 2010. At 3:15
nounce the settlement on July 15 was a con-             p.m., pursuant to a timeline previously circu-
cern about leaks to the media. A senior                 lated, a few minutes after the Commission ap-
Enforcement official agreed that the primary            proved the settlement, the SEC issued a press
reason that the SEC decided to announce the             advisory announcing a press conference to be
settlement quickly was “to beat leaks. …                held at 4:45 p.m., without identifying the topic
[T]he more time that went by between the                of the press conference. At 4:28 p.m., as the
Commission approving it and filing the set-             NYSE trading day was ending, the SEC re-
tlement, the more likely it was going to get out        leased its public announcement of the settle-
there.” A senior official in the Chairman’s             ment with Goldman.
office stated that the SEC decided to an-
nounce the settlement quickly on Thursday,                   Based upon the foregoing evidence, the
July 15, rather than wait until the next day            OIG investigation did not find that the SEC’s
because, “If you wait until Friday and it leaks,        investigation of, or its action against, Goldman
then Goldman gets to control the story.” The            was intended to influence, or was influenced
Director of Public Affairs testified that there         by, financial regulatory reform legislation.
was “absolutely” concern at the SEC that                The OIG also did not find that the settlement
Goldman would provide information to the                between the SEC and Goldman was intended
media and spin the settlement in Goldman’s              to influence, or was influenced by, financial
favor.                                                  regulatory reform legislation. We also did not
                                                        find that the SEC improperly coordinated its
    The Enforcement Director also testified             Goldman investigation with outside entities or
that there may have been internal discussions           shared information about that investigation
at the SEC that the filing of the proposed              with any journalists or members of the media
Goldman settlement on the same day that fi-             prior to the filing of its action against Gold-
nancial regulatory reform was approved by               man on April 16, 2010.
the Senate might lead to speculation that the
timing of the two events was connected, even                 The OIG did find that the SEC staff did
though it was not. However, the Enforcement             not fully comply with Administrative Regula-
Director testified that the SEC decided to              tion SECR 18-2 by failing to notify Goldman
keep to its schedule because it would have              of the SEC’s action until after it had filed the
been inappropriate to delay the settlement be-          action, and that this decision, in combination
cause of this concern. Others concurred that            with the decision not to give notice to NYSE
while there was concern that the SEC would              Regulation in advance of filing the action and
be perceived poorly by announcing the pro-              to file the action during market hours, resulted
posed Goldman settlement on the same day                in an increase in volatility in the securities
that financial regulatory reform legislation was        markets on the day of the filing.




                                                   56
  Recommendations in the Report of                     garding the SEC’s proposed $33 million set-
  Investigation                                        tlement with Bank of America (BofA), for false
                                                       and misleading statements made in connec-
    The OIG recommended that the Chair-                tion with its merger with Merrill Lynch & Co.
man and the Enforcement Director: (1) give             (Merrill), filed in U.S. federal court on August
consideration to, and then communicate to              3, 2009. Specifically, Congressman Cum-
Enforcement staff, the circumstances, if any,          mings referenced an attached August 4, 2009
under which Enforcement should give notice             Washington Post article that raised the following
to NYSE Regulation or other self-regulatory            conflict of interest issues that could potentially
organizations in advance of filing an                  arise from SEC enforcement actions against
enforcement action in which the defendant              entities that, like BofA, were in receipt of
has not been given notice that an action is            Troubled Asset Relief Program (TARP) funds:
imminent; (2) give consideration to, and then
communicate to Enforcement staff, the cir-                 (1) Whether the enforcement action may
cumstances, if any, under which Enforcement                     harm the firm’s viability, and
should file an enforcement action, and issue                    threaten systemic risk to the financial
any related press releases or advisories, after                 industry;
the close of trading hours for the exchange on
which the securities of the defendant entity               (2) Whether the fines levied would essen-
trades; and (3) give consideration to whether                   tially be paid with taxpayer funds;
SECR 18-2 should be revised, and to then
communicate to Enforcement staff whether                   (3) Whether the fines would harm the
and in what circumstances advance notice                        shareholder investment in the firm,
should be given to defendants in an                             when the shareholder is the U.S.
enforcement action.                                             taxpayer; and
    The OIG’s report of investigation was is-              (4) Whether the role played by Federal
sued just prior to the end of the semiannual                    Reserve or Treasury officials in the
reporting period. Consequently, as of the end                   actions upon which fines were issued
of the period, no action had yet been taken by                  may have been significant to the oc-
management with respect to the OIG’s rec-                       currence of the violation but cannot
ommendations.                                                   be investigated by the SEC.

                                                           Congressman Cummings asked the SEC
Investigation of the Circumstances                     OIG and SIGTARP, respectively, to investi-
Surrounding the SEC’s Proposed                         gate the extent to which the issues above ex-
Settlements with Bank of America,
Including a Review of the Court’s                      isted in Enforcement’s first proposed settled
Rejection of the SEC’s First Proposed                  action against BofA, as well as the potential
Settlement and an Analysis of the                      for these conflicts to occur in future actions
Impact of Bank of America’s Status as                  against TARP recipients. In response, the
a TARP Recipient (Report No. OIG-522)                  SEC OIG opened an official investigation on
                                                       August 6, 2009.
  Opening of the Investigation

    On August 6, 2009, the Honorable Elijah                Subsequent to opening its investigation,
E. Cummings (D-Maryland), Member of                    the OIG learned that the Honorable Jed S.
Congress, U.S. House of Representatives, sent          Rakoff, U.S. District Judge for the Southern
a letter to the SEC OIG and to the Office of           District of New York, rejected the
the Special Inspector General for the Trou-            Commission’s proposed settlement with BofA
bled Asset Relief Program (SIGTARP) re-                on September 14, 2009. Shortly after Judge

                                                  57
Rakoff rejected the settlement, Senior Coun-             randa, including an internal policy memoran-
sel from the Senate Banking Committee con-               dum to the Commission establishing an
tacted the IG and asked if the OIG’s investi-            Enforcement policy for seeking civil penalties
gation of this matter would include the cir-             against TARP recipients; (4) the transcript of
cumstances surrounding Judge Rakoff ’s deci-             Judge Rakoff ’s August 10, 2009 hearing on
sion to reject the settlement, including analysis        whether he should approve the SEC’s first
of whether Enforcement had vigorously and                proposed settlement with BofA; and (5) nu-
appropriately enforced the securities laws in its        merous press articles about both SEC settle-
investigation of BofA that led to the settlement         ments with BofA. In addition, the OIG took
rejected by Judge Rakoff. Based upon this                on-the-record, under-oath testimony of nearly
discussion, the OIG expanded the scope of its            20 SEC employees, a former BofA employee,
investigation to analyze the circumstances sur-          and the Special Inspector General for the
rounding the settlement rejected by Judge                Troubled Asset Relief Program. Finally, the
Rakoff.                                                  OIG submitted written questions to the
                                                         NYAG and received written responses from
    On February 4, 2010, the SEC and BofA                the law enforcement agency.
submitted a revised proposed settlement,
which Judge Rakoff ultimately approved on                  Summary of the Results of the
February 22, 2010. The second settlement                   Report of Investigation
included a civil monetary penalty of $150 mil-
lion, specific remedial undertakings that BofA                The issues giving rise to the OIG investi-
was required to implement and maintain for               gation stemmed from the global financial crisis
three years, and a Statement of Facts pre-               that came to the fore in 2008. Specifically, to
pared by the Enforcement staff and agreed to             stabilize the financial system and encourage
by BofA describing the details behind the                banks to resume lending in the wake of the
SEC’s allegations. Pursuant to subsequent                recent global financial crisis, Congress enacted
conversations with the Congressional officials,          the Emergency Economic Stabilization Act of
the OIG further expanded its investigation to            2008 (EESA) (Division A of Public Law 110-
include an analysis of the circumstances sur-            343, enacted October 3, 2008). EESA estab-
rounding the revised settlement to determine             lished the TARP, which provided the U.S. De-
whether the charging decisions in each in-               partment of the Treasury with the power to
stance were made appropriately.                          purchase hundreds of billions of dollars in
                                                         illiquid assets from banks and other financial
  Scope of the Investigation                             institutions and to take other measures to bol-
                                                         ster lending and unfreeze the credit markets.
    In the course of its investigation of the            EESA also established SIGTARP to conduct,
circumstances surrounding the two BofA set-              supervise and coordinate audits and
tlements and potential conflicts of interest, the        investigations of the purchase, management
OIG obtained and reviewed over 500,000 e-                and sale of assets under TARP. BofA, itself a
mails, and numerous supporting attachments,              recipient of TARP funding, and Merrill
for over 15 employees in five different offices          signed a merger agreement in September
and divisions within the SEC. The OIG also               2008, and in November 2008, the companies
reviewed numerous supporting materials in-               filed a definitive joint proxy statement solicit-
cluding, but not limited to: (1) drafts and final        ing shareholder votes for approval of the
versions of internal memoranda to the Com-               merger.
mission recommending an enforcement action
against BofA; (2) pleadings filed and judicial                 BofA, however, did not disclose to its
orders issued in the BofA litigation; (3) drafts         shareholders that it had agreed to allow Mer-
and final versions of internal policy memo-              rill to pay employees up to $5.8 billion in dis-


                                                    58
cretionary bonuses. BofA also did not disclose          settlement with BofA, the evidence did not
that it was aware, prior to a December 5,               show that SEC staff failed to diligently and
2008 vote on the merger, that Merrill had net           zealously investigate potential securities law
losses of $7 billion in October and November            violations. The Enforcement attorneys who
2008. On January 16, 2009, after the merger             worked on both proposed settlements ably
had been approved, BofA reported that Mer-              operated under considerable time constraints
rill had sustained a net loss of $15.3 billion          to investigate and bring actions against BofA
and that BofA had obtained $20 billion in               for violations of the federal securities laws in
TARP funds to assist in the acquisition. On             connection with the Merrill merger. The
the next trading day, BofA’s stock price fell by        OIG’s investigation chronicled the decisions
nearly 30 percent.                                      made by both Enforcement teams for “lessons
                                                        learned” and informational purposes and de-
     After Merrill’s losses were disclosed, sev-        scribed how the second Enforcement team’s
eral state and federal law enforcement agen-            strategic determinations and clear under-
cies – including the SEC, the DOJ, the NYAG             standing of the statutory basis for individual
and SIGTARP – investigated the circum-                  liability led to a settlement being accepted by
stances of the merger. On July 30, 2009, the            the Court.
Commission authorized Enforcement to file
an action against BofA for failure to disclose               The OIG also did not find evidence of the
the agreement authorizing Merrill to pay up             improper conflicts of interest that formed the
to $5.8 billion in discretionary year-end bo-           basis of the August 6, 2009 Congressional let-
nuses. At the same time, the Commission ap-             ter to the OIG and SIGTARP requesting this
proved the general terms of Enforcement’s               investigation. The OIG did find that BofA’s
recommended settlement with BofA. On                    status as a TARP recipient had an impact on
August 3, 2009, the SEC formally reached a              the favorable settlement the staff first recom-
proposed settlement with BofA, the terms of             mended to the Commission.
which were: (1) entry of a final judgment
permanently enjoining the company from vio-                 Specifically, the OIG found that in or
lating Section 14(a) of the Exchange Act; and           around January 2009, the SEC NYRO
(2) a civil monetary penalty against the com-           Enforcement staff began its investigation of
pany in the amount of $33 million. The pro-             the circumstances surrounding BofA’s ap-
posed settlement was rejected by the Court,             proximately $50 billion acquisition of Merrill
resulting in a second proposed settlement of            on January 1, 2009. The Enforcement staff
$150 million with remedial undertakings                 began investigating allegedly false and mis-
rather than a permanent injunction. The                 leading statements made by BofA in a No-
Court approved the second proposed settle-              vember 3, 2008 joint proxy statement filed in
ment in February 2010.                                  connection with the merger. The initial inves-
                                                        tigation involved a disclosure schedule detail-
     During its investigation, the OIG analyzed         ing an agreement to pay up to $5.8 billion –
the SEC enforcement actions against BofA,               nearly 12 percent of the total consideration to
including the first proposed settlement and its         be exchanged in the merger – in discretionary
rejection by the Court; the second proposed             year-end bonuses to Merrill executives for
settlement and its acceptance by the Court;             2008. The disclosure schedule was omitted
and what role, if any, BofA’s status as a TARP          from the proxy statement and its contents
recipient played in the SEC’s investigation,            were not disclosed before the shareholders’
charging decisions and settlement discussions.          vote on the merger on December 5, 2008.

   Overall, the OIG found that despite the                  The staff also began investigating an al-
Court’s rejection of the SEC’s first proposed           leged failure by BofA to disclose, prior to the

                                                   59
December 5, 2008 shareholder meeting, ex-                 ing of securities, including allowing the issuer
traordinary fourth quarter losses that Merrill            to file an automatic shelf registration
sustained in October and November 2008.                   statement with the SEC. The safe harbor
However, we found that the decision was                   provisions of Section 27A(c) of the Securities
made to bring an action solely on the issue of            Act and Section 21E(c) of the Exchange Act
BofA’s failure to disclose the agreement to pay           afford limited protection from liability or pen-
the year-end bonuses to company executives,               alty for certain issuers who make forward-
at least partially, on the staff ’s perceived need        looking statements that turn out to be false,
to bring the Enforcement case against BofA                provided that certain statutory criteria are
quickly. The OIG found the Enforcement                    met.
staff felt pressure to bring a case against BofA
promptly because of the internal interest in                  The Commission has the power to waive
the case and its high-profile nature. There               certain collateral consequences of an anti-
was also initial skepticism on the part of sen-           fraud injunction, including the statutory dis-
ior Enforcement officials with regard to the              qualification from WKSI status and from the
viability of an action regarding the failure to           safe harbor for forward-looking statements.
disclose the extraordinary fourth quarter                 Prior to entry of the first proposed settlement,
losses.                                                   BofA requested that the Commission grant it
                                                          waivers from both WKSI and safe harbor dis-
    On August 3, 2009, the SEC announced                  qualification. The waiver most important to
in a press release that it had “charged Bank of           BofA involved its status as a WKSI filer.
America Corporation for misleading investors              However, the alleged violation of the proxy
about billions of dollars in bonuses that were            solicitation rules was directly related to BofA’s
being paid to Merrill Lynch & Co. executives              own disclosures. Therefore, BofA did not
at the time of its acquisition of the firm.”              meet the “traditional criteria” for granting a
Also according to the press release, “Bank of             WKSI waiver.
America agreed to settle the SEC’s charges
and pay a penalty of $33 million.” The press                  Initially, Division of Corporation Finance
release noted that “as Merrill was on the brink           (CF) officials took the position that under the
of bankruptcy and posting record losses, Bank             SEC’s standard criteria, BofA should not re-
of America agreed to allow Merrill to pay its             ceive a WKSI waiver. CF also objected to the
executives billions of dollars in bonuses.                fact that the proposed settlement was condi-
Shareholders were not told about this agree-              tioned on the granting of the WKSI waiver,
ment at the time they voted on the merger.”               noting that the previous Commission had
The press release stated further that the set-            been “strongly against being presented with
tlement was “subject to court approval.”                  contingent settlement offers.” CF also ex-
                                                          plained its own opposition to conditioning set-
     The OIG investigation found that as the              tlements on granting waivers because the
SEC and BofA negotiated settlement terms,                 waiver becomes a bargaining chip that can be
attorneys representing BofA raised the issue of           negotiated away and thus, the impact of the
potential collateral consequences that might              collateral consequences of the antifraud provi-
arise were it to agree to a settlement that in-           sions may be eroded.
cluded an injunction against future violations
of the antifraud provisions of the federal                     The OIG investigation found that up until
securities laws. The potential collateral con-            the morning of the July 30, 2009 closed
sequences for BofA included losing its status as          Commission meeting at which the proposed
a Well-Known Seasoned Issuer (WKSI) and                   settlement was to be considered, it appeared
its safe harbor for forward-looking statements.           that CF would continue to oppose BofA’s re-
WKSI status allows an issuer to use advanta-              quest for the WKSI waiver. However, at a
geous procedures in the registration and offer-           meeting with BofA and Enforcement that
                                                     60
morning, BofA officials convinced CF to alter            event that made a case against individuals
its view of BofA’s WKSI waiver request. In               more difficult. Further, the OIG found that
this meeting, BofA argued that the dire state of         when considering whether to name individu-
the financial markets made it critical that it be        als in its first proposed settlement of its action
able to raise money quickly. CF noted that               against BofA, members of the Enforcement
although BofA did not meet the “traditional              team were unaware that individuals could di-
criteria” for a WKSI waiver, it decided not to           rectly violate Exchange Act Section 14(a) and
oppose the waiver because of “deference                  Exchange Act Rule 14a-9, and as a result, the
given to the fact that BofA was a TARP re-               team was left to consider whether the indi-
cipient” and because “it would not be in the             viduals in this case could be sued successfully
interest of the market or investors to prevent           under Exchange Act Section 10(b) and
[BofA] from getting to the market as quickly             Exchange Act Rule 10b-5 – as either direct
as [its] competitors.”                                   violators or as aiders and abettors. The team
                                                         then considered whether the individuals in
    Thus, the OIG found that the traditional             question possessed the requisite intent for a
criteria for determining WKSI waiver requests            successful 10(b)/10b-5 case, when a 14(a)/
were not applied to BofA. CF agreed to rec-              14a-9 case potentially could have been made
ommend that BofA receive a conditional                   with a lower showing of intent (negligence as
WKSI waiver based upon its TARP status,                  opposed to scienter).
and the related concern that in the economic
environment denying BofA a WKSI waiver                       With Section 10(b)/Rule 10b-5 being con-
could have had an adverse impact on BofA                 sidered as the only avenue available, the team
and the entire market. The OIG found this                decided that the evidentiary hurdle, and re-
departure from general SEC practice note-                sulting litigation risk, were simply too high to
worthy, although BofA never actually received            pursue individuals. The misperception of this
the waiver because the Court rejected the                higher evidentiary hurdle may have been a
proposed settlement.                                     reason why the OIG found no evidence of
                                                         any substantive or significant analysis of the
    After the SEC filed the proposed settled             question of whether to charge individuals in
action in the U.S. District Court for the                connection with the first proposed settlement
Southern District of New York, Judge Rakoff              of the BofA case until after the proposed set-
held a hearing during which the SEC and                  tlement was filed with the Court.
BofA presented arguments supporting the
proposed settlement. On September 14,                         In contrast to the approach of the first
2009, the Court issued a Memorandum Order                Enforcement team, the second Enforcement
rejecting the SEC’s proposed settlement with             team considered the issue of the appropriate-
BofA, and opined that the SEC’s normal pol-              ness of naming individuals and engaged in a
icy was to bring actions against individuals             very substantive and thorough analysis of
who are responsible for securities law viola-            whether a viable legal theory existed for pur-
tions as well as the responsible issuers. The            suing individuals. The second team did not
OIG investigation found that Enforcement                 appear confused about whether individuals
looked at this issue after the Court rejected the        could be charged as direct violators of
proposed settlement.                                     Exchange Act Section 14(a) and Exchange Act
                                                         Rule 14a-9, acknowledging that the SEC has
    The OIG investigation found that the                 historically charged individuals for direct vio-
BofA case differed from other cases where in-            lations of these statutes. Even after perform-
dividuals were not named – notably because               ing this substantive analysis, however, the sec-
there was no rule change or other intervening            ond Enforcement team concluded that there


                                                    61
were insufficient legal and factual bases to            future misconduct that an injunction could
charge individuals.                                     not. These measures, known as “undertak-
                                                        ings,” were designed to remedy the alleged
     In addition, after the Court rejected the          underlying violations and to create safeguards
SEC’s first proposed settlement, the second             in the areas in which BofA was deficient to
Enforcement team conducted extensive dis-               avoid a recurrence of the problem. In addi-
covery, added a new claim to strengthen its             tion, these undertakings had the additional
litigation position and focused at great length         effect of allowing the proposed settlement to
on developing the facts necessary to file a sec-        proceed without triggering the WKSI provi-
ond case alleging a failure by Merrill to dis-          sions that were a source of considerable dis-
close the fourth quarter losses. In January             cussion during the Commission’s approval of
2010, the Commission filed the fourth quarter           the first proposed settlement.
losses action as a related case to the bonuses
action, charging BofA with violating Section                 A third major concern was the recom-
14(a) and Rule 14a-9 by failing to disclose,            mended civil penalty of $33 million against
prior to the December 5 shareholder meeting,            only the company. According to the Court,
the “extraordinary losses” that Merrill sus-            the $33 million was a “trivial penalty for a
tained in October and November 2008. This               false statement that materially infected a
additional case was critical to the second pro-         multi-billion-dollar merger and thus, would be
posed settlement with BofA because it created           imposed not on the individuals putatively re-
(along with the Court’s rejection of the first          sponsible, but on the shareholders, thus fur-
proposed settlement) the leverage necessary to          ther victimizing the victims.” The OIG inves-
demand a larger civil monetary penalty from             tigated the methodology that Enforcement
BofA and enhanced the prospect for a Fair               used to arrive at the original $33 million figure
Fund distribution to injured investors.                 and found that members of the first BofA in-
                                                        vestigative team relied substantially on case
    A second issue the Court identified in re-          precedent in arriving at the $33 million civil
jecting the first proposed settlement was that          penalty figure that the Court rejected. Simi-
the SEC sought the standard “obey-the-law”              larly, the Division’s own Enforcement Manual
injunction, pursuant to which a defendant nei-          provided, “If the Division agrees to make a
ther admits nor denies the SEC’s allegations of         specific enforcement recommendation to the
wrongdoing. The Court found the SEC’s                   Commission, the staff should consider the set-
“obey-the-law” injunction ineffective because           tlement terms of other similar cases to identify
BofA maintained that it violated no federal             prior precedent involving similar alleged mis-
securities laws by issuing the joint proxy              conduct.” In contrast, the OIG found that the
statement with Merrill. Because the company             second Enforcement team was not as con-
believed it engaged in lawful conduct the first         strained by precedent, and used leverage
time, according to Judge Rakoff, the Court              provided by adding the fourth quarter losses
would be unable to hold BofA in contempt for            action and the Court’s rejection of the first
engaging in similar conduct in the future.              proposed settlement to reach a substantially
The OIG investigation found that “obey-the-             higher penalty figure of $150 million.
law” injunctions, in which a defendant neither
admits nor denies wrongdoing, were often                    The OIG investigation also found that at
sought by Enforcement for settled actions in            the time that the SEC began investigating is-
federal court.                                          sues related to the merger between BofA and
                                                        Merrill, several other law enforcement agen-
    The second Enforcement team worked                  cies were conducting related investigations.
with CF to craft remedial measures that would           These law enforcement agencies included the
provide a level of prophylactic relief against          U.S. Attorney’s Offices for the Southern Dis-

                                                   62
trict of New York and the Western District of           information with the NYAG. The NYAG
North Carolina, the NYAG and SIGTARP.                   stated that the “office requested copies of cer-
                                                        tain investigative materials from the SEC,” but
    The U.S. Attorney’s Offices and the SEC             “did not receive investigative materials from
made significant efforts to coordinate their            the SEC in this case.”
investigations. Attempts between the SEC
and the NYAG to coordinate the BofA investi-                 The OIG’s investigation also found that
gation were less successful. In contrast to the         SIGTARP was closely aligned with the NYAG
collaborative relationship between the SEC              and, therefore, was limited in the information
and the U.S. Attorney’s Office for the South-           it could share with the SEC. Further, the
ern District of New York, the OIG investiga-            OIG’s investigation found that concerns over
tion found that there has historically been ten-        SIGTARP sharing SEC investigative findings
sion in the relationship between the SEC and            with the NYAG also kept the SEC from coor-
the NYAG.                                               dinating more fully with SIGTARP.

     Prior to investigating the merger between              In or around January 2010, the
Merrill and BofA, the SEC and the NYAG                  Enforcement Director and the NYRO Direc-
had been coordinating an investigation involv-          tor communicated with the NYAG about a
ing Merrill. However, SEC lawyers expressed             potential global settlement in which the SEC
the view that, although the NYAG provided               and the NYAG would jointly announce a set-
some cooperation with the SEC during the                tlement with BofA. However, according to an
BofA investigation, the NYAG failed to coop-            SEC trial attorney, the NYAG rejected the
erate fully. According to SEC attorneys, the            idea of a global settlement largely because the
NYAG refused to share information and to                SEC’s settlement did not include a charge
provide certain witness transcripts requested           against individuals.
by the SEC prior to the SEC’s first and second
proposed settlements. The NYAG explained                     On February 4, 2010, the SEC and BofA
why certain transcripts were not provided to            submitted a revised proposed settlement,
the SEC in connection with the BofA investi-            which the Court ultimately approved on Feb-
gation, noting that they were “concerned                ruary 22, 2010. The second settlement in-
about the impact partial disclosure could have          cluded a civil monetary penalty of $150 mil-
on [the NYAG] litigation .!.!. [as well as] on          lion, specific remedial undertakings that BofA
[its] ongoing investigations of other individu-         was required to maintain for three years, and
als.”                                                   a Fair Fund distribution to harmed “legacy”
                                                        BofA shareholders. The SEC’s settlement did
    The NYAG’s refusal to produce witness               not include any charges against individuals.
transcripts to the SEC meant that the SEC did           On February 4, 2010, the NYAG and SIG-
not obtain testimony for certain witnesses.             TARP also announced that the NYAG had
Because the Court had limited the number of             filed charges against BofA and two of its ex-
depositions the SEC could take, the SEC                 ecutives “for violations of the Martin Act [a
could not always remedy the NYAG’s refusal              New York financial fraud statute], the Execu-
to produce transcripts by deposing the same             tive Law and common law .!.!. [following] a
witnesses. Consequently, in making its charg-           year-long investigation.”
ing decisions, there were certain witnesses
whose testimony the SEC was not able to ob-                 The SEC attorneys involved in the investi-
tain, requiring the staff to rely instead on at-        gation asserted that even if the NYAG had
torney proffers that were considered “not as            cooperated fully and produced all of the re-
good as a transcript.” There also were con-             quested transcripts, the SEC still would not
cerns expressed about the SEC not sharing               have charged individuals at BofA. The SEC

                                                   63
attorneys expressed the view that they were                  Because the OIG’s report of investigation
able to ascertain what evidence the NYAG                 was issued just prior to the end of the semian-
had developed and did not believe the NYAG               nual reporting period, no action had yet been
was in possession of facts that would have led           taken by management with respect to the
the SEC to charge individuals. However, the              OIG’s recommendations.
OIG found that greater coordination and col-
laboration among law enforcement agencies
would have more efficiently utilized govern-             Failure to Maintain Active Bar
mental resources and sped up the investigation           Membership, Lack of Candor, Conflicts
by reducing duplication of witness interviews            of Interest, Improper Use of Non-
and other investigative efforts.                         Public Information, and Abuse of Full-
                                                         Time Telework Arrangement at
                                                         Headquarters (Report No. OIG-520)
  Recommendations in the Report of
  Investigation                                              On August 4, 2009, the OIG opened an
                                                         investigation based on a complaint alleging
     The OIG did not find that any SEC em-
                                                         that an SEC Headquarters attorney had been
ployee engaged in improper conduct during
                                                         suspended from the practice of law, but con-
the BofA investigation and two proposed set-
                                                         tinued to work as an SEC attorney. After the
tlements. The OIG, however, made recom-
                                                         OIG commenced its investigation into the at-
mendations for improvements in two areas.
                                                         torney’s alleged failure to maintain active bar
First, with respect to the WKSI waiver proc-
                                                         membership, the OIG uncovered evidence
ess, the OIG recommended that CF: (1) cre-
                                                         showing that the attorney was engaged in nu-
ate clear criteria for making waiver determi-
                                                         merous outside activities using his SEC com-
nations; (2) disseminate the guidance both in-
                                                         puter, often during work hours, and expanded
ternally and externally; and (3) in cases where
                                                         the scope of its investigation to include these
the waiver decision departs from the stated
                                                         additional issues.
criteria, articulate in a written decision or or-
der the rationale for the departure.
                                                              During the course of its investigation, the
                                                         OIG obtained and reviewed voluminous
    Second, to address coordination issues
                                                         documents related to this matter, including:
identified in the OIG’s investigation, the OIG
                                                         (1) e-mail records; (2) official personnel files;
recommended Enforcement: (1) continue the
                                                         (3) time and attendance records;
efforts undertaken by the NYRO Regional
                                                         (4) ethics filings; (5) State bar information; and
Director to increase cooperation and coordi-
                                                         (6) U.S. Department of State records. The
nation among law enforcement agencies; (2) as
                                                         OIG also conducted testimonies or interviews
part of these efforts, review the level of coor-
                                                         of 11 individuals, including the subject of the
dination and cooperation on current
                                                         investigation.
investigations and assess where improved co-
ordination would conserve government re-
                                                             The OIG investigation revealed that the
sources; (3) in the early planning stages of
                                                         attorney had not been a member in good
investigations, assess whether other law
                                                         standing of any state bar since 2006, when he
enforcement agencies are already participating
                                                         was suspended from one bar for failure to pay
in, or should be made aware of, the subject
                                                         his bar license fees and complete his continu-
investigation; and (4) encourage staff, where
                                                         ing legal education (CLE) credits. We learned
appropriate, to establish and maintain effec-
                                                         that the attorney had previously been sus-
tive communication with those who are assist-
                                                         pended in 2005 from the only other bar of
ing in investigations and to inform supervisory
                                                         which he was a member, also for failing to pay
personnel when they are not receiving coop-
                                                         bar license fees and to complete the required
eration.
                                                         CLE credits. Therefore, we found that the

                                                    64
attorney did not meet the basic condition of            his core business hours and using SEC equip-
his employment at the SEC, i.e., that he be an          ment.
active member of a state bar.
                                                            The evidence obtained by the OIG also
    The OIG investigation found that in addi-           showed that the attorney transmitted non-
tion to not being an active member of a state           public SEC information from his SEC e-mail
bar, as required for his SEC job, the attorney          account to his personal e-mail account and
engaged in many other forms of misconduct.              back to his SEC account on numerous occa-
Specifically, related to his lack of a bar mem-         sions, in violation of SEC rules. In addition,
bership, the attorney misrepresented his bar            the investigation revealed that the attorney
status to management officials when ques-               was approved for a full-time telework ar-
tioned about it, lacked candor about not hav-           rangement, but that the attorney was some-
ing knowledge of his bar suspension, and en-            times unavailable or difficult to reach during
gaged in the outside practice of law, using his         the attorney’s normal business hours. Moreo-
SEC computer, while suspended from the                  ver, we established that the attorney was away
practice of law.                                        from his telework station during core business
                                                        hours without requesting or using leave, as
    The OIG investigation further revealed              required. The evidence also established that
that the attorney may have violated a federal           the attorney had a history of poor communi-
criminal conflict-of-interest statute, 18 U.S.C.        cation with his supervisors. Moreover, we
§ 205, when he composed documents e-mailed              found that throughout his testimony before
from his SEC computer, which were used by a             the OIG, the attorney lacked candor regard-
foreign national to assist with her U.S. Visa           ing nearly every subject about which we ques-
application. In addition, the OIG found that            tioned him.
the attorney took SEC equipment outside of                  Because of the breadth and severity of his
the U.S. without obtaining permission to do             misconduct, the OIG planned to refer this
so, conducted work on non-public matters in             matter to the appropriate U.S. Attorney’s
an unapproved, unsecure location outside of             Office for a potential violation of 18 U.S.C. §
the U.S. in violation of SEC rules, and lacked          205 and practicing law without a license. In
candor regarding these matters in his testi-            addition, we planned to refer this matter to
mony before the OIG.                                    the applicable State Bars.

     Moreover, our investigation found that the             The OIG issued its report of investigation
attorney gave advice, and possibly sensitive,           to management on September 1, 2010, rec-
non-public information, about SEC filings to            ommending disciplinary action against the
his friend, who was outside counsel for public          attorney, up to and including removal. The
companies filing with the SEC, and poten-               OIG also recommended that management
tially received favors in return, including a           implement a previous OIG recommendation
round-trip flight. The attorney also served on          that SEC attorneys be required to certify an-
the board of directors of two companies that            nually that they are active members in good
issued securities. In addition, the attorney            standing of a state bar. Finally, the OIG rec-
represented a prospective professional athlete          ommended that management remind employ-
as his attorney and agent. These outside ac-            ees that non-public SEC information should
tivities gave rise to an appearance of impro-           never be sent to non-secure computers and
priety and conflicts of interest. Further, the          that attorneys should not advise those outside
OIG investigation revealed that the attorney            the SEC on particular filings, other than their
often engaged in these outside activities during        specifically assigned work.




                                                   65
    Based on the OIG recommendations, in                 quest part-time schedules in three-month in-
September 2010, all SEC attorneys were noti-             crements. The OIG investigation determined
fied that they were required to submit certifi-          that while these supervisors invoked the Fam-
cations to OHR that they were members in                 ily and Medical Leave Act of 1993 (FMLA),
good standing of at least one bar. As of the             which allows for up to 12 administrative work
end of the semiannual reporting period,                  weeks of LWOP in a 12-month period for cer-
management had not yet proposed discipli-                tain family and medical events, and entitles
nary action against the attorney.                        employees to maintain their health benefits
                                                         coverage, their use of LWOP extended far
                                                         beyond that granted under the FMLA.
Improper use of Leave Without Pay to
Receive Full-Time Benefits While                             Moreover, the actual work schedules of
Working Part-Time Hours by OCIE                          the OCIE supervisors examined did not con-
Staff (Report No. OIG-524)                               form to the limited strictures of the OCIE
    On August 3, 2009, the OIG opened an                 policy. For example, two of the supervisors
investigation after receiving an anonymous               examined in the investigation continued a re-
complaint received through the OIG’s com-                duced work schedule far beyond the one-year
plaint Hotline that alleged that certain SEC             OCIE policy limitation. In addition, the
OCIE supervisors were working a part-time                OCIE policy appeared to require a reduction
schedule by regularly using leave without pay            in benefits and leave, yet the OCIE supervi-
(LWOP) and identifying themselves in the                 sors we investigated did not have their benefits
computerized payroll system as full-time em-             or leave reduced. The OIG investigation con-
ployees in order to receive full-time benefits.          cluded that at least three OCIE supervisors
                                                         received numerous additional benefits af-
    After reviewing current payroll records of           forded full-time employees, when in fact they
all OCIE employees in the particular supervi-            were working part-time schedules. These ad-
sory role identified in the anonymous com-               ditional benefits related to: (1) sick and annual
plaint, the OIG began to investigate those su-           leave accrued; (2) health insurance premiums
pervisors who were regularly using LWOP.                 paid; (3) holiday pay; (4) retirement annuity
The OIG conducted on-the-record testimony                and eligibility; (5) life insurance eligibility; and
and interviews of the subjects and an OCIE               (6) Thrift Savings Plan contributions.
management official, and reviewed the payroll
data for each of the subjects from 2005 to                    Overall, the OIG investigation found that
2010. The OIG determined that each of                    OCIE’s policy was inconsistent with federal
these supervisors had been authorized to work            and agency requirements. Specifically, while
reduced hours after their return from mater-             the U.S. Office of Personnel Management
nity leave, yet maintained their full-time status        (OPM) guidance on LWOP allows managers
and benefits.                                            to grant LWOP at their discretion, allowing
                                                         regular use of LWOP to create a de facto part-
    The investigation revealed that OCIE had             time schedule and not reducing benefits con-
developed and implemented a policy in May                flicts with OPM regulations or guidance.
2007 for maternity leave and requests to work            OPM requires a reduction in benefits for part-
a part-time schedule after returning from ma-            time employment and extended use of LWOP.
ternity leave. Specifically, OCIE allowed                In addition, the OCIE policy, which was not
Headquarters employees returning from ma-                extended to employees beyond OCIE Head-
ternity leave to take an additional six months           quarters, conflicted with provisions of the
of leave before returning to work; then, after           SEC’s Collective Bargaining Agreement
returning to work, these employees could re-             (CBA), as the CBA recognizes that employees
                                                         who choose to work part-time schedules are

                                                    66
not entitled to full-time status or benefits. In                  employees be required to sign and
addition, the CBA did not extend benefits                         date OHR’s “Benefits Agreement for
granted beyond those outlined in the FMLA.                        Changing Work Schedules from Full-
                                                                  Time to Part-Time” to show they
    In our report of investigation, we made                       have been informed of the reduced
the following recommendations:                                    leave and benefits; and

    (1)   OCIE, and any other office with a                 (3)   The Executive Director, the Associ-
          similar policy, should disband the                      ate Executive Director for OHR and
          policy (i.e., not allow employees to                    the Director of OCIE should care-
          use LWOP regularly for extended                         fully examine the report of investiga-
          periods of time to create a de facto                    tion to identify improvements
          part-time schedule without reducing                     needed in the manner in which the
          benefits and leave accruals) and re-                    SEC manages and approves reduced
          quire every SEC office to follow the                    work hours.
          CBA requirements for part-time em-
          ployment;                                          The OIG issued its report of investigation
                                                         to management on July 23, 2010. As of the
    (2)   OHR should conduct a comprehen-                end of the semiannual reporting period, no
          sive audit of all Commission em-               action had yet been taken by management
          ployees to determine whether other             with respect to the OIG’s recommendations.
          employees regularly use LWOP to
          create a part-time or reduced work
          schedule, but have not had their               Misrepresentation of Identity and Lack
          benefits properly reduced, and pro-            of Active Bar Membership (Report No.
          vide the audit results to the OIG and          OIG-541)
          Executive Director. For the employ-
          ees identified in the report and oth-              On August 13, 2010, we opened an inves-
          ers working less than a full-time              tigation as a result of an August 10, 2010 e-
          schedule who have not had their                mail complaint, alleging that a Regional
          benefits and leave properly reduced,           Office Staff Attorney had harassed the com-
          OHR should recalculate the benefits            plainant’s girlfriend on the internet. The
          and leave and attempt to recoup                complainant specifically alleged that, on two
          those improperly given. Specifically,          occasions during the last two years, the Staff
          OHR should recalculate the follow-             Attorney had misrepresented himself in online
          ing for each of these employees:               chat rooms. The complainant had deter-
          (1) sick and annual leave accrued;             mined the Staff Attorney’s actual identity by
          (2) health insurance premiums paid;            conducting an online search.
          (3) holiday pay given when they
          would have normally taken LWOP;                    In addition, during the investigation, the
          (4) retirement annuity and eligibility;        OIG learned that the Staff Attorney had al-
          (5) life insurance eligibility; and            lowed his bar memberships to lapse on several
          (6) TSP contributions. The OIG                 occasions and for significant periods of time.
          also recommended that those em-                The OIG discovered that the Staff Attorney is
          ployees working a reduced schedule             not currently an active member of a bar and
          be promptly notified of reduced                has not been an active member of a bar since
          leave and benefits to be effective             2008. The OIG found that while the Staff
          immediately if remaining on a re-              Attorney’s bar memberships have been sus-
          duced work schedule, and that these            pended, he signed and filed a complaint on


                                                    67
behalf of the Commission in federal district            OHR require that SEC attorneys certify an-
court. Additionally, the OIG found that the             nually that they are active members of a state
Staff Attorney applied in the past year for sev-        bar in good standing. As mentioned above,
eral positions within the SEC and certified on          subsequent to the issuance of this report, all
each of those applications that he was an ac-           SEC attorneys were notified that they were
tive member of a bar.                                   required to submit certifications to OHR that
                                                        they are currently members in good standing
    The OIG interviewed the complainant                 of at least one bar.
and took sworn on-the-record testimony of
the Staff Attorney. The OIG also interviewed
several representatives of state bar organiza-          Unprofessional Conduct by Supervisor
tions, and other SEC staff. In addition, the            While Conducting Examination (Report
OIG reviewed records provided by the bar                No. OIG-530)
organizations. Finally, the OIG reviewed the
Staff Attorney’s e-mails, his Official Personnel            On January 7, 2010, the OIG opened an
Folder, and a background questionnaire                  investigation as a result of information re-
provided by the Staff Attorney.                         ceived from the OIG’s complaint Hotline.
                                                        The complaint alleged, among other things,
    The OIG found that the allegations that             that an Examinations Branch Chief in an
the Staff Attorney had misrepresented his               SEC Regional Office, during the course of an
identity online were generally substantiated.           SEC examination, had entered a firm and
The Staff Attorney acknowledged using an e-             proceeded to examine documents without
mail address that could be associated with the          properly identifying himself or showing his
SEC on the Internet, which led to the com-              SEC identification on two separate occasions.
plaint being filed with the OIG.                        The complaint also alleged that after these
                                                        incidents occurred, the Branch Chief had
    Further, the OIG found that the Staff At-           harassed the complainant, an examiner in the
torney had not maintained active bar mem-               Regional Office by, among other things, set-
bership during various periods of his em-               ting unreasonable deadlines that reflected a
ployment as an SEC attorney, as he was re-              change in policy.
quired to do, and had not been an active bar
member since 2008. The OIG also found                       In conducting this investigation, the OIG
evidence that the Staff Attorney signed a               took sworn, on-the-record testimony from or
complaint in federal district court misrepre-           interviewed nine individuals, including the
senting himself as an active member of a bar,           Branch Chief, the complaintant and the
during which time he was suspended from the             owner of the firm being examined. The OIG
practice of law. In addition, on three separate         also reviewed various pertinent documents,
occasions when applying for various promo-              including the Regional Office’s examination
tions, the Staff Attorney had falsely certified         procedures.
that he was an active member of a state bar.
                                                            The OIG investigation found evidence
    The OIG issued its report of investigation          that the Branch Chief engaged in unprofes-
to management on September 8, 2010. In its              sional behavior by failing to identify himself
report, the OIG referred this matter to                 properly or to produce his SEC identification
management for disciplinary action, up to and           to employees of the firm on two separate oc-
including dismissal. As of the end of the               casions while conducting an examination of
semiannual reporting period, no action had              the firm. The evidence showed that during
yet been taken by management with respect to            the first incident, contrary to required prac-
the OIG’s recommendation. The OIG also                  tice, the Branch Chief entered the firm with-
recommended, as it has done in the past, that           out identifying himself or showing identifica-

                                                   68
tion and went to the back office where the                Regional Office staff members who worked
firm’s client documents were located. The                 on the enforcement action between 2004 and
evidence showed that a second, more serious               2009.
incident occurred when the Branch Chief
again entered the examination site without                    The OIG issued its report of investigation
introducing himself or producing identifica-              to management on June 8, 2010, finding no
tion. We found that during this second inci-              evidence that the Regional Office
dent, the Branch Chief responded unprofes-                Enforcement investigation into securities viola-
sionally to requests that he provide his identi-          tions and other wrongdoing by the officers of
fication. The investigation, however, found               the company was negligent, despite a pro-
insufficient evidence that the Branch Chief               nounced delay in obtaining testimony and
had harassed the complainant after the identi-            concluding the investigation. The OIG also
fication incidents.                                       did not find evidence that the decision not to
                                                          pursue fraud charges was unsupportable in
    The OIG issued its report of investigation            light of the litigation risks expressed.
to management on June 27, 2010, and rec-
ommended appropriate disciplinary action                       Further, the OIG concluded that the pen-
against the Branch Chief. Subsequent to issu-             alties assessed for the ill-gotten gains derived
ing the report of investigation, the OIG                  from the company’s officers’ fraudulent activi-
learned that the Branch Chief had resigned                ties were supported by an analysis obtained
from the Commission.                                      from the SEC’s Office of Economic Analysis
                                                          (now part of the Division of Risk, Strategy,
                                                          and Financial Innovation). However, the OIG
Allegation of Failure of a Regional                       investigation did find that certain delays in the
Office to Conduct an Adequate                             investigation were excessive. The OIG further
Investigation (Report No. OIG-529)                        determined that some potential evidence may
                                                          have been unexamined, likely as a result of
     On May 22, 2008, the OIG opened an
                                                          poor communication among the Regional
investigation into an anonymous complaint
                                                          Office staff. Finally, while the OIG found that
alleging investigative misconduct by staff of
                                                          there was considerable turnover in the staffing
an SEC Regional Office. Specifically, the
                                                          of the investigation, the OIG did not uncover
complaint alleged that Regional Office
                                                          evidence substantiating the claim that staff
Enforcement officials failed to vigorously and
                                                          members were improperly removed from the
diligently investigate the officers of a publicly-
                                                          investigation in order to negate staff efforts to
traded corporation for securities fraud. The
                                                          conduct a more aggressive investigation.
complaint further alleged that the
Enforcement investigation was unduly de-
layed, relevant evidence was not examined
                                                          Allegations of Failure to Conduct
and management improperly removed staff                   Adequate Enforcement Investigation
from the investigation.                                   and Misconduct by Enforcement
                                                          Attorneys (Report No. OIG-531)
    In our investigation, we reviewed numer-
ous relevant documents relating to the                        The OIG opened an investigation on
Enforcement investigation, and nearly 1,000               January 19, 2010, into allegations that
e-mails, and related attachments, of the vari-            Enforcement failed to properly and vigorously
ous staff attorneys assigned to the investiga-            enforce the federal securities laws in the
tion, as well as of staff from other divisions            course of an investigation of accounting rule
and offices who were involved in the matter.              and insider trading violations by a publicly-
Further, we took the sworn testimony of five              traded corporation. Specifically, the com-


                                                     69
plainant alleged that Enforcement had im-                     In addition, the OIG found that the evi-
properly dropped an accounting issue that                dence did not substantiate the allegation that
arose during its investigation and covered this          the SEC Commissioners may not have had all
up; the SEC improperly failed to pursue valid            the facts before they voted to approve the set-
insider trading claims against corporate insid-          tlements. The OIG found that Enforcement
ers; SEC Commissioners may not have had all              provided significant written information about
the facts before they voted to approve settle-           the proposed settlements to the Commission-
ments in this matter; and the complainant                ers, and that the Commissioners discussed the
should have been paid a bounty. The com-                 pertinent issues prior to voting to approve the
plainant also alleged specific acts of miscon-           settlements. The OIG also found that the
duct by Enforcement staff members during                 complainant was not entitled to a bounty un-
the course of the investigation.                         der the law that was in effect at the time be-
                                                         cause no insider trading penalty was assessed
    During the investigation, the OIG took the           or recovered in the matter
sworn, on-the-record testimony of the com-
plainant, and of an Enforcement Assistant                    Further, the OIG investigation found no
Director who had been in charge of the                   evidence to support the complainant’s allega-
Enforcement investigation. The OIG also re-              tions that SEC staff members may have en-
viewed numerous relevant documents, includ-              gaged in various types of inappropriate or un-
ing hundreds of pages of correspondence and              ethical conduct, such as a quid pro quo with the
supporting materials sent by the complainant,            corporate defendant, obstruction of justice,
including his complaints to the OIG and a                mail and wire fraud, honest services fraud,
series of complaints he had filed with                   and bestowing favors in return for future em-
Enforcement beginning in 2002.!                          ployment. The OIG investigation also found
                                                         insufficient evidence to support the complain-
     The OIG issued its report of investigation          ant’s allegation that the Enforcement Assistant
to management on August 11, 2010. In this                Director was belligerent towards him during a
report, the OIG found that the evidence did              telephone conversation.
not substantiate the allegations that
Enforcement improperly dropped an account-
ing issue and covered this up, or that the SEC           Allegation of Unauthorized Disclosure
improperly failed to pursue valid insider trad-          of Non-Public Information (Report No.
ing claims. To the contrary, the OIG found               OIG-525)
that the SEC’s case against the issuer based
                                                              The OIG opened this investigation on Oc-
upon fraudulent accounting resulted in a sig-
                                                         tober 6, 2009, after receiving a letter from a
nificant settlement, which was used to estab-
                                                         trial attorney in the Public Integrity Section of
lish a Fair Fund to provide restitution to inves-
                                                         the DOJ. The attorney requested that the
tors. The OIG further found that Enforce-
                                                         OIG provide assistance to a Special Agent of
ment’s recommendations to the Commission
                                                         the FBI in connection with a criminal investi-
on the insider trading claims were based upon
                                                         gation being conducted by the Public Integrity
its stated attempt to balance the litigation
                                                         Section.
risks, the totality of the circumstances, and
available SEC resources. We did not find evi-
                                                             The criminal investigation involved an al-
dence that Enforcement’s recommendations,
                                                         leged leak by individuals who worked for the
or the Commission’s decisions based upon
                                                         SEC at the time of the events in question re-
those recommendations, were an abuse of
                                                         garding a recently-proposed rule. The DOJ
authority or per se improper, as the complain-
                                                         was investigating whether SEC staff may have
ant had claimed.
                                                         disclosed non-public information regarding
                                                         the rule to certain individuals outside the

                                                    70
Commission. Specifically, the non-public                    Due to the potential criminal nature of the
information alleged to have been leaked                allegations, the OIG contacted the DOJ Pub-
related to how the Chairman and Commis-                lic Integrity Section. The OIG worked closely
sioners planned to vote on the rule.                   with DOJ, as well as the FBI, in the course of
                                                       investigating this matter. After being ques-
    DOJ had requested that the OIG obtain e-           tioned by the FBI, the source of the allegation
mails for certain SEC staff members. Addi-             recanted his story.
tionally, DOJ requested that the OIG search
those e-mails for any e-mail messages sent or               On September 15, 2010, the OIG issued a
received from certain individuals outside the          report describing the results of its investigation
Commission, and provide that information to            in this matter. Based upon the work per-
the FBI. The OIG compiled e-mails related              formed in conjunction with DOJ and the FBI,
to the search terms identified by the DOJ, and         the OIG did not find evidence that any SEC
provided the FBI with a binder of all related          official was willing to remove SEC files for pay.
e-mails. The OIG also provided other
assistance at the FBI’s request, and the OIG
and the FBI conducted a joint interview of a           Inquiries Conducted and Memorandum
former SEC staff member. Additionally, OIG             Reports Issued
staff attended a joint proffer of another indi-
vidual.                                                     During this semiannual reporting period,
                                                       the OIG completed a total of 23 inquiries into
    After reviewing the e-mails obtained dur-          complaints received by the OIG. Of these
ing the investigation, the OIG did not find any        inquiries, five were converted to, or included
evidence that SEC staff had provided any               in, investigations, six resulted in the issuance
non-public information regarding the rule at           of memorandum reports recommending dis-
issue to anyone outside the Commission. Fur-           ciplinary action, and two made other types of
ther, the FBI informed the OIG that the inves-         recommendations. In addition, the OIG is-
tigation into certain former SEC staff did not         sued a memorandum report recommending
produce any evidence that they leaked any              disciplinary action that arose out of a review
non-public information. As a result, this in-          completed by the OIG Office of Audits dur-
vestigation was closed on July 6, 2010.                ing the reporting period. Several of the most
                                                       significant of the inquiries completed and
                                                       memorandum reports issued during the pe-
Complaint Concerning Obstruction of                    riod are described below.
Justice (Report No. OIG-513)

    The OIG opened this investigation on                 Misuse of Computer Resources and
March 10, 2009, after receiving information              Official Time (PIs: 10-30, 10-31,
that an SEC employee may have offered to                 10-32, and 10-59)
obstruct an SEC investigation. The OIG took
the sworn, on-the-record testimony of an in-               During the semiannual reporting period,
dividual who stated that he had learned of an          the OIT provided the OIG with a report of
SEC employee who allegedly had destroyed               employees or contractors who had received a
SEC investigative documents in the past, and           substantial number of access request denials
could do so again in return for compensation.          for websites classified as pornography by the
The OIG also obtained and reviewed relevant            SEC’s Internet filter. In reviewing the
documents, including e-mails, personnel files,         information provided by OIT, the OIG
time and attendance records, and Commission            learned that three employees and one contrac-
database records from the SEC and relevant             tor who had received a large number of access
outside entities.                                      request denials had also successfully accessed

                                                  71
sexually explicit or sexually suggestive websites        filter as pornography during a one-month pe-
from their government-assigned computers.                riod. Many of the access denials occurred
                                                         during normal Commission work hours. The
    The OIG conducted inquiries into the                 OIG inquiry further found that the employee
Internet activities of the three employees, and          successfully accessed sexually explicit or sexu-
issued memorandum reports to management                  ally suggestive photographs, and that many of
in all three matters on April 30, 2010. In each          these photographs were accessed during nor-
matter, the OIG concluded that the em-                   mal Commission work hours. Based on the
ployee’s inappropriate use of the Internet vio-          OIG’s referral, management proposed a 30-
lated Commission policy and rules, as well as            day suspension of the employee.
the Government-wide Standards of Ethical
Conduct. The OIG referred all three em-                      The OIG also conducted an inquiry into
ployees to management for disciplinary action,           the computer usage of the contractor who
up to and including removal.                             had received a substantial number of access
                                                         denials classified as pornography by the
    In one matter (PI 10-30), the OIG found              Commission’s Internet filter. In this matter (PI
that an SK-7 Headquarters employee received              10-59), a Headquarters contract employee
295 access request denials for websites classi-          had received 1,097 access request denials for
fied by the Commission’s Internet filter as              websites classified by the Commission’s Inter-
pornography during a seven-week period.                  net filter as pornography during a one-month
Some of these access denials occurred during             period. The OIG inquiry found that the con-
normal Commission work hours. The OIG                    tract employee successfully accessed sexually
inquiry further found that the employee suc-             explicit or sexually suggestive photographs
cessfully accessed sexually explicit photo-              and had performed an inappropriate Internet
graphs, sometimes doing so during normal                 search. On July 9, 2010, the OIG issued a
Commission work hours. Based on the OIG’s                memorandum report to management, rec-
referral, management proposed a 30-day sus-              ommending disciplinary action. Based on the
pension of the employee.                                 OIG’s referral, the contract employee was re-
                                                         moved from the SEC contract.
    In a second matter (PI 10-31), the OIG
found that an SK-13 Headquarters employee
received over 10,000 access request denials for            Allegations of Preferential Treatment,
websites classified by the Commission’s Inter-             Improper Gifts, and Improper
net filter as pornography during a five-and-a-             Solicitation of Charitable Donations
half-week period. Many of the access denials               (PI 09-103)
were received during normal Commission
                                                             In July 2009, the Office of Inspector Gen-
work hours. The OIG inquiry further found
                                                         eral (OIG) received two anonymous com-
that the employee successfully accessed sexu-
                                                         plaints about a then-Regional Office Branch
ally explicit photographs on numerous in-
                                                         Chief. The first complaint alleged that a Re-
stances, and that many of these photographs
                                                         gional Office Staff Attorney had given ex-
were accessed during normal Commission
                                                         travagant gifts to her Branch Chief. The
work hours. The employee resigned from the
                                                         complaint further stated that these gifts were a
SEC after the agency had proposed his re-
                                                         factor in the Branch Chief ’s approval of the
moval based upon the OIG’s referral.
                                                         Staff Attorney’s reduced work schedule and
                                                         the Staff Attorney’s receipt of several cash
     In the third matter (PI 10-32), the OIG
                                                         and time-off awards. The second complaint
found that an SK-9 Headquarters employee
                                                         alleged that the Regional Office Branch Chief
received 297 access request denials for web-
                                                         had asked numerous people, many of whom
sites classified by the Commission’s Internet
                                                         reported to her, for donations for various

                                                    72
causes. In conducting this inquiry, the OIG             serve on the investment committee of a non-
took sworn, on-the-record testimony and con-            profit organization at the same time that he
ducted interviews of Regional Office staff              was responsible for overseeing reviews of cer-
members and contacted the SEC’s Ethics                  tain company filings. The OIG inquiry re-
Office. The OIG also reviewed payroll re-               viewed whether the supervisor’s participation
cords, official personnel files and e-mails.            on the aforementioned committee violated
                                                        any criminal conflict-of-interest statutes, the
     The OIG investigation revealed that the            government-wide standards of ethical con-
Branch Chief had violated the federal ethics            duct, or Commission rules.
rules by soliciting charitable contributions on
one occasion and accepting gifts from subor-                During its inquiry, the OIG conducted
dinates on several other occasions. The OIG             interviews of the subject of the inquiry and
also found that the Staff Attorney had been             his supervisor and consulted with the SEC
allowed to work an improper schedule by                 Ethics Counsel. The OIG also reviewed nu-
regularly using leave without pay to create a de        merous relevant documents, including a list of
facto part-time or reduced schedule. Addition-          the registrants over which the subject supervi-
ally, the OIG found that the Staff Attorney             sor had responsibility, his Official Personnel
had inappropriately received full time benefits         Folder and his OGE Form 450 confidential
while working a part-time schedule. The OIG             disclosure reports.
concluded in a recently-issued report of inves-
tigation, OIG-524, that allowing SEC em-                    The OIG inquiry found that the supervi-
ployees to regularly use leave without pay to           sor’s service as a member of the investment
create a de facto part-time schedule without            committee, given his SEC position, created an
reducing benefits and leave accruals is incon-          appearance of impropriety and a very real risk
sistent with federal and agency requirements.           that he would violate 18 U.S.C. § 208, al-
                                                        though the OIG did not find an actual viola-
     The OIG issued its memorandum report               tion of that statute. The OIG further found
to management on September 27, 2010, and                that given the supervisor’s access to a large
recommended that the Regional Office cease              amount of non-public information by virtue
allowing the Staff Attorney to work her cur-            of his position at the SEC, there was an ap-
rent, or similar, part-time schedule and receive        pearance that he might improperly use non-
full time benefits; and that OHR recalculate            public information to advise the non-profit
the amount of benefits and leave that the Staff         organization in violation of Commission rules
Attorney should have received based on her              and government-wide ethics standards. In
part-time schedule and attempt to recoup                particular, the evidence showed that the su-
those amounts improperly given. Because the             pervisor had strongly objected to a particular
OIG’s report of investigation was issued just           investment by the non-profit organization,
prior to the end of the semiannual reporting            which could have led to the appearance that
period, no action had yet been taken by                 he was using non-public information derived
management with respect to the OIG’s rec-               from his Commission employment to assist the
ommendations.                                           non-profit organization.

                                                            On June 29, 2010, we issued a memoran-
  Appearance of Impropriety With                        dum report and referred this matter to the
  Respect to Acts Affecting a Personal                  management for appropriate remedial action,
  Financial Interest (PI 09-04)                         including requiring that the supervisor resign
                                                        from his position as a member of the invest-
    The OIG conducted an inquiry into a
                                                        ment committee. Before management took
complaint questioning whether it was appro-
priate for an SEC Headquarters supervisor to
                                                   73
any action based on the OIG’s referral, the                Enforcement Attorney Engaged in
supervisor resigned from his SEC position.                 Prohibited Political Activity (PI 10-54)

                                                             This OIG inquiry was opened in response
  Failure to Follow Internal Policy                      to an anonymous Hotline complaint, which
  Regarding Separation of a                              alleged that an SEC Regional Office employee
  Probationary Employee (PI 09-60)                       was running for political office and that this
     The OIG conducted an inquiry into a                 employee, who had been receiving workers
complaint alleging that the SEC improperly               compensation disability payments, “re-
failed to provide two-weeks notice prior to              main[ed] able bodied,” inferring that he
terminating a former staff attorney who was              should not be claiming this disability.
serving a probationary period. In its inquiry,
the OIG reviewed the applicable policies and                 The OIG investigation revealed that the
procedures, obtained pertinent e-mails and               subject Regional Office employee had submit-
interviewed OGC and OHR officials regard-                ted a disability claim to the Department of
ing these policies and procedures.                       Labor’s, Federal Employees’ Compensation
                                                         Act workers’ compensation program in 2001
    The OIG’s inquiry found that SECR 6-18,              and, thereafter, began receiving workers’
“Use and Administration of Disciplinary Ac-              compensation payments. The employee has
tion Involving Attorneys and Personnel of the            remained on the roles as an SEC employee for
Excepted Service,” provided that for employ-             the duration of this claimed disability. !
ees who are within a probationary period, “[t]
wo weeks notice, as a minimum, will be given                 The OIG found that, during the period of
unless otherwise directed by the Director of             his disability, the employee has been politically
Personnel.” The OIG found that there was                 active, including registering and actively cam-
no specific requirement in the policy that the           paigning in a county election. The OIG
direction to provide the waiver be in writing,           noted that under the Hatch Act, 5 U.S.C. §§
and the evidence showed that a waiver had                7321-7326, federal employees are expressly
been provided verbally in the complainant’s              prohibited from running as candidates for a
case. However, the OIG found that this                   partisan political office. The race at issue was,
waiver had not been granted by the “Director             in fact, a partisan political election and, al-
of Personnel,” or the equivalent position, as            though the employee was running as an inde-
was required by SECR 6-18, but rather had                pendent candidate, he identified himself as a
been granted by a subordinate OHR official.              Democrat in his campaign platform material.

    Accordingly, because the waiver had not                   After speaking with a representative of the
been granted in accordance with SEC written,             SEC OHR, the employee withdrew his candi-
albeit internal, policy on July 15, 2010, we is-         dacy during the pendency of the OIG inquiry
sued a memorandum report to management                   into this matter. Notwithstanding his with-
concerning this matter. In this report, we rec-          drawal from the race, the evidence clearly es-
ommended that OHR either follow the estab-               tablished that the employee had violated the
lished procedures for the termination of pro-            Hatch Act by participating in a partisan politi-
bationary employees, or modify those proce-              cal election. Thus, the OIG referred the mat-
dures. In response to the OIG’s recommenda-              ter to the U.S. Office of Special Counsel,
tion, management informed the OIG that it                Hatch Act Unit, for further review of the vio-
intended to follow the existing policy in all fu-        lation and appropriate disciplinary action.
ture cases.



                                                    74
  Complaints Regarding Waste and                           Allegation of Failure to Investigate
  Abuse in Federal Contracts                               Complaints (PI 09-39)
  (PI 09-110)
                                                              The OIG received a complaint from a
    During the semiannual reporting period,              member of the public, alleging that
the OIG reviewed several anonymous allega-               Enforcement failed to investigate securities law
tions primarily involving a Headquarters su-             violations he had reported to the SEC in a
pervisor, including allegations that                     series of e-mails. The OIG found that this
government funds were being wasted by the                complainant had filed twelve separate com-
award of unnecessary and expensive contracts             plaints with the SEC. The allegations in-
to outside contractors. The allegations in-              cluded claims of insider trading, failures by an
cluded specific claims that the supervisor, as           issuer to disclose material facts in its SEC fil-
well as another individual working under the             ings, and the failure of a federal government
supervisor, showed favoritism in the award of            official to file required disclosures of personal
certain contracts, and awarded contracts so              securities holdings.
that friends of these individuals who worked
for the contracting entities would have jobs.                As part of the inquiry, OIG staff obtained
                                                         and reviewed copies of the underlying com-
     During its inquiry, the OIG obtained and            plaints sent from the individual to the SEC,
reviewed the supervisor’s e-mails for a 23-              the SEC’s responses to those complaints, and
month period. Prior to the completion of the             relevant internal e-mails. We also interviewed
OIG’s inquiry, the supervisor was transferred            one former and three current Enforcement
to a non-supervisory position and was no                 attorneys. Further, we reviewed relevant SEC
longer responsible for management of the                 databases that identify and track complaints
contracts at issue. Therefore, the OIG fo-               and investigations.
cused its e-mail review on searching for evi-
dence of misconduct on the part of the super-                 The OIG found that an Enforcement at-
visor. The OIG’s review of the supervisor’s e-           torney had reviewed the complaints submitted
mails did not reveal an inappropriate relation-          by the complainant and concluded that, given
ship between the supervisor and any of the               the nature of the complaints, they would be
contractors, or any evidence of bribes, gratui-          more appropriately handled by the FBI (which
ties, or inappropriate favoritism towards a par-         the complainant indicated he had contacted),
ticular contractor.                                      rather than through the SEC’s Enforcement
                                                         powers. The evidence showed that the
    However, the OIG’s review disclosed issues           Enforcement attorney, acting pursuant to ex-
regarding the management of contracts                    isting protocols for handling complaints, de-
within the supervisor’s former office, relating          termined that there was no basis to refer the
to (a) concerns on the part of staff that a par-         complaint for further SEC analysis. We fur-
ticular, expensive contract was renewed de-              ther found that an additional de novo review of
spite the availability of a less expensive alter-        these complaints was conducted after the
native, and (b) inadequate planning with re-             complainant sent e-mails to the current and
gard to the definition of tasks and the level of         former SEC Chairmen and, as a result of that
funding required for contract projects. Be-              review, another set of Enforcement attorneys
cause there is new management in the super-              also determined that the matter was not ap-
visor’s former office, the OIG referred to the           propriate to refer for SEC investigation.
new office head the contract issues identified
during its inquiry. The OIG also referred the                 While the OIG’s inquiry revealed insuffi-
contract issues identified in its review to its          cient evidence of misconduct by SEC staff,
Office of Audits for consideration in connec-            the OIG determined that the complaints ini-
tion with future audit work.                             tially submitted to Enforcement would better
                                                    75
have been addressed in more detail. The OIG                    While the above facts alone were suspi-
noted that subsequent to the time these com-              cious, the OIG uncovered an e-mail that was
plaints were received and processed, i.e., in or          sent before the issuance of the solicitation that
about March 2010, the SEC implemented a                   evidenced an improper pre-selection for the
completely new system for the intake of all               project support contract. Specifically, an SEC
tips, complaints and referrals, including those           contracting official sent an e-mail to another
received by the Enforcement. Hence, the                   SEC employee that discussed the status of the
OIG found that any deficiencies in Enforce-               procurement system, which clearly reflected
ment’s previous complaint-handling system                 that a particular contractor who had been
had been addressed.                                       working at the SEC and therefore met the re-
                                                          strictive condition of the solicitation, had been
                                                          selected for the project support contract a
  Improper Pre-Selection of                               week before the solicitation was issued and
  Contractor                                              while the solicitation was still being prepared.
                                                          This e-mail stated, in part, “It may be best to
    On September 30, 2010, the OIG issued a               delay this meeting [on the status of the new
memorandum report to management based                     procurement system] because we are hiring a
upon evidence of the improper pre-selection               project manager (i.e., [the contractor who was
of a contractor that was disclosed by the                 subsequently selected]) to assist with the ac-
OIG’s report entitled, Review of PRISM Auto-              quisition and implementation. . . . Right now
mated Procurement System Support Contracts (Report        nothing is happening on the [automated pro-
No. 486).                                                 curement system] acquisition; I’m trying to
                                                          prepare the solicitation for the [Project
     The OIG’s report set forth evidence show-            Management] support.”
ing that a solicitation notice to vendors to pro-
cure project support services for the imple-                  Based upon the clear evidence of pre-
mentation of an automated procurement sys-                selection of a contractor for the automated
tem included an extremely restrictive condi-              procurement system project management
tion that vendors were required to meet in or-            support contract, the OIG referred the matter
der to receive consideration for the contract             to management for appropriate disciplinary
award. Specifically, the solicitation required            action for the senior level personnel who were
that the contractor’s employees have a current            responsible for the improper pre-selection.
SEC clearance, or had one within the last 30
days, thus excluding any contractors who did
not have employees possessing such clearance.             PENDING INVESTIGATIONS
The SEC Contracting Officer’s letter to offer-
ors that accompanied the solicitation empha-              Complaint of Investigative Misconduct
sized the restrictive clause and requested that           by Various Enforcement Attorneys
offerors “please seriously consider not propos-
ing if you have no one who qualified.” The                    The OIG is continuing its investigation of
OIG found no justification in the contract file           a complaint received from counsel for a de-
for the decision to include the restrictive               fendant in an SEC enforcement action, alleg-
clause. In addition, the OIG found that while             ing numerous instances of misconduct by
there was a backlog of clearance requests at              Enforcement attorneys during the course of
the time, interim clearances were granted for             the investigation. As noted in the previous
individuals to work at the SEC within seven to            Semiannual Report, the OIG investigation
ten business days, and full clearances typically          had been stayed pending a Court ruling on a
followed within 90 days of the initial clear-             motion in which the complainant made simi-
ance request.                                             lar allegations to those contained in the initial
                                                          complaint to the OIG. Because the Court had

                                                     76
direct jurisdiction over these similar claims,             tion files for three examinations conducted of
and was in a position to grant the relief sought           the firm. The OIG also took the testimony of
by the complainant, the OIG had deferred                   17 witnesses who had knowledge of the facts
further investigation of this matter pending a             and circumstances surrounding the allegations
determination by the Court on these claims.                in the complaint. The OIG has nearly com-
                                                           pleted its investigatory work and intends to
    In September 2010, the Court entered an                issue its report of investigation early within the
order denying without prejudice the com-                   next reporting period.
plainant’s motion that contained the pertinent
allegations that were brought to the OIG’s
attention and did not address the merits of the            Allegation of Misconduct by an SEC
claims. In light of the Court’s ruling, the OIG            Official Testifying Before Congress
decided to move forward with its investigation.
The OIG intends to conclude its investigative                   During the reporting period, the OIG
work and issue its report of investigation dur-            opened an investigation into allegations that
ing the next semiannual reporting period.                  an SEC official violated federal laws, as well as
                                                           conduct and ethics rules, when the official tes-
                                                           tified before a Congressional Committee. The
Complaint of Failure of an SEC                             OIG researched and analyzed pertinent provi-
Regional Office to Uncover Fraud and                       sions of federal law, the government-wide eth-
Inappropriate Conduct on the Part of a                     ics standards and the SEC’s conduct rules. In
Senior-Level Official                                      addition, the OIG obtained and reviewed
                                                           thousands of e-mails for approximately 18
     In March 2010, the OIG received an                    SEC employees and prepared a detailed chro-
anonymous complaint alleging that a senior-                nology of events. The OIG plans to conduct
level official in the investment adviser exami-            on-the-record testimony or interviews of indi-
nation program at an SEC Regional Office                   viduals with knowledge of relevant facts and
instructed examiners to not pursue certain                 circumstances and complete its investigation
“red flags” in an examination in which the                 during the next reporting period.
SEC staff uncovered a massive fraud. The
complaint further alleged that the senior offi-
cial’s apparent motive for these instructions              Complaint of Abusive and Intimidating
was that he either performed, or was materi-               Behavior
ally involved in directing, the most recent
prior examination of the firm that did not un-                 During the reporting period, the OIG
cover the fraud, although it existed at the time.          commenced an investigation into an anony-
In addition, the complaint alleged that a hos-             mous complaint that a staff member at SEC
tile work environment existed in the Regional              Headquarters had engaged in abusive and in-
Office as a result of management’s failure to              timidating behavior toward contract staff, used
aggressively discipline the senior official after a        profane language, and threatened their job
previous OIG investigation revealed that the               security. The complaint further claimed that
senior official had viewed pornographic im-                the staff member had lied to his supervisor
ages from an SEC computer.                                 about certain of these events and that his su-
                                                           pervisor appeared to be unaware of the staff
    During the reporting period, the OIG ob-               member’s abusive and intimidating conduct.
tained and reviewed the e-mail records of 11               The complaint also alleged an inappropriate
former and current SEC employees, and                      relationship between this staff member and a
searched over 68,000 e-mails. We also ob-                  contract employee. Included with the anony-
tained and reviewed thousands of pages of                  mous complaint were the statements of seven
pertinent documents, including the examina-                witnesses that were submitted in support of

                                                      77
the complaint. The complainant requested                 Investigation Concerning the Role of
that the statements be safeguarded to protect            Political Appointees in the Freedom of
the privacy and job security of the contract             Information Act Process
staff, who feared retribution.
                                                              The OIG opened an investigation in re-
     The OIG has taken the sworn testimony               sponse to a written request from two Members
of 15 individuals, including both SEC staff              of Congress. This written request expressed
members and contractor personnel. The                    concern about a layer of political review of
OIG also conducted interviews of three other             FOIA requests and Congressional information
SEC staff members and additional follow-up               requests at another federal department. The
interviews. In addition, the OIG has obtained            letter requested that the OIG determine
and reviewed security camera recordings and              whether, and if so, the extent to which, politi-
numerous relevant documents. The OIG also                cal appointees at the SEC are made aware of
obtained from OIT and searched the e-mails               information requests and have a role in re-
of ten individuals. The OIG plans to finalize            quest reviews or decision-making.
its report of investigation in this matter during             After receiving the Congressional request,
the next semiannual reporting period.                    the OIG obtained and reviewed relevant
                                                         documents from the SEC’s Office of Freedom
                                                         of Information and Privacy Act Operations,
Allegation of Improper Access to SEC
Facilities and Computer Systems                          including documents describing the process
                                                         for responding to FOIA requests and a list of
    The OIG opened an investigation after                FOIA liaisons throughout the agency. The
receiving a complaint that at least one con-             OIG also obtained and reviewed a list of all
tractor employee worked at the SEC before                SEC political appointees from OHR. The
having a background investigation conducted              OIG plans to take on-the-record testimony of
and being cleared. Specifically, it was alleged          relevant parties and to obtain and review per-
that this particular contractor employee, and            tinent e-mails. The OIG plans to issue its re-
possibly other contractor employees, entered             port of investigation prior to the end of the
SEC buildings and accessed SEC computer                  next semiannual reporting period.
systems and applications for months before
having a background investigation completed              Allegation of Procurement Violations
and being issued an SEC badge.
                                                             The OIG continued its investigation into
    During the reporting period, the OIG met             allegations made by a whistleblower that a
with and interviewed the complainant, ob-                senior management official awarded contracts
tained pertinent documents from the com-                 to a company in violation of the governing
plainant and others, and obtained and re-                laws, rules, and/or policies pertaining to con-
viewed e-mails of certain SEC contractor em-             tracting procedures.!!In addition, it was al-
ployees for the relevant time period. The                leged that the product purchased by the SEC
OIG plans to take sworn, on-the-record testi-            in connection with these contracts failed to
mony of the subjects of the investigation,               perform its intended functions, resulting in
complete its investigative work, and issue its           wasted agency resources.!
report of investigation during the next semi-
annual reporting period.                                     During this reporting period, the OIG
                                                         completed its review of relevant documents
                                                         and obtained, reviewed, and searched e-mails
                                                         for 16 SEC employees and one former SEC
                                                         contractor for approximately a two-and-a-half



                                                    78
year period. The OIG also took the sworn                OCIE during the examination of a registrant
testimony of 19 SEC employees and manag-                was leaked to a major newspaper. The OIG
ers with knowledge of this matter. The OIG’s            has completed its review of over 500,000 e-
investigative work has been completed and we            mails for the relevant period obtained for over
expect to issue a report of investigation during        20 employees, who may have viewed the non-
the next semiannual reporting period.!                  public information shortly before that
                                                        information was published in a newspaper ar-
                                                        ticle. During the reporting period, the OIG
Allegation of Negligence in the                         interviewed or took the testimony of potential
Conduct of an Enforcement                               witnesses and referred the matter to the DOJ.
Investigation                                           The OIG has been cooperating with the DOJ
                                                        on a parallel investigation. We expect the
    The OIG continued its investigation into a
                                                        OIG investigation to be completed during the
complaint received from a former
                                                        next reporting period.
Enforcement attorney, alleging that
Enforcement committed acts of negligence in
the conduct of an insider trading
                                                        Allegation of Unauthorized Disclosure
investigation.! The complaint was based upon            of Non-Public Information to the News
newly-discovered information that purport-              Media
edly demonstrated that Enforcement had ac-
cess to specific evidence showing that insider               The OIG is conducting an investigation
trading had occurred prior to the time                  into a complaint from legal counsel, alleging
Enforcement closed its investigation of the             that SEC staff disclosed non-public
matter. Previously, the OIG had taken the               information of an investigation of its client to
sworn testimony of the complainant and re-              the news media in violation of SEC rules and
viewed documentation provided by the com-               regulations governing the unauthorized disclo-
plainant.                                               sure of non-public information. Specifically,
                                                        the complainant alleged that one or more per-
     During this reporting period, the OIG re-          sons at the SEC disclosed to a reporter from a
viewed numerous documents related to the                major newspaper that its client: (1) was the
original Enforcement investigation that was             subject of a non-public investigation into pos-
closed without action, as well as documents             sible violations of the federal securities laws;
related to a subsequent investigation of the            (2) had reached a proposed settlement to re-
same matter that resulted in the SEC filing a           solve the investigation; and (3) had agreed to
civil action.! The OIG also took the sworn              pay a specific dollar amount to settle the inves-
testimony of the Enforcement Branch Chief               tigation.
and Staff Attorneys who were assigned to the
original insider trading investigation.! The                 The OIG is obtaining documents relevant
OIG’s investigative work has been completed,            to the complainant’s allegations, including
and we expect to issue a report of investiga-           numerous e-mails from the relevant current
tion during the next semiannual reporting               and former SEC staff members and senior
period.!                                                officials. The OIG intends to interview indi-
                                                        viduals with knowledge of the relevant facts
                                                        and circumstances and expects to issue a re-
Complaint of Unauthorized Disclosure                    port of investigation in the next reporting pe-
of Non-Public Information                               riod.
    During the reporting period, the OIG
continued its investigation into an allegation
that non-public information provided to

                                                   79
Allegation of Improper Preferential                         During the reporting period, the OIG re-
Treatment and Failure to Investigate                    searched federal law and SEC ethics guidance
Alleged Obstruction of SEC                              regarding post-employment restrictions and
Investigation at Regional Office                        interviewed a staff member of the SEC’s Eth-
    The OIG opened an investigation after               ics Office. In addition, the OIG reviewed
receiving a complaint that attorneys at a Re-           more than two years of notice of representa-
gional Office failed to properly investigate a          tion letters submitted to the SEC pursuant to
prominent law firm for alleged obstruction of           17 C.F.R. § 200.735-8(b). The OIG also re-
an ongoing SEC case, allegedly as the result of         viewed the former employee’s Official Person-
improper preferential treatment. In addition,           nel Folder, as well as comment letters submit-
it was alleged that Regional Office staff im-           ted to the SEC by the former employee’s cur-
properly provided information related to that           rent employer. Finally, the OIG requested
matter to the law firm.                                 and obtained thousands of e-mails related to
                                                        the allegations at issue. The OIG plans to
    In this reporting period, the OIG met with          search and review these e-mails and to con-
and interviewed the complainants and took               duct testimony of witnesses with information
sworn, on-the-record testimony of a relevant            relevant to the investigation during the next
witness. In addition, the OIG reviewed volu-            reporting period.
minous documents provided by the complain-
ants and obtained from other sources, and
prepared a chronology of events. The OIG                Complaint of Abuse of Compensatory
                                                        Time
also obtained and reviewed e-mails of ten
SEC employees for the relevant period of                    The OIG commenced an investigation
time. The OIG plans to take the testimony of            into an anonymous complaint that requested
pertinent parties, complete its investigative           an investigation of a Headquarters employee’s
work, and issue its report of investigation dur-        use of compensatory time for travel, among
ing the next semiannual reporting period.               other potential violations. During the report-
                                                        ing period, the OIG obtained and analyzed
Complaint of Violation of                               relevant travel and time and attendance re-
Post-Employment Restrictions                            cords for the employee. The OIG also ana-
                                                        lyzed the regulations, policies and procedures
     The OIG opened an investigation into al-           applicable to the claiming of compensatory
legations that a former employee violated fed-          time for travel. The OIG plans to complete its
eral post-employment restrictions or SEC eth-           analysis and take the testimony of the em-
ics rules when the employee left the SEC and            ployee and his supervisor during the next
began working at an entity regulated by the             semiannual reporting period.
SEC, as well as broader concerns with respect
to the revolving door between the SEC and
outside industry.




                                                   80
U.S. Securities and Exchange Commission

                                                                       SEMIANNUAL
                                                                       REPORT TO
                                                                       CONGRESS
                                                Office of
                                               Inspector
                                                General




                                          REVIEW OF LEGISLATION
                                          AND REGULATIONS
                                              During the reporting period, the OIG re-             OIG’s report entitled, Assessment of the SEC’s
                                          viewed legislation and proposed and final                Bounty Program, which was issued during the
                                          rules and regulations relating to the programs           previous reporting period. The IG requested
                                          and operations of the SEC, pursuant to Sec-              that the legislation incorporate specific defi-
                                          tion 4(a)(2) of the Inspector General Act.               ciencies indentified in the OIG’s review of the
                                                                                                   SEC bounty program and mandate their im-
                                              Significantly, during this period, Congress          plementation as part of the legislation’s sig-
                                          enacted major financial regulatory reform                nificant expansion of that program. In par-
                                          with the Dodd-Frank Wall Street Reform and               ticular, the IG recommended that H.R. 4173
                                          Consumer Protection Act (Dodd-Frank Act),                require that the SEC (1) develop specific crite-
                                          Public Law 111-203, on July 21, 2010. Prior              ria for recommending the award of bounties;
                                          to the passage of this legislation, the OIG re-          (2) develop and post an application form that
                                          viewed and provided comments on various                  asks whistleblowers to provide certain
                                          provisions of the proposed legislation that              information; (3) establish policies regarding
                                          would significantly impact the SEC, the SEC              when to follow up with whistleblowers to clar-
                                          OIG and other Inspectors General.                        ify information provided in bounty applica-
                                                                                                   tions and/or obtain supporting documenta-
                                              Specifically, on April 22, 2010, the SEC             tion; and (4) develop a tracking system for all
                                          IG provided a letter to the Honorable Paul E.            bounty applications to ensure uniformity and
                                          Kanjorski (D-Pennsylvania), Chairman of the              consistency in the process.
                                          Subcommittee on Capital Markets, Insurance,
                                          and Government Sponsored Enterprises of                      The SEC IG, during the reporting period,
                                          the U.S. House of Representatives Committee              also commented on, and suggested various
                                          on Financial Services. In that letter, the IG            alternatives to, a provision of the financial re-
                                          provided several recommendations regarding               form legislation that would have required
                                          provisions of H.R. 4173, the “Wall Street Re-            Presidential appointment and Senate confir-
                                          form and Consumer Protection Act,” that                  mation of several financial regulatory agency
                                          would expand the SEC’s bounty program be-                IGs, including the SEC IG. Additionally, on
                                          yond its existing scope that was limited to in-          June 14, 2010, the SEC IG, together with the
                                          sider trading cases, particularly in light of the        IGs of the CFTC, the NCUA, the PBGC and

                                                                                              81
the Federal Reserve Board provided a letter to          Chairman’s Office, determine whether certain
the Honorable Charles E. Grassley (R-Iowa)              legislative changes to Section 13(f) should be
and the Honorable Claire McCaskill (D-                  pursued. The OIG also recommended that
Missouri), expressing the IG’s support and ap-          IM, in consultation with Risk Fin and the
preciation for their leadership in crafting             Chairman’s Office, consider whether to rec-
Amendment 4072 to S. 3217, the “Restoring               ommend that the Commission adopt a rule
American Financial Stability Act of 2010,”              requiring institutional investment managers to
which contained measures designed to en-                report aggregate purchases and sales of
hance the accountability of IGs.                        securities. In connection with its review of
                                                        Section 13(f) reporting requirements and its
     Subsequent to the enactment of the                 assessment of the Division of Corporation
Dodd-Frank Act, the OIG carefully reviewed              Finance’s confidential treatment processes and
and analyzed this legislation to identify those         procedures, the OIG reviewed and analyzed
provisions that would impact the SEC, the               the rules governing requests for confidential
SEC OIG and other Offices of Inspector                  treatment of information filed pursuant to the
General. The OIG focused its review on pro-             Securities Act and the Exchange Act, which
visions that (1) required the OIG to establish a        are found at 17 C.F.R. § 230.406 and 17
new suggestion hotline program for SEC em-              C.F.R. § 240.24b-2, respectively.
ployees (which was implemented on Septem-
ber 27, 2010); (2) provided for the funding of               In addition, during its audit of the SEC’s
the OIG’s suggestion hotline through the                real property leasing procurement process
newly-established Investor Protection Fund;             (Report No. 484), the OIG reviewed the statu-
(3) provided that the IG reports to the Com-            tory provision that provided the SEC with in-
mission, rather than to the SEC Chairman;               dependent leasing authority, Section 4(b)(3) of
and (4) required that the SEC annually pro-             the Exchange Act, 15 U.S.C. § 78d(b)(3), as
vide to Congress audited financial statements           well as the applicable legislative history, House
of the Investor Protection Fund (which audit            Conference Report No. 101-924, 101st Cong.,
will be performed by the SEC OIG for the                2nd Sess. 1990. In connection with its assess-
period ended September 30, 2010).                       ment of the SEC’s privacy program (Report
                                                        No. 485), the OIG reviewed the requirements
    The OIG also reviewed statutes, rules,              of various statutes, rules and regulations de-
regulations and requirements, and their im-             signed to protect the privacy of individuals
pact on Commission programs and opera-                  and prevent the disclosure of sensitive
tions, within the context of audits and reviews         information, including the SEC Rules of the
conducted during the period. For example, in            Road, SECR 24-04.A01, and SEC Imple-
one review completed during the reporting               menting Instruction 24-04.02.01 (01.0), “Sen-
period (Report No. 480), the OIG examined               sitive Data Protection,” April 6, 2006. As dis-
the requirements of Section 13(f) of the                cussed in detail in the Section of this Report
Securities Exchange Act of 1934 (Exchange               on Advice and Assistance Provided to the
Act), 15 U.S.C. § 78m(f), and Commission                Agency and the Government Accountability
Rule13f-1, 17 C.F.R. § 240.13f-1 promulgated            Office, the OIG reviewed and provided com-
thereunder, which require periodic reporting            ments on drafts of an updated version of the
regarding the securities holdings of institu-           Rules of the Road, Updated Version 6.0,
tional investment managers. As a result of its          which was finalized and posted to the
review, the OIG recommended that the Divi-              Commission’s Intranet site on or about June
sion of Investment Management (IM), in con-             23, 2010.
sultation with the Division of Risk, Strategy,
and Financial Innovation (Risk Fin), the                   Also during the reporting period, the OIG
Office of the General Counsel and the                   conducted a comprehensive review of a draft

                                                   82
revised Systems of Record Notice for OIG                community. In addition to the financial regu-
Investigative Files, SEC-43. The OIG                    latory reform measures discussed in detail
provided extensive detailed comments on the             above, this legislation included S. 1508, the
draft revised notice to the OIT’s Chief Pri-            “Improper Payments Elimination and Recov-
vacy Officer. In particular, the OIG’s com-             ery Act of 2010,” which was enacted as Public
ments sought to ensure that the routine uses            Law 111-204 on July 22, 2010; H.R. 4983, the
contained in the notice accurately and ade-             “Transparency in Government Act of 2010”;
quately described the purposes for which OIG            S. 372, the “Whistleblower Protection En-
investigative records might be disclosed out-           hancement Act of 2009”; and H.R. 5815, the
side the Commission.                                    “Inspector General Authority Improvement
                                                        Act of 2010.” The SEC OIG also responded
     Finally, in coordination with the Legisla-         to survey questions regarding the need on the
tion Committee of the CIGIE and other In-               part of IGs for testimonial subpoena authority
spectors General, the SEC OIG closely re-               and the ability of federal employees to engage
viewed, tracked and provided views on various           in whistleblowing without fear of retaliation.
legislation of interest to the Inspector General




                                                   83
U.S. Securities and Exchange Commission

                                                              SEMIANNUAL
                                                              REPORT TO
                                                              CONGRESS
                                             Office of
                                            Inspector
                                             General




                                                         STATUS OF RECOMMENDATIONS WITH
                                                             NO MANAGEMENT DECISIONS
                                           Management decisions have been made on all audit reports issued
                                                   before the beginning of this reporting period.


                                                          REVISED MANAGEMENT DECISIONS

                                                No management decisions were revised during the period.


                                            AGREEMENT WITH SIGNIFICANT MANAGEMENT DECISIONS

                                          The Office of Inspector General agrees with all significant management
                                                       decisions regarding audit recommendations.



                                                 INSTANCES WHERE INFORMATION WAS REFUSED

                                                         During this reporting period, there were no
                                                         instances where information was refused.




                                                                             85
Table 1
List of Reports: Audits and Evaluations


      Audit /
                                       Title                      Date Issued
Evaluation Number
                       Assessment of Corporation Finance’s
      479                          Confidential                   Sep 29, 2010
                       Treatment Processes and Procedures
                    Review of the SEC’s Section 13(f) Reporting
      480                                                         Sep 27, 2010
                                  Requirements

      483             Audit of the FedTraveler Travel Service     Sep 22, 2010



      484           Real Property Leasing Procurement Process     Sep 30, 2010



      485            Assessment of the SEC’s Privacy Program      Sep 29, 2010


                      Review of PRISM Automated Procurement
      486                                                         Sep 30, 2010
                             System Support Contracts




                                      87
Table 2
Reports Issued with Costs Questioned
or Funds Put to Better Use
(including disallowed costs)

                                                                 Number of
                                                                               Value
                                                                  Reports
A. REPORTS ISSUED PRIOR TO THIS PERIOD

  For which no management decision had been made on any issue
     at the commencement of the reporting period                     3       $6,976,143.00
  For which some decisions had been made on some issues at the
     commencement of the reporting period                            0                 $0


B. REPORTS ISSUED DURING THIS PERIOD                                 3        $231,363.00



TOTAL OF CATEGORIES A AND B                                          6       $7,207,506.00


C. For which final management decisions were made during this
     period                                                          2         $30,312.00


D. For which no management decisions were made during this
     period                                                          4       $2,609,575.00


E. For which management decisions were made on some issues
                                                                     1       $4,567,619.00
     during this period

TOTAL OF CATEGORIES C, D AND E                                       7       $7,207,506.00




                                                89
Table 3
Reports With Recommendations on
Which Corrective Action Has Not Been
Completed
               RECOMMENDATIONS OPEN 180 DAYS OR MORE

   Audit/Inspection/         Issue Date            Summary of Recommendation
 Evaluation/ or Investi-
   gation # and Title
428 - Electronic Documents   7/25/2007     Issue program guidance.
Program
                                           Develop written procedures for loading data work
                                           from the regional offices.
439 - Student Loan           3/27/2008     In consultation with the Union, develop a detailed
Program                                    distribution plan.
446B - SEC’s Oversight of    9/25/2008     Ensure the BDRA system includes financial
Bear Stearns and Related                   information, staff notes and other written
Entities: Broker-Dealer                    documentation and is used to generate
Risk Assessment (BDRA)                     management reports.
Program
                                           Resolve technological problems with the BDRA
                                           system.
450 - Practices Related to    3/8/2009     Improve analytical capabilities of the Enforcement
Naked Short Selling                        Complaint Center’s e-mail complaint system.
Complaints and Referrals
                                           Improve the Complaints, Tips and Referrals
                                           database to include additional information about
                                           and better track complaints.
                                           Ensure the Office of Internet Enforcement updates
                                           and resumes using previous complaint referral
                                           tracking system or develops a new system.
455 - Attorney Annual         9/9/2008     Require all SEC attorneys to certify annually that
Certification of Bar                       they are active bar members and to acknowledge
Membership                                 that their failure to maintain active bar membership
                                           may result in referral to the appropriate authorities
                                           and/or disciplinary action.
432 - Oversight of           12/12/2007    Provide guidance and training to Division of
Receivers and Distribution                 Enforcement staff on receiver/distribution agent
Agents                                     oversight.
433 - Corporation Finance    09/30/2008    Develop a centralized tracking system for Divisions
Referrals                                  of Enforcement and Corporation Finance staff
                                           regarding non-delinquent filer referrals.
                                           Enhance CF's gatekeeper role once outcome
                                           information becomes more available.


                                          91
   Audit/Inspection/          Issue Date           Summary of Recommendation
 Evaluation/ or Investi-
   gation # and Title
456 - Public Transportation   3/27/2009    Implement additional management controls over
Benefit Program                            regional office program operations.
458 - SEC Oversight of        8/27/2009    Develop measures for determining whether
Nationally Recognized                      subscriber fees charged by the credit rating
Statistical Rating                         agencies are reasonable.
Organizations (NRSROs)
                                           Review the OIG findings on conducting
                                           examinations before issuing orders approving
                                           applications and, as appropriate, seek legislative
                                           authority to conduct examinations as part of the
                                           NRSRO application process.
                                           Review the OIG findings concerning Public
                                           Company Accounting Oversight Board (PCAOB)
                                           oversight of NRSRO auditors and, as appropriate,
                                           seek legislative authority to provide the PCAOB
                                           with oversight over audits of NRSROs.
                                           Review the OIG findings on monitoring of credit
                                           ratings and direct the recommendation of
                                           appropriate rules to implement a comprehensive
                                           credit rating monitoring requirement for NRSROs.
                                           Review the OIG findings on credit ratings
                                           disclosures and, as appropriate, direct the
                                           recommendation of additional rule amendments to
                                           enhance the disclosures surrounding the credit
                                           ratings process.
                                           Review the OIG findings on the Rule 17g-5
                                           information disclosure program and Regulation FD
                                           and, as appropriate, direct the assessment of the
                                           potential effects on competition in the credit rating
                                           industry of the re-proposed amendments and
                                           recommend rule changes, if appropriate.
                                           Review the OIG findings on public comment on a
                                           firm’s application and the status of competition and
                                           direct the incorporation of seeking and
                                           consideration of public comments into the SEC’s
                                           NRSRO oversight process.
459 - Regulation D            3/31/2009    Evaluate the Electronic Data Gathering And
Exemption Process                          Retrieval (EDGAR) authentication process and
                                           make necessary changes to further streamline or
                                           simplify the process.
                                           Analyze how other agencies have implemented
                                           authentication processes and implement any
                                           appropriate procedures.




                                             92
   Audit/Inspection/       Issue Date            Summary of Recommendation
 Evaluation/ or Investi-
   gation # and Title
460 - Management and       3/26/2010     Identify the universe of open interagency
Oversight of Interagency                 acquisitions and the corresponding amounts
Acquisition Agreements                   obligated and expended on each interagency
(IAAs) at the SEC                        acquisition, and reconcile the universe of open
                                         interagency acquisitions with the financial
                                         information maintained by the Office of Financial
                                         Management (OFM) regarding open interagency
                                         acquisitions and the corresponding amounts
                                         obligated and expended.
                                         Maintain interagency acquisition data in the
                                         appropriate centralized automated system to
                                         ensure appropriate access to and accuracy of data
                                         and to provide for report generation capabilities.
                                         Establish appropriate internal controls to provide
                                         reasonable assurance that, in the future,
                                         interagency acquisition agreement data is
                                         accurate, timely, complete and reliable.
                                         Develop internal written policies and procedures for
                                         administering interagency acquisitions that are
                                         based on appropriate risk assessments, address
                                         both Economy Act and Non-Economy Act
                                         acquisitions, and incorporate Federal Acquisition
                                         Regulation (FAR) Subpart 17.5, the Office of
                                         Federal Procurement Policy’s (OFPP’s) guidance
                                         on interagency acquisitions, and other
                                         requirements regarding interagency acquisitions,
                                         as appropriate.
                                         In developing written policies and procedures for
                                         assisted interagency acquisitions, incorporate the
                                         requirements of the Economy Act, the OFPP
                                         guidance on interagency acquisitions, and other
                                         controlling authorities, and coordinate with OFM to
                                         assure its minimum requirements are also
                                         included.
                                         Benchmark other federal agencies’ written policies
                                         and procedures for interagency acquisitions when
                                         developing its IAA written policies and procedures.
                                         Develop written policies and procedures regarding
                                         interagency acquisitions that include timeframes
                                         and procedures for closing out Economy Act and
                                         non-Economy Act interagency acquisitions and
                                         deobligating funds for both assisted and direct
                                         acquisitions, and ensure the close-out procedures
                                         identify the Commission’s process for coordinating
                                         with servicing agencies.
                                         Promptly identify all IAAs that have expired and
                                         have not been closed, and deobligate any funds
                                         that remain on the expired agreements.




                                        93
   Audit/Inspection/            Issue Date           Summary of Recommendation
 Evaluation/ or Investi-
   gation # and Title
                                             Take action to close the interagency acquisitions
                                             identified for which the performance period expired
                                             and deobligate the $6.9 million in unused funds
                                             that remain on the interagency acquisitions, in
                                             accordance with the appropriate close-out
                                             procedures.
                                             Update the interagency acquisition Determinations
                                             and Findings and interagency acquisition forms to
                                             include the information required by the FAR,
                                             Treasury Financial Manual Bulletin No. 2007-03 (in
                                             consultation with the OFM), and the OFPP
                                             guidance on interagency acquisitions.
                                             Develop and implement appropriate procedures to
                                             review interagency acquisition cost estimates to
                                             ensure they are reasonable and properly
                                             supported.
                                             Assess the Mid-Atlantic Cooperative Administrative
                                             Support Unit (CASU) IAA to determine if the costs
                                             incurred are reasonable and the CASU IAA is in the
                                             best interest of the Commission.
                                             Consider sources of administrative support
                                             services that charge lower amounts if it is
                                             determined that the Mid-Atlantic CASU IAA does
                                             not provide the best value to the Commission.
                                             Provide additional training to contracting staff and
                                             customers regarding interagency acquisitions,
                                             which includes training on developing and ensuring
                                             the adequacy of statements of work and
                                             statements of objectives according to applicable
                                             guidance and requirements.
461 - Review of the             3/31/2009    Conduct appropriate analysis and complete and
Commission’s Restacking                      submit an Exhibit 300 to the Office of Management
Project                                      and Budget (OMB).
                                             Develop and adopt policies and procedures for
                                             investments in space consistent with OMB
                                             guidance.
464 - Notification to the OIG   1/23/2009    Provide the OIG with three business days notice
of Decisions on Disciplinary                 prior to decisions on disciplinary action.
Actions and Settlement
Agreements Involving
Subjects of OIG
Investigations
                                             Provide the OIG with five business days notice
                                             prior to executing settlement agreements.




                                                94
   Audit/Inspection/         Issue Date            Summary of Recommendation
 Evaluation/ or Investi-
   gation # and Title
465 - Review of the SEC’s    9/25/2009     Collaborate with office and division managers to
Compliance with the                        review position descriptions of current FOIA/
Freedom of Information Act                 Privacy Act staff and FOIA liaisons to include
(FOIA)                                     appropriate FOIA task descriptions and
                                           performance standards, and review pay grades to
                                           ensure they reflect actual FOIA responsibilities and
                                           duties.
466 - Assessment of the      3/26/2010     Improve the oversight of IT investments to ensure
SEC Information Technology                 that projects are in compliance with the
(IT) Investment Process                    requirements in the Capital Planning and
                                           Investment Control (CPIC) policies and procedures
                                           specifically dealing with the implementation of the
                                           control and evaluate phases of the CPIC process.
                                           Require status updates be provided for all ongoing
                                           projects every six months to manage resources
                                           (i.e., staff, cost and time) for IT investments of
                                           $200,000 and above.
                                           Immediately fill the position of Assistant Director for
                                           the Project Management Office with an
                                           experienced and qualified candidate.
                                           Perform an assessment of the project management
                                           function to compare the current ratio of projects per
                                           project manager to the industry’s acceptable ratio
                                           of projects per project manager.
                                           Formally delegate authority to the Chief Information
                                           Officer (CIO) necessary for the management and
                                           oversight of the CPIC process, to include the full
                                           authority to develop and execute all information
                                           technology policy, as approved by the Chairman.
                                           Revise 17 C.F.R. § 200.13 to provide the CIO with
                                           full authority to develop and issue IT policies and
                                           carry out the prescribed substantive responsibilities
                                           under 44 U.S.C. § 3506 and OMB Guidance
                                           M-09-02, and remove the CIO/Director of the Office
                                           of Information Technology (OIT) from under the
                                           supervision of the Executive Director or any
                                           position other than the Chairman for those
                                           substantive responsibilities.
                                           Revise SEC Regulation (SECR) 24-02 to add a
                                           responsibility that the division directors, office
                                           heads, and regional directors ensure that all IT
                                           investments within their responsibility adhere to the
                                           CPIC policies and procedures, and create an
                                           enforcement mechanism for the CIO and
                                           Information Officers Council to utilize when they
                                           discover investments that have been funded
                                           outside of the CPIC process.
                                           Conduct periodic internal reviews to ensure that the
                                           requirements in Operating Directive 24-02.01, IT
                                           Investment Management, are enforced, (e.g., the
                                           requirement that two representatives from the
                                           program area be identified for all ongoing projects).


                                          95
   Audit/Inspection/           Issue Date                Summary of Recommendation
 Evaluation/ or Investi-
   gation # and Title
                                                 Require that all divisions and offices use OIT’s
                                                 project management system and update and
                                                 maintain the data in the system for the investments
                                                 within their program areas.
471 - Audit of the Office of   9/25/2009         Determine the universe of active and open
Acquisitions’ Procurement                        contracts and the corresponding value of the
and Contract Management                          contracts and reconcile this information with the
Functions                                        OFM’s active contract list.
                                                 Develop an internal process to ensure procurement
                                                 data is accurately and fully reported in the Federal
                                                 Procurement Data System for both SEC
                                                 headquarters and regional offices.
                                                 Develop an acquisition training plan to ensure
                                                 compliance with OFPP training requirements.
                                                 Provide regional offices with oversight, including
                                                 the proper use of Contracting Officer’s Technical
                                                 Representatives, Inspection and Acceptance
                                                 Officials, Point-of-Contact personnel and other
                                                 personnel who handle procurement and contracting
                                                 activities.
                                                 Revise and finalize data migration plan and include
                                                 key controls or steps to ensure accuracy of
                                                 migrated data.
                                                 Re-educate the acquisition workforce on the FAR
                                                 requirements that are related to time-and-materials
                                                 and labor-hour contracts.
                                                 Update SECR 10-14, Procurement Contract
                                                 Administration, regarding contract closeout and
                                                 ensure that it properly aligns with the FAR.
474 - Assessment of the        3/29/2010         Develop a communication plan to address outreach
SEC’s Bounty Program                             to both the public and the SEC personnel regarding
                                                 the SEC bounty program, which includes efforts to
                                                 make information available on the SEC’s Intranet,
                                                 enhance information available on the SEC’s public
                                                 website, and provide training to employees who are
                                                 most likely to deal with whistleblower cases.




                                            96
  Audit/Inspection/       Issue Date                Summary of Recommendation
Evaluation/ or Investi-
  gation # and Title
                                            Develop and post to the SEC’s public website an
                                            application form that asks the whistleblower to
                                            provide information, including, e.g., (1) the facts
                                            pertinent to the alleged securities law violation and
                                            an explanation as to why the subject(s) violated the
                                            securities laws; (2) a list of related supporting
                                            documentation available in the whistleblower’s
                                            possession and available from other sources; (3) a
                                            description of how the whistleblower learned about
                                            or obtained the information that supports the claim,
                                            including the whistleblower’s relationship to the
                                            subject(s); (4) the amount of any monetary rewards
                                            obtained by the subject violator(s) (if known) as a
                                            result of the securities law violation and how the
                                            amount was calculated; and (5) a certification that
                                            the application is true, correct, and complete to the
                                            best of the whistleblower’s knowledge.
                                            Establish policies on when to follow up with
                                            whistleblowers who submit applications to clarify
                                            information in the bounty applications and obtain
                                            readily available supporting documentation prior to
                                            making a decision as to whether a whistleblower’s
                                            complaint should be further investigated.
                                            Develop specific criteria for recommending the
                                            award of bounties, including a provision that where
                                            a whistleblower relies partially upon public
                                            information, such reliance will not preclude the
                                            individual from receiving a bounty.
                                            Examine ways in which the Commission can
                                            increase communications with whistleblowers by
                                            notifying them of the status of their bounty requests
                                            without releasing non-public or confidential
                                            information during the course of an investigation or
                                            examination.
                                            Develop a plan to incorporate controls for tracking
                                            tips and complaints from whistleblowers seeking
                                            bounties into the development of the Division of
                                            Enforcement’s (Enforcement’s) tips, complaints and
                                            referrals processes and systems for other tips and
                                            complaints, which should provide for the collection
                                            of necessary information and require processes
                                            that will help ensure that bounty applications are
                                            reviewed by experienced Commission staff,
                                            decisions whether to pursue whistleblower
                                            information are timely made, and whistleblowers
                                            who provide significant information leading to a
                                            successful action for violation of the securities laws
                                            are rewarded.




                                       97
   Audit/Inspection/          Issue Date                Summary of Recommendation
 Evaluation/ or Investi-
   gation # and Title
                                                Require that a bounty file (hard copy or electronic)
                                                be created for each bounty application, which
                                                should contain at a minimum the bounty
                                                application, any correspondence with the
                                                whistleblower, documentation of how the
                                                whistleblower’s information was utilized, and
                                                documentation regarding significant decisions
                                                made with regard to the whistleblower’s complaint.
                                                Incorporate best practices from the Department of
                                                Justice (DOJ) and the Internal Revenue Service
                                                (IRS) into the SEC bounty program with respect to
                                                bounty applications, analysis of whistleblower
                                                information, tracking of whistleblower complaints,
                                                recordkeeping practices, and continual assessment
                                                of the whistleblower program.
                                                Set a timeframe to finalize new policies and
                                                procedures for the SEC bounty program that
                                                incorporate the best practices from DOJ and the
                                                IRS, as well as any legislative changes to the
                                                program.
475 - Evaluation of the SEC   3/26/2010         Finalize the outstanding draft privacy-related
Privacy Program                                 policies and procedures and implement them
                                                throughout the agency by the end of the fiscal year.
476 - Evaluation of the SEC   3/26/2010         Revise the encryption policy and require that all
Encryption Program                              portable media be encrypted.
                                                Eliminate the option for divisions and offices to
                                                select whether or not they will encrypt portable
                                                media, i.e., thumb drives, CD/DVDs, etc.
PI-09-05 - SEC Access Card    2/22/2010         Ensure, on a Commission-wide basis, that all
Readers in Regional Offices                     regional offices are capable of capturing and
                                                recording building entry and exit information of
                                                Commission employees.
PI-09-07 - Employee           3/10/2010         Review and update internal regulation and policy
Recognition Program and                         for the SEC’s Employee Recognition Program
Grants of Employee Awards                       (ERP), and post the revised regulation and/or
                                                policy to the SEC’s Intranet site.
                                                Ensure the revised ERP regulation and/or policy
                                                specifically addresses whether informal recognition
                                                awards are authorized and, if so, what criteria,
                                                standards and approvals pertain.
                                                Ensure the revised ERP regulation and/or policy
                                                makes clear that appropriated funds may not be
                                                used to pay for employee parking as an award.
                                                Review various Budget Object Class (BOC) codes
                                                currently used for non-monetary employee awards,
                                                select the most apposite BOC and ensure all
                                                properly authorized non-monetary awards are
                                                charged to that BOC.




                                           98
   Audit/Inspection/             Issue Date                Summary of Recommendation
 Evaluation/ or Investi-
   gation # and Title
                                                   Approve requests to use appropriated funds for
                                                   non-monetary employee awards only after ensuring
                                                   an authorized agency officer has approved the
                                                   awards under statutory and regulatory authority.
ROI-470 - Allegations of         2/24/2010         Institute procedures to require that a decision be
Conflict of Interest and                           made, documented and approved where
Investigative Misconduct                           Enforcement has informed the Commission it is
                                                   continuing to consider recommending charges.
ROI-481 - Employees’              3/3/2009         Have an employee’s direct supervisor review a list
Securities Transactions                            of all pending cases in the group over the last year
                                                   to compare against a list of all securities reported
                                                   on Office of Government Ethics Form 450 for each
                                                   employee.
                                                   Conduct separate comprehensive and more
                                                   frequent training on Commission Rule 5, its
                                                   purpose and its requirements, for all SEC
                                                   employees, supervisors and contractors.
ROI-491 - Allegation of          3/29/2010         Make efforts to recapture a portion of additional
Fraudulently Obtained                              award fees a contractor obtained based on
Award Fees                                         potentially inaccurate data.
                                                   Assign all contracts over $1 million to staff at the
                                                   level of Assistant Director or higher, as well as the
                                                   Office of Acquisitions, which provides oversight for
                                                   various SEC acquisitions.
                                                   Ensure there is a process to validate any additional
                                                   fees awarded under contracts.
ROI-496 - Allegations of          1/8/2010         Consider promulgating or clarifying procedures for
Conflict of Interest, Improper                     documenting the reasons specific issues referred
Use of Non-Public                                  to Enforcement by the Office of Compliance,
Information and Failure to                         Inspections and Examinations (OCIE) are not
Take Sufficient Action                             investigated.
Against Fraudulent
Company
                                                   Consider methods to ensure no appearance of
                                                   impropriety when a former SEC attorney
                                                   represents a company shortly after SEC work
                                                   provided specific, sensitive information related to
                                                   the company.
ROI-502 - Allegations of         9/30/2009         Clarify policies on disclosure of non-public
Improper Disclosures and                           information, including what constitutes non-public
Assurances Given                                   information related to Enforcement investigations
                                                   and parameters for discretionary release.
                                                   Clarify Commission’s policies regarding under what
                                                   circumstances the staff is obligated to seek formal
                                                   approval before making decisions that may bind
                                                   the Commission.
ROI-505 - Failure to Timely      2/26/2010         Ensure as part of changes to complaint handling
Investigate Allegations of                         system that databases used to refer complaints are
Financial Fraud                                    updated to accurately reflect status of
                                                   investigations and identity of staff.


                                              99
Table 4
Summary of Investigative Activity


                                 CASES                     NUMBER


      Cases Open as of 3/31/10                               13
      Cases Opened during 4/01/10 - 9/30/10                  13
      Cases Closed during 4/01/10 - 9/30/10                  10
      Total Open Cases as of 9/30/10                         16
      Referrals to Department of Justice for Prosecution     3
      Prosecutions                                           0
      Convictions                                            0
      Referrals to Agency for Disciplinary Action            3



                      PRELIMINARY INQUIRIES                NUMBER


      Inquiries Open as of 3/31/10                           71
      Inquiries Opened during 4/01/10 - 9/30/10              42
      Inquiries Closed during 4/01/10 - 9/30/10              23
      Total Open Inquiries as of 9/30/10                     90
      Referrals to Agency for Disciplinary Action            6



                       DISCIPLINARY ACTIONS                NUMBER


      Removals (Including Resignations and Retirements)      6
      Demotions                                              1
      Suspensions                                            2
      Reprimands                                             1
      Warnings/Other Actions                                 2




                                     101
Table 5
Summary of Complaint Activity

                                     DESCRIPTION              NUMBER


 Complaints Pending Disposition at Beginning of Period          7

 Hotline Complaints Received                                   132

 Other Complaints Received                                     232

 Total Complaints Received                                     364

 Complaints on which a Decision was Made                       360

 Complaints Awaiting Disposition at End of Period               11



 Disposition of Complaints During the Period

 Complaints Resulting in Investigations                         11

 Complaints Resulting in Inquiries                              42

 Complaints Referred to OIG Office of Audits                    9

 Complaints Referred to Other Agency Components                134

 Complaints Referred to Other Agencies                          8

 Complaints Included in Ongoing Investigations or Inquiries     21

 Response Sent/Additional Information Requested                 47

 No Action Needed                                               96




                                           103
Table 6
References to Reporting Requirements
of the Inspector General Act

 The Inspector General Act of 1978, as amended, specifies reporting requirements for
 semiannual reports to Congress. The requirements are listed below and indexed to the
 applicable pages.



     Section         INSPECTOR GENERAL ACT REPORTING REQUIREMENT                      PAGES
      4(a)(2)     Review of Legislation and Regulations                               81-83

      5(a)(1)     Significant Problems, Abuses, and Deficiencies                      13-18,
                                                                                      24-44,
                                                                                      48-76
      5(a)(2)     Recommendations for Corrective Action                               24-44,
                                                                                      48-76
      5(a)(3)     Prior Recommendations Not Yet Implemented                           91-99

      5(a)(4)     Matters Referred to Prosecutive Authorities                         48-76,
                                                                                       101
      5(a)(5)     Summary of Instances Where Information Was Unreasonably              85
                  Refused or Not Provided
      5(a)(6)     List of OIG Audit and Evaluation Reports Issued During the Period    87

      5(a)(7)     Summary of Significant Reports Issued During the Period             24-44,
                                                                                      48-76
      5(a)(8)     Statistical Table on Management Decisions with Respect to            89
                  Questioned Costs
      5(a)(9)     Statistical Table on Management Decisions on Recommendations         89
                  That Funds Be Put To Better Use
      5(a)(10)    Summary of Each Audit, Inspection or Evaluation Report Over Six      85
                  Months Old for Which No Management Decision Has Been Made
      5(a)(11)    Significant Revised Management Decisions                             85

      5(a)(12)    Significant Management Decisions with Which the Inspector            85
                  General Disagreed
      5(a)(14)    Appendix of Peer Reviews Conducted by Another OIG                    107
      5(a)(15)    List of Outstanding Peer Review Recommendations Not Fully            107
                  Implemented
      5(a)(16)    List of Peer Reviews Conducted of Another OIG                        107




                                         105
U.S. Securities and Exchange Commission

                                                                            SEMIANNUAL
                                                                            REPORT TO
                                                                            CONGRESS
                                                Office of
                                               Inspector
                                                General




                                          Appendix A: Peer Reviews of OIG Operations............................................................107
                                                          Peer Review of National Credit Union Administration’s Office of
                                                            Inspector General ...........................................................................................107
                                                          Peer Review of the SEC OIG’s Audit Operations by the Corporation
                                                            for Public Broadcasting OIG ............................................................................107
                                                          Peer Review of the SEC OIG’s Investigative Operations by U.S. Equal
                                                            Employment Opportunity Commission OIG .....................................................107

                                          Appendix B: Testimony of H. David Kotz, Inspector General of
                                                      the Securities and Exchange Commission, Before the
                                                      United States Senate Committee on Banking,
                                                      Housing and Urban Affairs......................................................................109

                                          Appendix C: Testimony of H. David Kotz, Inspector General of the
                                                      Securities and Exchange Commission, Before the
                                                      Financial Crisis Inquiry Commission .......................................................121
                                                                            APPENDIX A

PEER REVIEWS OF OIG OPERATIONS

PEER REVIEW OF THE NATIONAL CREDIT UNION ADMINISTRATION OIG’S AUDIT
OPERATIONS

        During the semiannual reporting period, the SEC OIG completed an external peer review
of the audit activities of the National Credit Union Administration (NCUA) OIG. Based on our
risk assessments, we selected for review audits conducted under generally accepted government
auditing standards by the NCUA OIG that were completed during the period from April 1, 2008
to October 30, 2009. In our opinion, the system of quality control for the audit organization of
the NCUA OIG in effect for the period ended October 30, 2009, was suitably designed and
complied with to provide the NCUA OIG with reasonable assurance of performing and reporting
in conformity with applicable professional standards in all material respects. There are no
outstanding recommendations in connection with the peer review and the SEC OIG’s report of
the NCUA OIG’s audit operations is available on our website at http://www.sec-
oig.gov/Reports/AuditsInspections/2010/478.pdf.


PEER REVIEW OF THE SEC OIG’S AUDIT OPERATIONS

        During the semiannual reporting period, the SEC OIG did not have an external peer
review conducted of its audit operations. Peer reviews of OIG audit operations are required to be
conducted every three years. The most recent peer review of the SEC OIG’s audit operations
was conducted by the Corporation for Public Broadcasting (CPB) OIG. The CPB OIG issued its
report on the SEC OIG’s audit operations in January 2010. This report concluded that the SEC
OIG’s system of quality for its audit function was designed to meet the requirements of the
quality control standards established by the U.S. Comptroller General in all material respects.
The report is available on our website at http://www.sec-
oig.gov/Reports/Other/CPB_PeerReviewSEC.pdf.


PEER REVIEW OF THE SEC OIG’S INVESTIGATIVE OPERATIONS

        During the semiannual reporting period, the SEC OIG did not have an external peer
review of its investigative operations. Peer reviews of Designated Federal Entity OIGs, such as
the SEC OIG, are conducted on a voluntary basis. The most recent peer review of the SEC
OIG’s investigative operations was conducted by the U.S. Equal Employment Opportunity
Commission (EEOC) OIG. The EEOC OIG issued its report on the SEC OIG’s investigative
operations in July 2007. This report concluded that the SEC OIG’s system of quality for the
investigative function conformed to the professional standards established by the President’s
Council on Integrity & Efficiency and the Executive Council on Integrity & Efficiency (now the
Council of the Inspectors General on Integrity & Efficiency).




                                              107
                                        APPENDIX B




      Written Testimony of H. David Kotz
            Inspector General of the
      Securities and Exchange Commission




             Before the U.S. Senate
Committee on Banking, Housing and Urban Affairs

        Wednesday, September 22, 2010
                 10:00 a.m.



                      109
                                           Introduction

        Thank you for the opportunity to testify before this Committee on the subject of
“Oversight of the SEC’s Inspector General’s Report on the ‘Investigation of the SEC’s Response
to Concerns Regarding Robert Allen Stanford’s Alleged Ponzi Scheme’ and Improving SEC
Performance.” I appreciate the interest of the Chairman, the Ranking Member, as well as the
other members of the Committee, in the Securities and Exchange Commission (SEC or
Commission) and the Office of Inspector General (OIG). In my testimony, I am representing the
OIG, and the views that I express are those of my Office, and do not necessarily reflect the views
of the Commission or any Commissioners.

        I would like to begin my remarks by briefly discussing the role of my Office and the
oversight efforts we have undertaken during the past few years. The mission of the Office of
Inspector General is to promote the integrity, efficiency and effectiveness of the critical
programs and operations of the SEC. The SEC Office of Inspector General includes the
positions of the Inspector General, Deputy Inspector General, Counsel to the Inspector General,
and has staff in two major areas: Audits and Investigations.

        Our audit unit conducts, coordinates and supervises independent audits and evaluations
related to the Commission’s internal programs and operations. The primary purpose of
conducting an audit is to review past events with a view toward ensuring compliance with
applicable laws, rules and regulations and improving future performance. Upon completion of
an audit or evaluation, the OIG issues an independent report that identifies any deficiencies in
Commission operations, programs, activities or functions and makes recommendations for
improvements in existing controls and procedures.

        The Office’s investigations unit responds to allegations of violations of statutes, rules and
regulations, and other misconduct by Commission staff and contractors. We carefully review
and analyze the complaints we receive and, if warranted, conduct a preliminary inquiry or full
investigation into a matter. The misconduct investigated ranges from fraud and other types of
criminal conduct to violations of Commission rules and policies and the Government-wide
conduct standards. The investigations unit conducts thorough and independent investigations
into allegations received in accordance with the applicable Quality Standards for Investigations.
Where allegations of criminal conduct are involved, we notify and work with the Department of
Justice and the Federal Bureau of Investigation as appropriate.

                                          Audit Reports

        Over the past 2! years since I became the Inspector General of the SEC, our audit unit
has issued numerous reports involving matters critical to SEC programs and operations and the
investing public. These have included an examination of the Commission’s oversight of Bear
Stearns and the factors that led to its collapse, an audit of the SEC Division of Enforcement’s
(Enforcement’s) practices related to naked short selling complaints and referrals, a review of the
SEC’s bounty program for whistleblowers, and an analysis of the SEC’s oversight of credit
rating agencies. In addition, following a comprehensive investigative report related to the
Madoff Ponzi scheme in which our Office identified systematic breakdowns in the manner in

                                                110
which the SEC conducted its examinations and investigations (discussed in more detail below),
we performed three comprehensive reviews providing the SEC with 69 specific and concrete
recommendations to improve the operations of both Enforcement and the Office of Compliance
Inspections and Examinations (OCIE).

                                      Investigative Reports

        The Office’s investigations unit has also conducted numerous comprehensive
investigations into significant failures by the SEC in accomplishing its regulatory mission, as
well as investigations of allegations of violations of statutes, rules and regulations, and other
misconduct by Commission staff members and contractors. Several of these investigations
involved senior-level Commission staff and represent matters of great concern to the
Commission, Congressional officials and the general public. Where appropriate, we have
reported evidence of improper conduct and made recommendations for disciplinary actions,
including removal of employees from the Federal service, as well as recommendations for
improvements in agency policies, procedures and practices.

        Specifically, we have issued investigative reports regarding a myriad of allegations,
including claims of failures by Enforcement to pursue investigations vigorously or in a timely
manner, improper securities trading by Commission employees, conflicts of interest by
Commission staff members, unauthorized disclosure of non-public information, whistleblower
allegations of contract fraud, preferential treatment given to prominent persons, retaliatory
termination, perjury by supervisory Commission attorneys, failure of SEC attorneys to maintain
active bar status, falsification of federal documents, and the misuse of official position,
government resources and official time. In August 2009, we issued a 457-page report of
investigation analyzing the reasons why the SEC failed to uncover Bernard Madoff’s $50 billion
Ponzi scheme. More recently, we issued a thorough and comprehensive report of investigation
regarding the history of the SEC’s examinations and investigations of Robert Allen Stanford’s
(Stanford’s) $8 billion alleged Ponzi scheme, which report is discussed in detail below and is the
subject of this hearing.
                             Commencement of Stanford Investigation

        On October 9, 2009, I received a letter from the Ranking Member of this Committee, the
Honorable Richard Shelby, and the Honorable David Vitter requesting a comprehensive
investigation of the handling of the SEC’s investigation into Robert Allen Stanford and his
various companies, including the history of all the SEC’s investigations and examinations
regarding Stanford. On October 13, 2009, the OIG opened our investigation into the Stanford
matter.

                                  Document and E-mail Review

        Between October 13, 2009 and February 16, 2010, the OIG investigative team made
numerous requests to the SEC’s Office of Information Technology (OIT) for the e-mails of
current and former SEC employees for various periods of time pertinent to the investigation.
The e-mails were received, loaded onto computers with specialized search tools and searched on
a continuous basis throughout the course of our investigation.

                                                111
       In all, OIT provided e-mails for a total of 42 current and former SEC employees for
various time periods pertinent to the investigation, ranging from 1997 to 2009. We estimate that
we obtained and searched over 2.7 million e-mails during the course of the investigation.

        On October 27, 2009, we sent comprehensive document requests to both Enforcement
and OCIE specifying the documents and records we required to be produced for the
investigation. We carefully reviewed and analyzed the information we received as a result of our
document production requests. These documents included all records relating to the SEC’s Fort
Worth office’s examinations in 1997 of Stanford Group Company’s Broker-Dealer, in 1998 of
Stanford Group Company’s Investment Advisor, in 2002 of Stanford Group Company’s
Investment Advisor, and in 2004 of Stanford Group Company’s Broker-Dealer. These also
included investigative records relating to the Fort Worth office’s 1998 inquiry regarding Stanford
Group Company and its investigation of Stanford Group Company, which was opened in 2006.

       We also sought and reviewed documents from the Financial Industry Regulatory
Authority (FINRA), including documents concerning communications between FINRA or its
predecessor, the National Association of Securities Dealers (NASD), and the SEC concerning
Stanford, and FINRA documents pertaining to the SEC’s examinations and inquiries regarding
Stanford.

                                   Testimony and Interviews

        The OIG conducted 51 testimonies and interviews of 48 individuals with knowledge of
facts or circumstances surrounding the SEC’s examinations and/or investigations of Stanford and
his firms. I personally led the questioning in the testimony and interviews of the witnesses in
this investigation.

       Specifically, we conducted on-the-record and under oath testimony of 28 individuals,
including all of the relevant examiners and investigators who worked on SEC matters relating to
Stanford. We also conducted interviews of 20 other witnesses, including former SEC
employees, whistleblowers, victims of the alleged Ponzi scheme, and officials from the Texas
State Securities Board.

                     Issuance of Comprehensive Report of Investigation

         On March 31, 2010, we issued to the Chairman of the SEC a comprehensive report of our
investigation in the Stanford matter containing over 150 pages of analysis and 200 exhibits. The
report of investigation detailed all of the SEC’s examinations and investigations of Stanford from
1997 through 2009 and the agency’s response to all complaints it received regarding the
activities of Stanford’s companies, tracing the path of these complaints through the Commission
from their inception and reviewing what, if any, investigative or examination work was
conducted with respect to the allegations in the complaints.




                                               112
                          Results of the OIG’s Stanford Investigation

        The OIG’s investigation determined that the SEC’s Fort Worth office was aware since
1997 that Robert Allen Stanford was likely operating a Ponzi scheme, having come to that
conclusion a mere two years after Stanford Group Company, Stanford’s investment adviser,
registered with the SEC in 1995. We found that over the next eight years, the SEC’s Fort Worth
Examination group conducted four examinations of Stanford’s operations, finding in each
examination that the certificates of deposit (CDs) Stanford was promoting could not have been
“legitimate,” and that it was “highly unlikely” that the returns Stanford claimed to generate could
have been achieved with the purported conservative investment approach utilized. The SEC’s
Fort Worth examiners conducted examinations of Stanford in 1997, 1998, 2002 and 2004,
concluding in each instance that Stanford’s CDs were likely a Ponzi scheme or similar fraudulent
scheme. The only significant difference in the examination group’s findings over the years was
that the potential fraud was growing exponentially, from $250 million to $1.5 billion.

        The first SEC examination occurred in 1997, just two years after Stanford Group
Company began operations. After reviewing Stanford Group Company’s annual audited
financial statements in 1997, a former branch chief in the Fort Worth Broker-Dealer Examination
group stated that, based simply on her review of the financial statements, she “became very
concerned” about the “extraordinary revenue” from the CDs and immediately suspected the CD
sales were fraudulent. In August 1997, after just six days of field work in an examination of
Stanford, the examiners concluded that Stanford International Bank’s statements promoting the
CDs appeared to be misrepresentations. The examiners noted that while the CD products were
promoted as being safe and secure, with investments in “investment-grade bonds,” the interest
rate, combined with referral fees of between 11% and 13.75% annually, was simply too high to
be achieved through the purported low-risk investments.

        The branch chief concluded after the 1997 examination was finished that the CDs
declared above-market returns were “absolutely ludicrous” and that the high referral fees paid for
selling the CDs indicated that they were not “legitimate CDs.” The Assistant District
Administrator for the Fort Worth Examination program concurred, noting that there were “red
flags” about Stanford’s operations that caused her to believe Stanford Group Company was
operating a Ponzi scheme, specifically noting the fact that the interest being paid on these CDs
“was significantly higher than what you could get on a CD in the United States.” She further
concluded that it was “highly unlikely” that the returns Stanford claimed to generate could be
achieved with the conservative investment approach Stanford claimed to be using.

         In the SEC’s internal tracking database, where it recorded information about its
examinations, the Broker-Dealer Examination group characterized its conclusion from the 1997
examination of Stanford Group Company as “Possible misrepresentations. Possible Ponzi
scheme.” Our investigation found that in 1997, the examination staff determined, as a result of
their findings, that an investigation of Stanford by the Fort Worth Enforcement group was
warranted, and referred a copy of their examination report to the Enforcement group for review
and disposition. In fact, when the former Assistant District Administrator for the Fort Worth
Examination program retired in 1997, her “parting words” to the aforementioned branch chief



                                               113
were to “keep your eye on these people [referring to Stanford] because this looks like a Ponzi
scheme to me and some day it’s going to blow up.”

        We also found that in June 1998, the Investment Adviser Examination group in Fort
Worth began another examination of Stanford Group Company. This Investment Adviser
examination arrived at the same conclusions that the broker-dealer examination had reached.
The Investment Adviser examiners found very suspicious Stanford’s “extremely high interest
rates and extremely generous compensation” in the form of annual recurring referral fees, as well
as the fact that Stanford Group Company was so “extremely dependent upon that compensation
to conduct its day-to-day operations.”

       In November 2002, the SEC’s Investment Adviser Examination group conducted yet
another examination of Stanford Group Company. In this examination, the staff identified the
same red flags that had been noted in the previous two examinations, including the fact that “the
consistent, above-market reported returns” were “very unlikely” to be able to be achieved with
Stanford’s investments.

       The Investment Adviser examiners also found that the list of investors provided by
Stanford Group Company was inaccurate, as the list they received of the CD holders was
inconsistent with the total CDs outstanding based upon referral fees. The examiners noted that
although they did follow up with Stanford Group Company about this discrepancy, they never
obtained “a satisfactory response, and a full list of investors.”

        After the examiners began this third examination of Stanford, the SEC received multiple
complaints from outside entities reinforcing and bolstering the examiners’ suspicions about
Stanford’s operations. However, the SEC failed to follow up on these complaints or take any
action to investigate them. On December 5, 2002, the SEC received a complaint from a citizen
of Mexico, who raised the same concerns the examination staff had raised. While the examiners
characterized the concerns expressed in this complaint as “legitimate,” we found that the SEC
did not respond to the complaint and did not take any action to investigate the claims made
therein.

       In 2003, the SEC Enforcement staff received two new complaints that Stanford was a
Ponzi scheme, but we found that nothing was done to pursue either of them. On August 4, 2003,
the SEC was forwarded a letter that discussed several similarities between a known Ponzi
scheme and Stanford’s operations. Then, on October 10, 2003, the NASD forwarded a letter
dated September 1, 2003, from an anonymous Stanford insider to the SEC’s Office of Investor
Education and Advocacy, which stated, in pertinent part:

               STANFORD FINANCIAL IS THE SUBJECT OF A
               LINGERING CORPORATE FRAUD SCANDAL
               PERPETUATED AS A “MASSIVE PONZI SCHEME”
               THAT WILL DESTROY THE LIFE SAVINGS OF
               MANY; DAMAGE THE REPUTATION OF ALL
               ASSOCIATED PARTIES, RIDICULE SECURITIES



                                               114
               AND BANKING AUTHORITIES, AND SHAME THE
               UNITED STATES OF AMERICA.

         Our investigation found that while this letter was minimally reviewed by various
Enforcement staff, the Enforcement group decided not to open an investigation or even an
inquiry into the complaint. The Enforcement branch chief responsible for the decision explained
his rationale as follows:

               [R]ather than spend a lot of resources on something that
               could end up being something that we could not bring, the
               decision was made to – to not go forward at that time, or at
               least to – to not spend the significant resources and – and
               wait and see if something else would come up.

        In October 2004, the Fort Worth Examination staff conducted a fourth examination of
Stanford Group Company. The examiners once again analyzed the CD returns using data about
the past performance of the equity markets and concluded that Stanford Group Company’s sales
of the CDs violated numerous federal securities laws.

        While the Fort Worth Examination group made multiple efforts after each examination of
Stanford Group Company to convince the Enforcement group to open and conduct an
investigation of Stanford, we found that the Enforcement group made no meaningful effort to
investigate the potential fraud or to consider an action to attempt to stop it until late 2005. In
1998, the Enforcement group opened a brief inquiry, but then closed it after only three months,
when Stanford failed to produce documents evidencing fraud in response to a voluntary
document request. In 2002, no investigation was opened even after the examiners specifically
identified in an examination report multiple violations of securities laws by Stanford. In 2003,
after receiving the three separate complaints about Stanford’s operations, the Enforcement group
decided not to open up an investigation or even an inquiry, and did not follow up to obtain more
information about the complaints.

         In late 2005, after a change in leadership in the Enforcement group and in response to the
continuing pleas by the Fort Worth examiners, who had been watching the potential fraud grow
in examination after examination, the Enforcement group finally agreed to seek a formal order
from the Commission to investigate Stanford. However, even at that time, the Enforcement
group missed an opportunity to have the SEC bring an action against Stanford Group Company
for its admitted failure to conduct any due diligence regarding Stanford’s investment portfolio.
Such an action could have potentially halted the sales of the Stanford International Bank CDs
though the Stanford Group Company investment adviser, and would have provided investors and
prospective investors with notice that the SEC considered Stanford Group Company’s sales of
the CDs to be fraudulent. We found that this particular action was not considered, partially
because the new head of the Enforcement group in Fort Worth was not aware of the findings of
the Investment Adviser group’s examinations in 1998 and 2002, or even that Stanford Group
Company had registered as an investment adviser, a fact she learned for the first time in the
course of our investigation in January 2010.



                                               115
         We did not find that the reluctance on the part of the SEC’s Fort Worth Enforcement
group to investigate Stanford was related to any improper professional, social or financial
relationship on the part of any current or former SEC employee. We found evidence, however,
that SEC-wide institutional influence did factor into the Enforcement group’s repeated decisions
not to undertake a full and thorough investigation of Stanford, notwithstanding staff awareness
that the potential fraud was growing. We found that senior Fort Worth officials perceived that
they were being judged on the numbers of cases they brought, so-called “stats,” and
communicated to the Enforcement staff that novel or complex cases were disfavored. As a
result, cases like Stanford, which were not considered “quick-hit” or slam-dunk” cases, were not
encouraged.

        We also found that a former head of Enforcement in Fort Worth, who played a significant
role in multiple decisions over the years to quash investigations of Stanford, sought to represent
Stanford on three separate occasions after he left the Commission, and in fact, represented
Stanford briefly in 2006 before he was informed by the SEC Ethics Office that it was improper
for him to do so.

         Our investigation revealed that this individual while working at the SEC was responsible
for decisions: (1) in 1998 to close an inquiry opened regarding Stanford after the 1997
examination; (2) in 2002, in lieu of responding to a complaint or investigating the issues it raised,
to forward it to the Texas State Securities Board; (3) also in 2002, not to act on the Examination
staff’s referral of Stanford for investigation after its Investment Adviser examination; (4) in
2003, not to investigate Stanford after a complaint was received comparing Stanford’s operations
to a known fraud; (5) in 2003, not to investigate Stanford after receiving a complaint from an
anonymous insider alleging that Stanford was engaged in a “massive Ponzi scheme;” and (6) in
2005, to summarily inform senior Examination staff after a presentation was made on Stanford at
a quarterly summit meeting that Stanford was not a matter they planned to investigate.

        Yet, in June 2005, a mere two months after leaving the SEC, this former head of the
Enforcement group in Fort Worth e-mailed the SEC Ethics Office that he had been “approached
about representing [Stanford] . . . in connection with (what appears to be) a preliminary inquiry
by the Fort Worth office.” He further stated, “I am not aware of any conflicts and I do not
remember any matters pending on Stanford while I was at the Commission.”

        After the SEC Ethics Office denied the former head of Enforcement in Fort Worth’s June
2005 request, in September 2006, Stanford retained this individual to assist with inquiries
Stanford was receiving from regulatory authorities, including the SEC. The former head of
Enforcement in Fort Worth met with Stanford Financial Group’s General Counsel in Stanford’s
Miami office and billed Stanford for his time on this representation. In late November 2006, he
called his former subordinate, the Assistant Director working on the Stanford matter in Fort
Worth, who asked him during the conversation, “[C]an you work on this?,” and in fact told him,
“I’m not sure you’re able to work on this.” After this call, the former head of Enforcement in
Fort Worth belatedly sought permission from the SEC’s Ethics Office to represent Stanford. The
SEC Ethics Office replied that he could not represent Stanford for the same reasons given a year
earlier and he discontinued his representation.



                                                116
        In February 2009, immediately after the SEC sued Stanford, this same former head of
Enforcement in Fort Worth contacted the SEC Ethics Office a third time about representing
Stanford in connection with the SEC matter – this time to defend Stanford against the lawsuit
filed by the SEC. An SEC Ethics official testified that he could not recall another instance in
which a former SEC employee contacted the Ethics Office on three separate occasions trying to
represent a client in the same matter. After the SEC Ethics Office informed the former head of
Enforcement in Fort Worth for a third time that he could not represent Stanford, he became upset
with the decision, arguing that the matter pending in 2009 “was new and was different and
unrelated to the matter that had occurred before he left.” When asked during our investigation
why he was so insistent on representing Stanford, he replied, “Every lawyer in Texas and beyond
is going to get rich over this case. Okay? And I hated being on the sidelines.”

        Based upon this evidence, our investigation determined that the former head of
Enforcement in Fort Worth’s representation of Stanford appeared to violate state bar rules that
prohibit a former government employee from working on matters in which that individual
participated as a government employee.

        In summary, our report of investigation concluded overall that the SEC’s Fort Worth
office was aware since 1997 that Stanford was likely operating a Ponzi scheme after conducting
examination after examination for a period of eight years, but merely watched the alleged fraud
grow, and failed to take any action to stop it.

              Recommendations of the OIG’s Stanford Report of Investigation

        We provided our Report of Investigation on the SEC’s handing of the Stanford matter to
the Chairman of the SEC on March 31, 2010. We recommended that the Chairman carefully
review the Report’s findings and share with Enforcement management the portions of the Report
that related to the performance failures by those employees who still work at the SEC, so that
appropriate action (which may include performance-based action, if applicable) would be taken,
on an employee-by-employee basis, to ensure that future decisions about when to open an
investigation and when to recommend that the Commission take action are made in a more
appropriate and timely manner.

        We also made numerous recommendations to improve the operations of several divisions
and offices within the SEC. Specifically, we recommended that:

         (1)     Enforcement ensure that the potential harm to investors if no action is taken is
considered as a factor when deciding whether to recommend an enforcement action, including
consideration of whether this factor, in certain situations, outweighs other factors such as
litigation risk;

       (2)     Enforcement emphasize the significance of bringing cases that are difficult, but
important to the protection of investors, in evaluating the performance of an Enforcement staff
member or a regional office;




                                                117
        (3)     Enforcement consider the significance of the presence or absence of U.S.
investors in determining whether to open an investigation or recommend an enforcement action
that otherwise meets jurisdictional requirements;

        (4)     There be improved coordination between the Enforcement and OCIE on
investigations, particularly those investigations initiated by an OCIE referral to Enforcement;

        (5)     Enforcement re-evaluate the factors utilized to determine when referral of a
matter to state securities regulators, in lieu of an SEC investigation, is appropriate;

       (6)    There be additional training of Enforcement staff to strengthen their
understanding of the laws governing broker-dealers and investment advisers; and

        (7)    Enforcement emphasize the need to coordinate with the Office of International
Affairs and the Division of Risk, Strategy, and Financial Innovation, as appropriate, early in the
course of investigations.

        We also referred our Report of Investigation to the Commission’s Ethics Counsel for
referral to the Bar Counsel offices in the two states in which the former Head of Enforcement in
Fort Worth was admitted to practice law.

                                Follow-up on Recommendations

        My Office is committed to following up with respect to all of the recommendations made
in our Stanford report to ensure that appropriate changes and improvements are made in the
SEC’s operations as a result of our findings. We are aware that many improvements have
already been undertaken under the direction of Chairman Schapiro and Enforcement Director
Khuzami as a result of the findings and many recommendations we made as a result of our
Madoff investigation. We note that Enforcement has indicated that it has taken action on the
recommendations of our Stanford report, and we are in the process of reviewing those actions to
ensure that they are adequate and fully address the OIG’s concerns. We are confident that under
Chairman Schapiro’s leadership, the SEC will carefully take the appropriate steps to implement
fully our Stanford recommendations and ensure that fundamental changes are made in the SEC’s
operations so that the errors and failings we found in our investigation are properly remedied and
not repeated in the future.

                         Similarities to Failures in the Madoff Matter

        While my Office has not conducted any formal analysis of similarities between the
findings in our Madoff and Stanford reports, we have identified some striking parallels between
the two situations. First, in both cases, the SEC received credible and substantive complaints
about possible fraud, but failed to follow up appropriately on these complaints. Second, in both
the Madoff and Stanford matters, the SEC had in its possession ample evidence of potential
fraud, which should have triggered thorough and comprehensive Enforcement investigations and
actions. Third, and most unfortunately, in both situations, prompt and effective action on the
part of the SEC could have potentially uncovered fraud and prevented investors from losing
billions of dollars.

                                               118
        Our Office intends to remain vigilant to ensure that the SEC benefits from the lessons
learned as a result of its failures in both these cases and makes the necessary improvements to
ensure that such failures do not occur again in the future.

                                           Conclusion

        In conclusion, I appreciate the interest of the Chairman, the Ranking Member and the
Committee in the SEC and my Office and, in particular, in the facts and circumstances pertinent
to our Stanford report. I believe that the Committee’s and Congress’s continued involvement
with the SEC is helpful to strengthen the accountability and effectiveness of the Commission.
Thank you.




                                               119
                                       APPENDIX C




         Testimony of H. David Kotz
           Inspector General of the
     Securities and Exchange Commission




Before the Financial Crisis Inquiry Commission

           Wednesday May 5, 2010




                     121
                                           Introduction

        Thank you for the opportunity to testify today before this Commission on the subject of
the implementation of the Securities and Exchange Commission’s (SEC’s or Commission’s)
Consolidated Supervised Entities (CSE) program and the adequacy of the SEC’s oversight of
The Bear Stearns Companies, Inc. (Bear Stearns) and other CSE program participants. I
appreciate the interest in the SEC and the Office of Inspector General (OIG). In my testimony
today, I am representing the OIG, and the views that I express are those of my Office, and do not
necessarily reflect the views of the Commission or any Commissioners.

         The SEC OIG’s mission is to promote the integrity, efficiency and effectiveness of the
critical programs and operations of the SEC. This mission has become increasingly important in
light of the current economic crisis facing our nation. The SEC OIG includes the positions of the
Inspector General, Deputy Inspector General, Counsel to the Inspector General, and has staff in
two major areas: Audits and Investigations.

        Our audit unit conducts, coordinates and supervises independent audits and evaluations
related to the Commission’s internal programs and operations. The primary purpose of
conducting an audit is to review past events with a view toward ensuring compliance with
applicable laws, rules and regulations and improving future performance. Upon completion of
an audit or evaluation, the OIG issues an independent report that identifies any deficiencies in
Commission operations, programs, activities, or functions and makes recommendations for
improvements in existing controls and procedures.

        The Office’s investigations unit responds to allegations of violations of statutes, rules and
regulations, and other misconduct by Commission staff and contractors. We carefully review
and analyze the complaints we receive and, if warranted, conduct a preliminary inquiry or full
investigation into a matter. The misconduct investigated ranges from fraud and other types of
criminal conduct to violations of Commission rules and policies and the Government-wide
conduct standards. The investigations unit conducts thorough and independent investigations
into allegations received in accordance with the applicable Quality Standards for Investigations.
Where allegations of criminal conduct are involved, we notify and work with the Department of
Justice and the Federal Bureau of Investigation as appropriate.

                                      Investigative Reports

        Over the past 2! years since I became the Inspector General of the SEC, my Office’s
investigative unit has conducted numerous comprehensive investigations into significant failures
by the SEC in accomplishing its regulatory mission, as well as investigations of allegations of
violations of statutes, rules and regulations, and other misconduct by Commission staff members
and contractors. Several of these investigations involved senior-level Commission staff and
represent matters of great concern to the Commission, Congressional officials and the general
public. Where appropriate, we have reported evidence of improper conduct and made
recommendations for disciplinary actions, including removals from the Federal service, as well
as recommendations for improvements in agency policies, procedures and practices.



                                                122
        Specifically, we have issued investigative reports regarding a myriad of allegations,
including claims of Enforcement’s failures to pursue investigations vigorously or in a timely
manner, improper securities trading by Commission employees, improper conflicts of interest by
Commission staff members, unauthorized disclosure of non-public information, whistleblower
allegations of contract fraud, preferential treatment given to prominent persons, retaliatory
termination, perjury by supervisory Commission attorneys, falsification of federal documents,
and the misuse of official position, government resources and official time. In August 2009, we
issued a 457-page report of investigation analyzing the reasons that the SEC failed to uncover
Bernard Madoff’s $50 billion Ponzi scheme. More recently, we issued a thorough and
comprehensive report of investigation regarding the history of the SEC’s examinations and
investigations of Robert Allen Stanford’s $8 billion alleged Ponzi scheme.

                                         Audit Reports

       Our audit unit has also issued numerous reports involving matters critical to SEC
operations and the investing public. These have included audits of the Commission’s CSE and
broker-dealer risk assessment programs, an audit of the Division of Enforcement’s
(Enforcement’s) practices related to naked short selling complaints and referrals, a review of
Enforcement’s process for recommending disgorgement waivers, and an analysis of the SEC’s
oversight of credit rating agencies. In addition, because our investigative report related to the
Madoff Ponzi scheme identified systematic breakdowns in the manner in which the SEC
conducted its examinations and investigations, we also performed three comprehensive reviews
providing the SEC with 69 specific and concrete recommendations to improve the operations of
both Enforcement and the Office of Compliance Inspections and Examinations (OCIE).

                             Bear Stearns-Related Audit Reports

        One of the most significant audit reports we have prepared to date was a comprehensive
report issued in September 2008, analyzing the Commission’s oversight of the SEC’s CSE
program, through which the Commission exercised direct oversight over Bear Stearns, the
Goldman Sachs Group, Inc. (Goldman Sachs), Morgan Stanley, Merrill Lynch & Co (“Merrill
Lynch”) and Lehman Brothers Holdings Inc. (Lehman Brothers).

         The SEC initiated this audit based on a Congressional request received on April 2, 2008,
from Charles E. Grassley, the Ranking Member of the United States Senate Committee on
Finance, asking that the OIG analyze the Commission’s oversight of CSE firms and broker-
dealers subject to the Commission’s risk assessment program. Specifically, Senator Grassley’s
letter requested a review of the Division of Trading and Market’s (TM’s) oversight of the five
CSE firms, with a special emphasis on Bear Stearns, and asked that the OIG analyze how the
CSE program was run and the adequacy of the Commission’s monitoring of Bear Stearns. In
response to this Congressional request, we conducted two separate audits: an audit of the CSE
program as it related to Bear Stearns and an audit of TM’s broker-dealer risk assessment
program.




                                               123
                               Background of the CSE Program

         In 2004, the Commission adopted rule amendments under the Securities and Exchange
Act of 1934, which created the voluntary CSE program. This program was established to allow
the Commission to supervise certain broker-dealer holding companies on a consolidated basis.
In this capacity, the Commission’s supervision extended beyond the registered broker-dealer to
the unregulated affiliates of the broker-dealer and the holding company itself.

        A broker-dealer became a CSE by applying to the Commission for an exemption from the
Commission’s standard net capital rule, and the broker-dealer’s ultimate holding company
consenting to group-wide Commission supervision, if it did not already have a principal
regulator. By obtaining an exemption from the standard net capital rule, the CSE firms’ broker-
dealers were permitted to compute net capital using an alternative method.

        At the time of the OIG’s audit fieldwork, which was subsequent to Bear Stearns’ collapse
in March 2008, the Commission exercised direct oversight of only four CSE firms: Goldman
Sachs, Morgan Stanley, Merrill Lynch, and Lehman Brothers. On September 15, 2008, Lehman
Brothers announced that it would file for bankruptcy protection, and the Bank of America
announced its agreement to acquire Merrill Lynch. Both these firms had experienced serious
financial difficulties. On September 21, 2008, the Federal Reserve approved (pending a statutory
five-day antitrust waiting period), applications from Goldman Sachs and Morgan Stanley to
become bank holding companies with the Federal Reserve as their new principal regulator.

                                 The Collapse of Bear Stearns

         Bear Stearns was a holding company that had two registered broker-dealers. Its main
activities included investment banking, securities and derivatives sales and trading, clearance,
brokerage and asset management. Bear Stearns was highly leveraged and had a large exposure
(i.e., concentration of assets) in mortgage-backed securities. Bear Stearns also had less capital
and was less diversified than several other CSE firms.

        In June 2007, two hedge funds that Bear Stearns managed collapsed because of subprime
mortgage losses. Nearly a year later, during the week of March 10, 2008, rumors began to
spread about liquidity problems at Bear Stearns. Due to Bear Stearns’ lenders not rolling over
secured financing, Bear Stearns began to face severe liquidity problems. As a result, on March
14, 2008, JP Morgan Chase & Co. (JP Morgan) provided Bear Stearns with emergency funding.
According to Congressional testimony, after the markets closed on March 14, 2008, it became
apparent that the Federal Reserve Bank of New York’s (FRBNY’s) funding could not stop Bear
Stearns’ downward spiral. On March 16, 2008, it was announced that Bear Stearns would be
sold to JP Morgan, with financing support coming from the FRBNY. In May 2008, the sale of
Bear Stearns was completed.

                                  Audit Objectives and Work

       The Congressional request the OIG received on April 2, 2008, noted that TM was
responsible for regulating the largest broker-dealers and their associated holding companies and

                                               124
requested a review of TM’s oversight of the five CSE firms it directly oversaw, with a special
emphasis on Bear Stearns. The request further called for the OIG to analyze how the CSE
program was run, to examine the adequacy of the Commission’s monitoring of Bear Stearns, and
to make recommendations to improve the Commission’s CSE program. The audit’s objectives
were to evaluate the Commission’s CSE program, emphasizing the Commission’s oversight of
Bear Stearns and determine whether improvements were needed in the Commission’s monitoring
of CSE firms and its administration of the CSE program.

        The audit was not intended to be a complete assessment of the multitude of events that
led to Bear Stearns’ collapse and, accordingly, did not purport to demonstrate any specific or
direct connection between the failure of the CSE program’s oversight of Bear Stearns and Bear
Stearns’ collapse.

        Given the complexity of the subject matter, we retained an expert, Albert S. (Pete) Kyle,
to provide assistance with the audit. Professor Kyle, a faculty member at the University of
Maryland, is a renowned expert on many aspects of capital markets, and has conducted
significant research on numerous finance-related matters. He served as a staff member of the
Presidential Task Force on Market Mechanisms (the Brady Commission) after the stock market
crash of 1987 and has worked as a consultant on financial topics for several government
agencies.

                                         Audit Findings

        The OIG’s audit identified significant deficiencies in the CSE program that warranted
improvement. The CSE program’s mission, as it was described on the SEC’s website, provided
in pertinent part:

               The regime is intended to allow the Commission to monitor
               for, and act quickly in response to, financial or operational
               weakness in a CSE holding company or its unregulated
               affiliates that might place regulated entities, including US
               and foreign-registered banks and broker-dealers, or the
               broader financial system at risk. [Emphasis added]

       The audit found that the CSE program failed to carry out its mission in its oversight of
Bear Stearns because, under the Commission and the CSE program’s watch, Bear Stearns
suffered significant financial weaknesses and the FRBNY needed to intervene during the week
of March 10, 2008, to prevent significant harm to the broader financial system.

        Overall, the audit found that there were significant questions about the adequacy of a
number of the CSE program’s requirements, given that Bear Stearns was compliant with several
of these requirements, but nonetheless collapsed. In addition, the audit found that prior to Bear
Stearns’ collapse, TM became aware of numerous potential red flags regarding Bear Stearns’
concentration of mortgage securities, high leverage, shortcomings of risk management in
mortgage-backed securities and the lack of compliance with the spirit of certain Basel II



                                               125
standards (i.e., international standards for banking supervision), but did not take actions to limit
these risk factors.

       The audit further found that procedures and processes were not strictly followed. For
example, the Commission issued an order that approved Bear Stearns to become a CSE prior to
the completion of the inspection process. Further, the SEC’s Division of Corporation Finance
(Corporation Finance) did not review a Bear Stearns 10-K filing in a timely manner.

      The audit also identified numerous specific concerns with the Commission’s oversight of
the CSE program. Some of the concerns the audit identified included:

              (a)     Bear Stearns was compliant with the CSE program’s capital and liquidity
       requirements; however, its collapse raised questions about the adequacy of these
       requirements.

              (b)      Although TM was aware, prior to Bear Stearns becoming a CSE firm, that
       Bear Stearns’ concentration of mortgage securities was increasing for several years and
       was beyond its internal limits, and that a portion of their mortgage securities (e.g.,
       adjustable rate mortgages) represented a significant concentration of market risk, TM did
       not make any efforts to limit Bear Stearns’ mortgage securities concentration.

               (c)      Prior to the adoption of the rule amendments that created the CSE
       program, the broker-dealers affiliated with the CSE firms were required either to
       maintain a debt-to-net capital ratio of less than 15 to 1 after their first year of operation,
       or to have net capital not less than the greater of $250,000 or two percent of aggregate
       debit items computed in accordance with the Formula for Determination of Reserve
       Requirements for Broker-Dealers. However, the program did not require CSE firms to
       have a leverage ratio limit. Further, despite TM being aware that Bear Stearns’ leverage
       was high and some authoritative sources describing a linkage between leverage and
       liquidity risk, TM made no efforts to require Bear Stearns to reduce its leverage.

               (d)    TM was aware that the risk management of mortgages at Bear Stearns had
       numerous shortcomings, including the lack of expertise by risk managers in mortgage-
       backed securities at various times, the lack of timely formal review of mortgage models,
       persistent understaffing, a proximity of risk managers to traders suggesting a lack of
       independence, turnover of key personnel during times of crisis, and the inability or
       unwillingness to update models to reflect changing circumstances. Notwithstanding this
       knowledge, TM missed opportunities to push Bear Stearns aggressively to address these
       identified concerns.

                (e)     There was no documentation of discussions between TM and Bear Stearns
       concerning scenarios involving a meltdown of mortgage market liquidity, accompanied
       by a fundamental deterioration of the mortgages themselves. TM appeared to identify the
       types of risks associated with these mortgages that evolved into the sub-prime mortgage
       crisis, yet did not require Bear Stearns to reduce its exposure to sub-prime loans.



                                                 126
               (f)    Bear Stearns was not compliant with the spirit of certain Basel II standards
       and we did not find sufficient evidence that TM required Bear Stearns to comply with
       these standards.

              (g)    TM took no actions to assess the tolerance for risk on the part of Bear
       Stearns’ Board of Directors and senior officials (e.g., the Chief Executive Officer),
       although we found that this was a prudent and necessary oversight procedure.

              (h)      Without an appropriate delegation of authority, TM authorized the CSE
              firms’ internal audit staff to perform critical audit work involving risk
       management systems, instead of this work being performed by the firms’ external
       auditors, as the rule that created the CSE program required.

              (i)    In June 2007, two of Bear Stearns’ managed hedge funds collapsed.
       Subsequent to this collapse, significant questions were raised about the lack of
       involvement in handling the crisis by some of Bear Stearns’ senior management officials.
       However, TM did not reassess the communication strategy component of Bear Stearns’
       contingency funding plan after the collapse of the hedge funds, and very significant
       questions were once again raised about the handling of the crisis by some of Bear
       Stearns’ management officials during the week of March 10, 2008.

               (j)    The Commission issued four of the five orders approving firms (including
       Bear Stearns) to use the alternative capital method, and thus become CSEs, before the
       inspection process was completed.

               (k)     Corporation Finance did not review Bear Stearns’ most recent 10-K filing
       in a timely manner. The effect of this untimely review was that Corporation Finance
       deprived investors of material information that they could have used to make well-
       informed investment decisions (i.e., whether to buy/sell Bear Stearns’ securities). In
       addition, the information obtained through the review process (e.g., Bear Stearns’
       exposure to subprime mortgages) could have been potentially beneficial to dispel the
       rumors that led to Bear Stearns’ collapse.

                                   Audit Recommendations

The audit identified 26 recommendations intended to improve the Commission’s oversight of the
CSE firms.

The recommendations included, among others:

              (a)      A reassessment of guidelines and rules regarding the CSE firms’ capital
       and liquidity levels;

               (b)     Taking appropriate measures to ensure that TM adequately incorporates a
       firm’s concentration of securities into the CSE program’s assessment of a firm’s risk
       management systems and more aggressively prompts CSE firms to take appropriate
       actions to mitigate such risks;
                                              127
          (c)   A reassessment of the CSE program’s policy regarding leverage ratio
limits;

        (d)     Ensuring that: (1) the CSE firms have specific criteria for reviewing and
approving models used for pricing and risk management, (2) the review and approval
process conducted by the CSE firms is performed in an independent manner by the CSE’s
risk management staff, (3) each CSE firm’s model review and approval process takes
place in a thorough and timely manner, and (4) limits are imposed on risk taking by firms
in areas where TM determines that risk management is not adequate;

        (e)    Being more skeptical of CSE firms’ risk models and working with
regulated firms to help them develop additional stress scenarios that have not already
been contemplated as part of the prudential regulation process;

        (f)     Greater involvement on the part of TM in formulating action plans for a
variety of stress or disaster scenarios, even if the plans are informal;

       (g)    Taking steps to ensure that mark disputes do not provide an occasion for
CSE firms to inflate the combined capital of two firms by using inconsistent marks;

       (h)      Encouraging the CSE firms to present risk management data in a useful
manner, which is consistent with how the CSE firms use the information internally and
allows risk factors to be applied consistently;

        (i)      Ensuring (in accordance with Basel II) that the CSEs take appropriate
capital deductions for illiquid assets and stressed repos, especially stressed repos where
illiquid securities are posted as collateral;

        (j)     Greater discussion of risk tolerance with the Boards of Directors and
senior management of CSE firms to better understand whether the actions of CSE firms’
staff are consistent with the desires of the Boards of Directors and senior management;

        (k)     Requiring compliance with the existing rule that requires external auditors
to review the CSE firms’ risk management control systems, or seek Commission
approval in accordance with the Administrative Procedures Act for this deviation from
the current rule’s requirement;

       (l)     Ensuring that reviews of a firm’s contingency funding plan includes an
assessment of a CSE firm’s internal and external communication strategies;

       (m)    Developing a formal automated process to track material issues identified
by the monitoring staff to ensure they are adequately resolved;

        (n)     Ensuring that all phases of a firm’s inspection process are completed
before recommending that the Commission allow any additional CSE firms the authority
to use the alternative capital method;



                                        128
              (o)     Improving collaboration efforts among TM, Corporation Finance, OCIE,
       and the Office of Risk Assessment (ORA);

              (p)     The development by Corporation Finance of internal guidelines for
       reviewing filings timely and tracking and monitoring compliance with its internal
       guidelines; and

              (q)     The creation of a Task Force led by ORA with staff from TM, the
       Division of Investment Management, and OCIE to perform an analysis of large firms
       with customer accounts that hold significant amounts of customer funds and have
       unregulated entities, to determine the costs and benefits of supervising these firms on a
       consolidated basis.

                                    The Agency’s Response

        On September 26, 2008, a day after the OIG issued its final audit report on the SEC’s
Oversight of Bear Stearns and Related Entities, former SEC Chairman Christopher Cox
announced that TM would end the CSE program. Notwithstanding the closure of the program,
the SEC has made efforts to implement the recommendations contained in our report and to
improve its operations accordingly. Specifically, with respect to recommendations that pertained
directly to the terminated CSE program, TM has, where appropriate, considered the applicability
of the OIG’s recommendations to its oversight of broker-dealers and has consulted with the
Federal Reserve, which assumed responsibility for overseeing the activities of several firms at
the holding company level. As of March 31, 2010, management had completed implementation
of 23 of the 26 recommendations contained in the OIG’s audit report.

                                      Concluding Remarks

        In conclusion, we appreciate the Commission’s interest in the SEC and our Office and, in
particular, in our audit report pertaining to the CSE program and Bear Stearns. I believe that this
Commission’s analysis of these matters as part of its overall evaluation of the causes of the
current financial and economic crisis in the United States is beneficial to strengthening the
accountability and effectiveness of the SEC. Thank you.




                                               129
U.S. Securities
and Exchange
 Commission




          Additional copies of this report may be obtained by contacting the
                   Office of Inspector General at (202) 551-6061.

          The report is also available on the Inspector General’s website at
                               hhtp://www.sec-oig.gov.
